<html>
<title> - AN OVERVIEW OF THE FISCAL YEAR 2012 BUDGET PROPOSALS AT THE NATIONAL SCIENCE FOUNDATION AND THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





         AN OVERVIEW OF THE FISCAL YEAR 2012 BUDGET PROPOSAL AT
                  THE NATIONAL SCIENCE FOUNDATION AND
           THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2011

                               __________

                            Serial No. 112-6

                               __________

 Printed for the use of the Committee on Science, Space, and Technology



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
 65-051PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         DAVID WU, Oregon
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               GABRIELLE GIFFORDS, Arizona
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL, Texas             MARCIA L. FUDGE, Ohio
PAUL C. BROUN, Georgia               BEN R. LUJAN, New Mexico
SANDY ADAMS, Florida                 PAUL D. TONKO, New York
BENJAMIN QUAYLE, Arizona             JERRY McNERNEY, California
CHARLES J. ``CHUCK'' FLEISCHMANN,    JOHN P. SARBANES, Maryland
    Tennessee                        TERRI A. SEWELL, Alabama
E. SCOTT RIGELL, Virginia            FREDERICA S. WILSON, Florida
STEVEN M. PALAZZO, Mississippi       HANSEN CLARKE, Michigan
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY












                            C O N T E N T S

                             MARCH 11, 2011

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Ralph M. Hall, Chairman, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    12
    Written Statement............................................    13

Statement by Representative Eddie Bernice Johnson, Ranking 
  Minority Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................    13
    Written Statement............................................    15

                                Panel I:

Dr. Subra Suresh, Director, National Science Foundation
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    24

Dr. Ray Bowen, Chairman, National Science Board
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    32

                               Panel II:

Dr. Patrick Gallagher, Under Secretary of Commerce for Standards 
  and Technology and Director, National Institute of Standards 
  and Technology
    Oral Statement...............................................    54
    Written Statement............................................    56
    Biography....................................................    63

Discussion.......................................................    12

             Appendix I: Answers to Post-Hearing Questions

Dr. Subra Suresh, Director, National Science Foundation..........    76

Dr. Ray Bowen, Chairman, National Science Board..................    95

Dr. Patrick Gallagher, Under Secretary of Commerce for Standards 
  and Technology and Director, National Institute of Standards 
  and Technology.................................................    99

               Appendix II: Additional Member Statements

Submitted Statement by Representative Jerry F. Costello, 
  Congressman from Illinois......................................   106

 
 AN OVERVIEW OF THE FISCAL YEAR 2012 BUDGET PROPOSALS AT THE NATIONAL 
    SCIENCE FOUNDATION AND THE NATIONAL INSTITUTE OF STANDARDS AND 
                               TECHNOLOGY

                         FRIDAY, MARCH 11, 2011

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 10:04 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Ralph M. Hall 
[Chairman of the Committee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

        An Overview Of The Fiscal Year 2012 Budget Proposals At

                  The National Science Foundation And

           The National Institute Of Standards And Technology

                         friday, march 11, 2011
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Friday, March 11, 2011, the House Committee on Science, Space, 
and Technology will hold a hearing to examine the Administration's 
proposed fiscal year 2012 (FY12) budget request for the National 
Science Foundation and the National Institute of Standards and 
Technology. There will be two panels, one focused on NSF, and the other 
on NIST. An Administration witness will provide testimony for each 
agency, and the National Science Board Chair will discuss the National 
Science Foundation request.

Witnesses

Panel I

        <bullet>  Dr. Subra Suresh, Director, National Science 
        Foundation

        <bullet>  Dr. Ray Bowen, Chairman, National Science Board

Panel II

        <bullet>  Dr. Patrick Gallagher, Under Secretary of Commerce 
        for Standards and Technology and Director, National Institute 
        of Standards and Technology

Hearing Overview

    The National Science Foundation (NSF) is an independent federal 
agency created by Congress in 1950 ``to promote the progress of 
science; to advance the national health, prosperity, and welfare; to 
secure the national defense . . . `` With an annual budget of about 
$6.9 billion (FY 2010), it is the funding source for approximately 20 
percent of all federally supported basic research conducted by 
America's colleges and universities.
    The National Institute of Standards and Technology (NIST) is a non-
regulatory agency within the Department of Commerce. Originally founded 
in 1901 as the National Bureau of Standards, NIST's mission is to 
promote U.S. innovation and industrial competitiveness by advancing 
measurement science, standards, and technology in ways that enhance 
economic security and improve our quality of life. By working closely 
alongside industry, NIST has become recognized as a provider of high-
quality information utilized by the private sector.
    While NSF and NIST have very different organizational structures 
and functions, these two agencies, along with the Department of 
Energy's Office of Science, have been consistently recognized for their 
ties to the economic competitiveness and national security of the 
United States.

NSF Overview
    NSF is the primary source of federal funding for non-medical basic 
research, providing approximately 40 percent of all federal support, 
and serves as a catalyst for science, technology, engineering, and 
mathematics (STEM) education improvement at all levels of education. It 
supports the fundamental investigations that ultimately serve as the 
foundation for progress in nationally significant areas such as 
national security, technology-driven economic growth, energy 
independence, health care, nanotechnology, and networking and 
information technology.
    Through roughly 10,000 new awards per year, NSF supports an average 
of 200,000 scientists, engineers, educators and students at 
universities, laboratories and field sites all over the U.S. and 
throughout the world. These grants fund specific research proposals 
that have been judged the most promising by a rigorous and objective 
merit-review system. In the past few decades, NSF-funded researchers 
have won more than 180 Nobel Prizes.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

NSF Budget Summary
    The FY 12 budget request for NSF is $7.7 billion, an 
increase of 13 percent, or $894.5 million over the FY 10 
enacted level (not including any carryover from the $3 billion 
NSF received from ARRA funding). The request continues to keep 
NSF on a doubling path for funding as set out in the America 
COMPETES Act and America COMPETES Reauthorization Act. The 
budget for NSF is divided into three main accounts: Research 
and Related Activities, Education and Human Resources, and 
Major Research Equipment and Facilities Construction.

Research and Related Activities (RRA)
    The FY 12 budget request includes $6.3 billion for Research 
and Related Activities (RRA), an increase of $690 million or 
12.4 percent over FY 10 enacted. RRA is made up primarily of 
six disciplinary directorates: non-biomedical life sciences 
(BIO); computer sciences (CISE); engineering (ENG); geosciences 
(GEO); math and physical sciences (MPS); and social, 
behavioral, and economic sciences (SBE). Each of these 
directorates get significant increases in the FY 12 budget 
request ranging from six percent for MPS to 22.1 percent for 
ENG. New programs established as part of the increased research 
funding request for FY 12 include $35 million for a 
nanotechnology manufacturing initiative, $40 million in next-
generation robotics technologies, and $96 million for an 
interdisciplinary program to eventually replace computer chip 
technologies. In addition, $87 million is requested for 
advanced manufacturing activities including expanded 
university-industry research partnerships and regional 
innovation ecosystems and clean energy manufacturing research. 
Another $117 million is requested for ``cyber-infrastructure'' 
activities to accelerate the pace of discovery and $12 million 
for a ``new program that will fund a suite of activities that 
promote greater interdisciplinary research.''
    As part of the Science, Engineering and Education for 
Sustainability (SEES) program that crosses all NSF directorates 
and has a goal of advancing ``climate and energy science, 
engineering, and education to inform the societal actions 
needed for environment and economic sustainability and 
sustainable human well-being,'' the FY 12 budget request is 
$998.1 million, an increase of$337.5 million or 51 percent.
    In addition, the FY 12 budget request also includes a plan 
to invest broadband spectrum receipts in a variety of areas, 
including $150 million to NSF in FY 12 and $1 billion total 
over a five-year period for targeted research on experimental 
wireless technology testbeds, more flexible and efficient use 
of the radio spectrum, and cyber-physical systems such as 
wireless sensor networks for smart buildings, roads, and 
bridges. NSF's participation is a piece of the $3 billion WIN 
fund.

Education and Human Resources (EHR)
    EHR funds most of NSF's activities that support K-12 STEM 
education and the majority of activities that support 
undergraduate STEM education. EHR also funds most of NSF's 
graduate fellowship and traineeship programs.
    The FY 12 budget request for EHR is $911 million, a $38.4 
million or 4.4 percent increase over FY l0. The Administration 
continues to offer a mixed message regarding the treatment of 
EHR relative to the healthy increase for RRA. While calling for 
an investment of $3.4 billion in STEM education activities 
across the federal government, a number of proven NSF 
initiatives are being eliminated, reduced, or reprogrammed to 
make way for new or expanded programs. Like last year's 
request, the FY 12 budget request continues to shift a greater 
responsibility for STEM education to the Department of 
Education while maintaining NSF primarily as a research agency.
    New funding in the FY 12 budget request includes an 
additional $20 million for a Transforming Broadening 
Participation through STEM (TBPS) pilot program to seek 
innovative solutions for broadening participation in STEM at 
the undergraduate level. This is part of an overarching 
realigned program called Broadening Participation at the Core 
(BPAC), which also houses several underrepresented population 
programs. The BPAC program total request is $156 million, a $21 
million or 23.3 percent increase over FY l0. Research programs 
focused on gender and persons with disabilities have been moved 
from this Division to the Division of Research on Learning in 
Formal and Informal Settings and funding under the request is 
cut by 8.7 percent to $17 million. It is unclear why this shift 
in funding emphasis and program location is warranted.
    Additionally, the FY 12 budget request includes $40 million 
in funding for a new teacher-training research and development 
program, split evenly between K-12 teachers and undergraduate 
teachers. At the same time, the budget request for Noyce 
Scholarships is $45 million, a decrease of $10 million or 18.2 
percent and the Math and Science Partnership is $48.2 million, 
also a decrease of $10 million or 17.2 percent.
    Likewise, the Administration's budget request places a high 
priority on Graduate Research Fellowships (GRF) by increasing 
the funding to $134.6 million, a 31.2 percent increase over FY 
I0, while essentially flatlining the Integrative Graduate 
Education and Research Traineeship Program (IGERT) at $30.2 
million and moving to eliminate the Graduate STEM Fellows in K-
12 Education (GK-12). While recognizing the flexibility that 
GRFs provide graduate students, IGERT is also an extremely well 
regarded and effective program that by design supports cutting-
edge interdisciplinary science. The reason for this continued 
unbalanced treatment of two equally important and effective 
graduate student programs is unclear.

Major Research Equipment and Facilities Construction (MREFC)
    The MREFC account funds the construction of large research 
facilities, such as telescopes and research ships. Funding for 
the design, operation and management of these major user 
facilities is included in the R&RA budget.
    The FY 12 budget request includes $224.7 million for the 
Major Research Equipment and Facilities Construction (MREFC) 
account. This is a 91.6 percent increase from FY 10, but the FY 
10 amount does not include $146 million provided in ARRA 
funding for the Advanced Technology Solar Telescope (ATST). A 
bulk of MREFC funding in FY 12 includes $87.9 million for the 
second year construction of the National Ecological Observatory 
Network (NEON), which will collect data across the U.S. on the 
impacts of climate change, land use change, and invasive 
species. Another $102.8 million is requested for the fourth 
year of construction of the Ocean Observatories Initiative 
(00I), an integrated network of instrumentation that will 
provide continuous and interactive access to the ocean. 001 
also received $157 million in ARRA funding in FY 09.

Agency Operations and Award Management (.4. OAM)
    The AOAM account funds the internal operations of NSF. The 
FY 12 budget request includes $357.7 million for AOAM. This is 
a 19.2 percent increase of$57.7 million. $44.7 million of this 
increase is related to the expiration of the NSF building 
leases in 2013. A new lease will need to be signed in FY I2.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

NIST Overview
    NIST operates two main research laboratories in 
Gaithersburg, MD, and Boulder, CO, as well as radio stations in 
Hawaii and Colorado. NIST also maintains partnerships with the 
Hollings Marine Labs in Charleston, SC, the JILA joint 
institute operated with the University of Colorado, and the 
Center for Advanced Research in Biotechnology (CARB) and the 
Joint Quantum Institute, both operated in conjunction with the 
University of Maryland.
    NIST employs about 3,100 scientists, engineers, 
technicians, and support and administrative personnel. Also, 
NIST annually hosts about 2,600 associates and facility users 
from academia, industry, and other government agencies. In 
addition, NIST partners with 1,600 manufacturing specialists 
and staff at about 400 Manufacturing Extension Partnership 
(MEP) service locations around the country. Of note, NIST 
scientists have earned three Nobel Prizes over the last 15 
years, and NIST led a building and fire safety investigation to 
study the structural failure and subsequent progressive 
collapse of the World Trade Center buildings following the 
terrorist attacks of 2001.

NIST Reorganization
    In October 2010, NIST reorganized its structure, with the 
goal of aligning its research units according to a structure 
defined around mission instead of scientific disciplines. The 
realignment is expected to allow increased decision-making 
flexibility, greater accountability for customer product and 
services delivery, and for more interdisciplinary research to 
be conducted at NIST. Finally, the number of operational units 
dropped from ten to six, creating a more streamlined management 
structure.

NIST Budget Summary
    In FY 12, the Administration has requested a funding level 
of $1 billion or a 16.9 percent increase from FY 10 enacted 
funding for the NIST. The budget request would provide $678.9 
million for NIST's core Scientific and Technical Research and 
Services (STRS); $84.6 million for Construction of Research 
Facilities (CRF); $142.6 million for the Manufacturing 
Extension Partnership (MEP) program; and $75.0 million for the 
Technology Innovation Program (TIP).

Research and Facilities
    The FY 12 NIST budget request is $678.9 million for the 
Agency's Scientific and Technical Research Services (STRS), an 
increase of $163.9 million or 31.8 percent, and includes $168 
million in specific initiatives to address national priorities 
related to cyber infrastructure, technology interoperability, 
nanotechnology, and advanced manufacturing and materials. The 
STRS FY 12 request continues the Administration's plan to 
double funding for key basic research agencies.
    The FY 12 budget request for Construction of Research 
Facilities (CRF) is $84.6 million, a 42.4 percent decrease from 
FY 10 enacted. The significant decrease represents the 
completion of several major renovation projects at the 
laboratory facilities in Boulder, CO. CRF funding would support 
maintenance and repair of existing NIST buildings as well as 
continue the interior renovation efforts of the Boulder lab 
Building 1 ($25.4 million).
    In order to advance measurement science, standards, and 
technology, NIST currently operates six laboratory units:

        <bullet> LMaterial Measurement Laboratory (MML) The MML 
        serves as the national reference laboratory for 
        measurements in the chemical, biological, and material 
        sciences. The MML provides measurement services used by 
        a broad set of industries including but not limited to: 
        healthcare (biomarkers), renewable energy (measuring 
        the quality of fuels) and forensic science (biometric 
        identification techniques).

        <bullet> LPhysical Measurement Laboratory (PLM) The PLM 
        develops and disseminates the national standards of 
        measurement, e.g., length, mass, force and shock, 
        acceleration, time and frequency, electricity, 
        temperature, humidity and pressure. This information 
        supports consistent timekeeping, on which many 
        technologies like GPS rely; and underpins the safety of 
        our national electricity grid.

        <bullet> LEngineering Laboratory (EL) The EL develops 
        and disseminates advanced manufacturing and 
        construction technologies, guidelines, and services to 
        the U.S. manufacturing and construction industries. 
        Examples of EL work include researching ways to reduce 
        the spread of fire in residential buildings and 
        developing performance metrics for advanced 
        manufacturing processes.

        <bullet> LInformation Technology Laboratory (ITL) The 
        ITL develops and disseminates standards, measurements, 
        and testing for interoperability, security, usability, 
        and reliability of information systems, including cyber 
        security standards and guidelines for federal agencies 
        and U.S. industry. ITL works in areas such as cloud 
        computing, health information technology, and advanced 
        voting technologies.

        <bullet> LCenter for Nanoscale Science and Technology 
        (CNST) is the only national nanotechnology center 
        focused on commerce. The facility offers shared space--
        utilized by a variety of public and private 
        stakeholders--for nanoscale fabrication and measurement 
        and develops innovative nanoscale measurement and 
        fabrication capabilities.

        <bullet> LCenter for Neutron Research (NCNR) provides a 
        national user facility, utilized by universities, 
        government and industry, to study neutron-based 
        measurement capabilities. The level of measurement 
        capabilities is unavailable anywhere else in the 
        country, allowing researchers to answer questions in 
        nanoscience and technology with a broad range of 
        applications.

    Strategic and Emerging Research Initiative (SERI): Within 
its laboratory programs, NIST also operates a program ($10 
million requested in FY 12) providing flexibility to target 
research efforts in certain ``high-risk, high-payoff'' areas of 
interest. Current areas of focus include quantifying greenhouse 
gas measurements, standards for remediation and decontamination 
of structures contaminated by methamphetamine laboratories, 
biomanufacturing, and characterizing nanoparticles currently 
used in consumer products.

Industrial Technology Services (ITS)
    In addition to the laboratories, NIST manages several 
extramural programs supporting industry. The FY 12 $142.6 
million request for the Manufacturing Extension Partnership 
(MEP) program is a $17.9 million or 14.4 percent increase from 
the FY 10 enacted level. The MEP program is a public/private 
partnership run by Centers in all 50 states and Puerto Rico 
that provides technical assistance for small and medium-sized 
manufacturers to modernize their operations and adapt to 
foreign competition. MEP Centers are supported by equal 
contributions from federal funds, state funds, and industry 
client fees. The requested increase would expand the program in 
support of the Administration's initiatives to reinvent 
domestic manufacturing to create jobs and respond to future 
challenges and opportunities.
    The FY 12 request for the Technology Innovation Program 
(TIP) is $75 million, a $5.1 million increase over FY 10 
enacted. TIP awards cost-shared grants to small companies and 
joint ventures for the development of high-risk, high-reward 
technologies that meet critical national needs. This program 
was created by the 2007 America COMPETES Act but was not 
reauthorized in the 2010 America COMPETES Reauthorization Act 
(P.L. 111-358).
    The Baldrige Performance Excellence Program (BPEP) would 
receive $1.9 million less than FY 10 enacted in the FY 12 
budget request, reflecting the Administration's goal of 
transitioning the program to privately funded sources. Baldrige 
provides criteria and evaluation of successful strategies and 
performance practices across an array of industries.
    New in FY 12 is the Advanced Manufacturing Technology 
Consortia (AMTech) Program, with a $12.3 million request. 
Modeled after the Nanoelectronics Research Initiative (NRI), a 
partnership between NSF, NIST, industry, and universities 
across the nation, the AMTech program would align industry 
needs with university research in innovative manufacturing. The 
program would fund facilities, equipment, and research at 
universities and government laboratories to address long-term 
research needs of the manufacturing industry.

Public Safety Innovation Fund
    The FY 12 budget request includes a plan to invest 
broadband spectrum receipts in a variety of areas, including 
$100 million annually provided to NIST for 2012-2016 for 
research supporting the development and promotion of wireless 
technologies to advance public safety, Smart Grid, and other 
broadband capabilities. NIST's participation is a piece of the 
$3 billion WIN fund.
    Chairman Hall. Okay, the Committee on Science, Space, and 
Technology will come to order. And good morning and welcome to 
today's hearing entitled ``An Overview of the Fiscal Year 2012 
Budget Proposal at the National Science Foundation and the 
National Institute of Standards and Technology.'' That 
information is in your packets and contained in the written 
testimony biography and the Truth in Testimony disclosure for 
today's witnesses.
    And today's hearing includes two panels. Our first panel 
will feature National Science Foundation Director Dr. Subra 
Suresh. I am going to mispronounce that. Subra Suresh. And my 
name is Hall. You spell it with an A too, not an E. And 
National Science Board Chairman Dr. Ray Bowen, a man I have 
known and admired for many years.
    Our second panel will feature the Under Secretary of 
Commerce for Standards and Technology and Director of the 
National Institute of Standards and Technology, Dr. Patrick 
Gallagher.
    I recognize myself for five minutes for an opening 
statement. I am pleased to discuss the Fiscal Year 2012 budget 
request for the two agencies within the Science, Space, and 
Technology Committee's jurisdiction. The National Science 
Foundation, NSF, and the National Institute of Standards and 
Technology, NIST. There is no denying that both of these 
agencies make vital contributions to our nation's 
competitiveness, and this committee has long bipartisan records 
of support for these agencies and their contributions.
    NSF's work is diverse and far-reaching. NSF's investments 
have yielded barcodes, the sign language dictionary, MRIs, and 
Google. In the last year alone, the foundation has supported 
research ranging from new techniques to combat the flu virus to 
sustaining the budding field of nanoelectronics, whatever that 
is, through ways to minimize the negative impacts of sunspots 
on communication technology.
    NSF is the primary source of Federal Government support for 
our colleges and universities as most NSF investments are for 
merit-based, peer-reviewed research conducted in university 
laboratories across the nation. In fact, I suspect that every 
one of our districts has benefited from NSF funding in one form 
or the other.
    NIST is a non-regulatory laboratory of the Federal 
Government tasked with innovation and industrial 
competitiveness by advancing measurement science, standards, 
and technology. They work alongside the industry to make sure 
their activities improve the quality of life for Americans and 
the economic security of our nation.Although we may not be 
aware of NIST impact on our lives, their work is making things 
run smoothly for us from online security to health information 
technology.
    I note that the request for both of these agencies in 
Fiscal Year 2012 are significant. NSF's budget would increase 
by 13 percent over Fiscal Year 2010's appropriations, and NIST 
budget would increase by almost 17 percent.
    I must say, given the current economic realities, I am 
gravely concerned that we can't afford continued spending at 
these rates, but we will look closely at everything. I applaud 
the Administration's efforts to terminate ineffective programs 
and make reductions in worthy areas, but I am told that these 
cuts and reductions do not go far enough, particularly when 
there are just as many new and/or duplicative programs created 
in the process.
    I also remain very concerned that the Administration 
continues to place a greater emphasis on specific applied 
research areas at these agencies, whose core missions are and 
should remain basic, fundamental research.
    Regardless, the committee appreciates the opportunity to 
learn more about how Fiscal Year 2012 funds would be utilized 
by NSF and NIST. And I thank our witnesses for their time and 
flexibility in conducting this hearing today, and those who 
support them in their appearance here today.
    I now am very pleased to recognize Ms. Johnson for her 
opening remarks.
    [The prepared statement of Mr. Hall follows:]
              Prepared Statement of Chairman Ralph M. Hall
    I am pleased to discuss the fiscal year 2012 budget request for two 
agencies within the Science, Space, and Technology Committee's 
jurisdiction: the National Science Foundation (NSF) and the National 
Institute of Standards and Technology (NIST).
    There is no denying that both of these agencies make vital 
contributions to our Nation's competitiveness, and this Committee has a 
long, bipartisan record of support for these agencies and their 
contributions.
    The National Science Foundation's work is diverse and far-reaching. 
NSF investments have yielded bar codes, the sign language dictionary, 
MRIs, and Google. In the last year alone, the Foundation has supported 
research ranging from new techniques to combat the flu virus to 
sustaining the budding field of nanoelectronics to ways to minimize the 
negative impacts of sunspots on communication technology. NSF is the 
primary source of federal government support for our colleges and 
universities, as most NSF investments are for merit-based, peer-
reviewed research conducted in university laboratories across the 
Nation. In fact, I suspect every one of our districts have benefited 
from NSF funding in one form or the other.
    The National Institute of Standards and Technology is a non-
regulatory laboratory of the federal government tasked with innovation 
and industrial competitiveness by advancing measurement science, 
standards and technology. They work alongside industry to make sure 
their activities improve the quality of life of Americans and the 
economic security of our nation. Although we may not be aware of NIST's 
impact on our lives, their work is making things run smoothly for us, 
from online security to health information technology.
    I note that the requests for both of these agencies in fiscal year 
2012 are significant; NSF's budget would increase by 13 percent over 
fiscal year 2010's appropriation, and NIST's budget would increase by 
almost 17 percent. Given the current economic realities, I am greatly 
concerned that we simply cannot afford to continue spending at these 
rates.
    I applaud the Administration's efforts to terminate ineffective 
programs and make reductions in worthy areas, but I am afraid these 
cuts and reductions do not go far enough, particularly when there are 
just as many new and/or duplicative programs created in the process. I 
also remain very concerned that the Administration continues to place a 
greater emphasis on specific applied research areas at these agencies 
whose core missions are and should remain basic, fundamental research.
    Regardless, the Committee appreciates the opportunity to learn more 
about how fiscal year 2012 funds would be utilized by NSF and NIST, and 
I thank our witnesses for their time and flexibility in conducting this 
hearing today.

    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
welcome Dr. Suresh and Dr. Bowen, who will be testifying before 
our Committee for the first time this morning. And we will 
welcome back Dr. Gallagher who we will hear from in the second 
panel.
    The purpose of today's hearing is to examine the 
President's Fiscal Year 2012 budget request for the National 
Science Foundation and the National Institute of Standards and 
Technology, two agencies that are key to our ability to spur 
innovation and improve STEM education in this country. I am 
pleased to see that the President's budget request shares this 
Committee's goal, as reflected in America COMPETES Act and the 
America COMPETES Reauthorization Act, of doubling the budgets 
of these agencies, laying a strong foundation for our nation's 
future competitiveness.
    This President understands that our future economic growth 
and therefore our ability to reduce our debt in the future is 
tied very strongly to the investments we make in science and 
innovation today.
    In contrast, if the funding bill H.R. 1, passed by the 
House last month, is enacted, we will be moving exactly in the 
wrong direction. I share the well-founded concern of many 
Members if we don't act to address our deficit, we will be 
leaving our children and grandchildren with a growing debt that 
they will spend their lifetimes trying to pay down. However, I 
am dumbfounded we are even considering cutting the very 
investments that will reduce our debt over the long run and 
ensure that there are well-paying jobs for future generations 
and help our young people develop the skills that they need for 
these jobs.
    The lasting consequences of the proposed cuts to science 
and education are enormous and go well beyond the jobs at 
research facilities that would be lost today. Fortunately the 
President, as evidenced by his Fiscal Year 2012 budget request, 
recognizes the importance of these investments.
    I look forward to hearing from Dr. Suresh and Dr. Bowen 
about some of the new research initiatives and directions being 
proposed by NSF in this budget as well as hearing from Dr. 
Gallagher about NIST's new initiatives.
    Overall, I am quite happy with the request. I am 
particularly pleased with the robust research budget being 
proposed by NSF and its efforts to provide opportunities to 
address critically important interdisciplinary research needs. 
I am also pleased to hear that NIST's budget request includes 
sustaining commitments to addressing critical challenges in 
manufacturing, clean energy, and cybersecurity.
    That being said, I do have a couple of specific concerns. 
First, this administration has made a strong commitment to STEM 
education, and I do not underestimate the impact of having the 
President himself publicly engaged in this critical issue. Once 
again, however, the administration is proposing a budget for 
NSF's education directorate that barely keeps pace with 
inflation.
    I support an increased role for the Department of Education 
in STEM education, and I am happy to hear that collaboration 
between the agencies has increased significantly. Nevertheless, 
I think Chairman Hall will be with me when we say that this 
Committee will continue to stand up for the very important and 
unique role of NSF in STEM education.
    I understand that NSF funds education programs across the 
entire agency, so maybe we need to look at more than just one 
budget line. Even when we do that though, NSF's own budget 
chart tells us that total agency STEM support will not increase 
in buying power. I worry about both the statement being made by 
the request and the consequences of flat funding for NSF's 
excellent programs.
    Second, while I am supportive of NIST's efforts to catalyze 
the development of standards in emerging technology to address 
national priorities in cloud computing, health information 
technology, and smart grid, I want to ensure that those efforts 
are being appropriately coordinated with the regulatory 
agencies that are involved with these issues. If these efforts 
are to succeed, it is important that the other agencies respect 
the unique expertise of NIST in working with industry on 
standards development and that NIST's work be as responsive as 
it can be to the needs of other agencies.
    With that, I again want to welcome our witnesses, and I 
look forward to working with Chairman Hall and our witnesses on 
all of these important issues, and I yield back.
    [The prepared statement of Ms. Johnson follows:]
       Prepared Statement of Representative Eddie Bernice Johnson
    Thank you Chairman Hall and welcome to Dr. Suresh and Dr. Bowen who 
will be testifying before our Committee for the first time this 
morning. And welcome back to Dr. Gallagher who we'll hear from in our 
second panel.
    The purpose of today's hearing is to examine the President's fiscal 
year 2012 budget request for the National Science Foundation and the 
National Institute of Standards and Technology--two agencies that are 
to key to our ability to spur innovation and improve STEM education in 
this country. I'm pleased to see that the President's budget request 
shares this Committee's goal, as reflected in the America COMPETES Act 
and the America COMPETES Reauthorization Act, of doubling the budgets 
of these agencies, and laying a strong foundation for our Nation's 
future competitiveness. This president understands that our future 
economic growth, and therefore our ability to reduce our debt in the 
future, is tied very strongly to the investments we make in science and 
innovation today.
    In contrast, if the funding bill--H.R.1--passed by the House last 
month is enacted, we will be moving in exactly the wrong direction. I 
share the well- founded concern of many Members if we don't act to 
address our deficit, we will be leaving our children and grandchildren 
with a growing debt that they will spend their lifetimes trying to pay 
down. However, I am dumbfounded that we are even considering cutting 
the very investments that will reduce our debt over the long-term, 
ensure that there are well-paying jobs for future generations, and help 
our young people develop the skills that they need to get those jobs. 
The lasting consequences of the proposed cuts to science and education 
are enormous, and go well beyond the jobs and research facilities that 
would be lost today.
    Fortunately the President, as evidenced by his Fiscal Year 2012 
budget request, recognizes the importance of those investments. I look 
forward to hearing from Dr. Suresh and Dr. Bowen about some of the new 
research initiatives and directions being proposed by NSF in this 
budget as well as hearing from Dr. Gallagher about NIST's new 
initiatives.
    Overall, I am quite happy with the requests. I am particularly 
pleased with the robust research budget being proposed by NSF and its 
efforts to provide opportunities to address critically important 
interdisciplinary research needs. I am also pleased to see that NIST's 
budget request includes sustained commitments to addressing critical 
challenges in manufacturing, clean energy, and cybersecurity.
    That being said, I do have a couple of specific concerns. First, 
this Administration has made a strong commitment to STEM education, and 
I do not underestimate the impact of having the President himself 
publicly engaged on this critical issue. Once again, however, the 
Administration is proposing a budget for NSF's education directorate 
that barely keeps pace with inflation. I support an increased role for 
the Department of Education in STEM education and am happy to hear that 
collaboration between the agencies has increased significantly. 
Nevertheless, I think Chairman Hall will be with me when I say that 
this Committee will continue to stand up for the very important and 
unique role of NSF in STEM education. I understand that NSF funds 
education programs across the entire agency, so maybe we need to look 
at more than just one budget line. Even when we do that, though, NSF's 
own budget chart tells us that total agency STEM support will not 
increase in buying power. I worry about both the statement being made 
by the request and the consequences of flat funding for NSF's excellent 
programs.
    Second, while I'm supportive of NIST's efforts to catalyze the 
development of standards in emerging technology to address national 
priorities in cloud computing, health information technology, and the 
smart grid, I want to ensure that those efforts are being appropriately 
coordinated with the regulatory agencies that are involved with these 
issues. If those efforts are to succeed, it is important that the other 
agencies respect the unique expertise of NIST in working with industry 
on standards development and that NIST's work be as responsive as it 
can be to the needs of the other agencies.
    With that, I again want to welcome our witnesses. I look forward to 
working with Chairman Hall and our witnesses on all these important 
issues, and with that I yield back the balance of my time.

    Chairman Hall. Thank you, Ms. Johnson. If there are Members 
who wish to submit additional opening statements, your 
statements will be added to the record at this point. And at 
this time, I would like to introduce our first panel of 
witnesses that we really appreciate. Dr. Subra Suresh is the 
Director of the National Science Foundation. Prior to his 
service at NSF, Dr. Suresh wore many hats at MIT, including 
Dean of Engineering. Dr. Ray Bowen is the Chairman of the 
National Science Board and President Emeritus of Texas A&M 
University, the one my daughter plans to attend if she can get 
in, with a faculty appointment in mechanical engineering.
    This is the first appearance before this Committee for both 
of you in your current roles, and we welcome you and look 
forward to working with you. As our witnesses should know, 
spoken testimony is limited to five minutes. After which, the 
Members of the Committee will have five minutes each to ask 
questions. And I know Dr. Suresh and recognize you in just a 
moment, but I want to talk about the five minutes.
    If we can stay as closely as we can to the five minutes to 
where those at the end of the line, and particularly our newest 
Members of Congress, get their chance to ask their questions. 
Just be considerate of everybody, Republicans and Democrats 
alike.
    With that time, I thank you, Mr. Suresh, and I want to 
recognize you.

   STATEMENT OF DR. SUBRA SURESH, DIRECTOR, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Suresh. Members of the Committee, it is my privilege to 
be here with you today to discuss the National Science 
Foundation's Fiscal Year 2012 Budget Request.
    I came to the United States as a young engineering student 
because it was the world's beacon of excellence in science and 
engineering research and education. The mission of NSF is to 
sustain that excellence as we continue to lead the way for the 
important discoveries and cutting edge technologies that will 
help keep our Nation globally competitive, prosperous, and 
secure.
    The Fiscal Year 2012 Budget Request for NSF is $7.8 
billion, an increase of 13 percent or $894 million over the 
Fiscal Year 2010 Enacted level. NSF's request is consistent 
with the President's Plan for Science and Innovation and with 
the America COMPETES Reauthorization Act of 2010.
    America's economic prosperity and global competitiveness 
depend on innovation that comes from new knowledge, new 
technologies and a highly skilled and inclusive workforce. NSF 
has an unparalleled track record in supporting the best ideas 
and the most talented people for over 60 years. The Fiscal Year 
2012 budget builds on these past accomplishments and provides a 
direction for future success. NSF will strengthen support for 
basic research and education, the building blocks of future 
innovation, while strengthening our disciplinary excellence.
    A new NSF-wide investment of $117 million will accelerate 
the progress of science and engineering through the deployment 
of comprehensive cyberinfrastructure. The cyberinfrastructure 
framework for the 21st Century Science and Engineering will 
explore ways to handle the vast quantities of data generated by 
today's cutting edge observational and computational tools, 
broaden access to cyberinfrastructure, and support community 
research networks.
    Research at the interface of the biological, mathematical 
and physical sciences, a new $76 million investment, will 
explore nature's ability to network, communicate, and adapt and 
apply this understanding to engineer new technologies.
    Today's most challenging research problems often bring 
together insights from across computer science, mathematics, 
and the physical life and social sciences. INSPIRE, new to the 
NSF's portfolio, is a $12 million investment to encourage 
investigators to undertake interdisciplinary research that is a 
hallmark of much contemporary science and engineering.
    Many NSF activities provide incentives for investigators to 
undertake use-inspired research that translates basic 
discoveries into applications for the benefit of society and 
the economy. A $15 million investment in Enhancing Access to 
the radio spectrum will pursue innovative ways to use the Radio 
Spectrum more efficiently, enabling more applications and 
services used by individuals and businesses to occupy the 
limited amount of available spectrum.
    Over the next five years, NSF will receive $1 billion from 
the Wireless Innovation Fund established with receipts from the 
spectrum auctions. NSF's support of advanced economics research 
led to the FCC's current system of spectrum auctions that have 
netted over $45 billion for the Federal Government since 1994. 
The Wireless Innovation Fund is expected to provide $150 
million dollars to NSF in Fiscal Year 2012 for research on 
wireless testbeds and systems such as smart sensors for 
buildings, roads, and bridges.
    Many fields are on the threshold of discoveries that can 
establish U.S. leadership in next generation technologies. In 
the 1960s and '70s, NSF support of mathematical process 
innovations lead the rapid prototyping and revolutionized 
manufacturing in the country.
    The budget includes $190 million for a new advanced 
manufacturing initiative to pursue innovations in sensor and 
model-based smart manufacturing under the reinvestment of $30 
million is allocated for the robotics initiative.
    NSF will continue to play a lead role in multi-agency 
National Nanotechnology Initiative with an investment of $456 
million. Over the past decade, NSF nanotechnology centers and 
networks created 175 startups and been in collaborations with 
over 1,200 companies.
    U.S. leadership in science and engineering requires the 
most knowledgeable and skilled STEM workforce. Three new 
programs in STEM education, each funded at $20 million will 
improve teacher preparation, strengthen undergraduate STEM 
education, and broaden participation of underrepresented groups 
in the STEM workforce.
    To conclude, OneNSF characterizes my vision for NSF as a 
model agency. NSF will work seamlessly across organizational 
and disciplinary boundaries to create new knowledge, stimulate 
discovery, address complex societal problems, and promote 
national prosperity.
    Robust NSF investments in fundamental science and 
engineering have paid enormous dividends, improving the lives 
and livelihoods of generations of Americans. The Fiscal Year 
2012 NSF Budget Request will carry this success into the 
future.
    Mr. Chairman and Members of the Committee, this concludes 
my testimony.
    [The prepared statement of Mr. Suresh follows:]
                 Prepared Statement of Dr. Subra Suresh
    Chairman Hall, Ranking Member Johnson, and Members of the 
Committee, it is my privilege to be here with you today to discuss the 
National Science Foundation's fiscal year (FY) 2012 Budget Request. My 
name is Subra Suresh and I am Director of the National Science 
Foundation (NSF).
    I hope to make a clear and compelling case for the critical value 
of NSF support for science and engineering research and education at a 
time when America faces many pressing needs and tight budget 
constraints. I came to the United States as a young engineering student 
because it was the world's beacon of excellence in science and 
engineering research and education. I stayed for the same reason. The 
mission of NSF is to sustain that excellence as we continue to lead the 
way for the important discoveries and cutting-edge technologies that 
will help keep our Nation globally competitive, prosperous, and secure.
    The President's request for NSF for FY 2012 is $7.8 billion, an 
increase of 13 percent, or $894 million, over the FY 2010 Enacted 
level. The President's Plan for Science and Innovation calls for 
doubling the federal investment in key basic research agencies. NSF's 
request is consistent with this plan, with the Administration's 
Innovation Strategy, and with the America COMPETES Reauthorization Act 
of 2010. The increase will support 2,000 more research awards across 
the nation.
    In FY 2012, NSF will strengthen support for basic research and 
education in all fields of science and engineering, and promote 
collaborations that reflect the increasingly interdisciplinary nature 
of modern science and engineering, while strengthening our disciplinary 
excellence. We will capitalize on many promising areas of investigation 
where new discoveries can help establish U.S. leadership in next 
generation technologies, and we will invest in transformational work, 
new fields, and novel theoretical paradigms to fuel the innovations of 
the future. Innovative programs to bolster world-class science, 
technology, engineering, and mathematics education (STEM), from coast 
to coast, and from north to south, are central to the success of all 
these activities.

    NSF: Where Discoveries Begin

    Sustained federal support for research and education has fueled 
innovation and provided benefits to the American public for decades, 
and NSF has played a significant role in this success. For over 60 
years, NSF has been a catalyst for the development of new ideas in 
science and engineering and supported the people who generate them.
    In 1952, Caltech professor Max Delbruck used one of NSF's first 
grants to invent molecular biology techniques that enabled one of his 
students, James Watson, to determine the molecular structure of DNA. 
Since then, an entire biotechnology industry has bloomed and prospered, 
with profits reaching $3.7 billion last year.
    In the 1960s and ,70s, NSF provided seminal funding for fundamental 
mathematical and process innovations for manufacturing that industry 
considered too risky to fund. These led directly to rapid prototyping-
and revolutionized how products are designed and manufactured.
    In the 1980s, NSF supported the very first computer science 
departments in U.S. universities, bringing computer science into the 
mainstream of research, and providing a training ground for the first 
and subsequent generations of computer scientists and entrepreneurs. 
Today, NSF provides 82 percent of total federal support for research in 
computer science conducted in the nation's universities and colleges. 
Jobs related to computer and information technologies are among the 
most rapidly growing in the nation according to Bureau of Labor 
Statistics projections.
    In the 1990s, NSF supported pioneering research in the emerging 
field of nanotechnology. Between 2001 and 2010, NSF-supported centers 
and networks created 175 start-ups and developed collaborations with 
over 1,200 companies.
    Investments in basic research often yield unexpected benefits as 
well. NSF's support of game theory, abstract auction theory, and 
experimental economics provided the Federal Communications Commission 
(FCC) with its current system for apportioning the airwaves. Since 
1994, FCC ``spectrum auctions'' have netted over $45 billion in revenue 
for the federal government and more than $200 billion in worldwide 
revenue.
    The NSF FY 2012 Budget Request builds on these past accomplishments 
and provides a direction for future success. To fuel the innovations of 
the future, NSF continues to support fundamental research and education 
in all fields of science and engineering to maintain a global edge in 
the competition for new ideas and the most talented people. The core 
science and engineering disciplines form the ``building blocks'' for 
future innovations, and provide the new ideas and approaches needed to 
advance the interdisciplinary research that is a hallmark of 
contemporary science and engineering. In all these activities, we keep 
a steady focus on the frontier, where discoveries begin.

    The NSF FY 2012 Budget Request

    The Administration's A Strategy for American Innovation makes clear 
the larger rationale for investments in science and engineering 
research and education. This is to put knowledge to work-to create the 
industries and jobs of the future, and to improve the quality of life 
and enhance the security and prosperity of every citizen. NSF 
investments support each of the three pillars of this strategy: Invest 
in the Building Blocks of American Innovation, Promote Market-Based 
Innovation, and Catalyze Breakthroughs for National Priorities.
    Invest in the Building Blocks of American Innovation.
    A robust U.S. science and engineering research enterprise is 
necessary to maintain a global edge in the competition for new ideas. 
In FY 2012, NSF will continue to support the most promising research 
programs and launch several new initiatives.
    Integrated NSF Support Promoting Interdisciplinary Research and 
Education (INSPIRE) will support new activities to encourage 
investigators to undertake the interdisciplinary research that is a 
hallmark of much contemporary science and engineering. This effort will 
be in concert with disciplinary excellence. INSPIRE will catalyze 
interdisciplinary research by seamlessly integrating a suite of new 
activities with existing efforts and other NSF investments. The goal is 
to foster and support the transformative research that 
interdisciplinary research so often produces. INSPIRE is a new $12 
million initiative in FY 2012, and will involve participation from all 
Directorates.
    Science and Engineering Beyond Moore's Law (SEMBL) explores next 
generation computing, including quantum computing, that addresses the 
limits of current technology. Those limits may be reached in as few as 
10 to 20 years. In FY 2012, NSF will invest $96 million to continue 
this multidisciplinary program.
    Research at the Interface of the Biological, Mathematical, and 
Physical Sciences (BioMaPS) is a $76 million investment to investigate 
biological systems that provide architectural and operational blue 
prints which can guide engineering of adaptive technologies. BioMaPS 
will integrate research in the biological, engineering, mathematical, 
and physical sciences to better understand and replicate nature's 
ability to network, communicate, and adapt. The research will 
accelerate the generation of bio-based materials and sensors, and the 
advanced manufacturing of bio-inspired devices and platforms.
    Global leadership also requires the most knowledgeable and skilled 
STEM workers in the world. NSF's approach is to develop the nation's 
talent pool by integrating research and education. This longstanding 
NSF practice facilitates the direct transfer of new knowledge to the 
private sector. It happens every time graduate students with experience 
working at the frontiers of discovery enter the work force. A strong 
suit in U.S. competitiveness, this is one of NSF's greatest 
contributions to the nation's innovation system. NSF will support three 
new initiatives to strengthen STEM education throughout the nation, and 
continue support for highly effective efforts to develop the nation's 
talent and workforce.
    Teacher Learning for the Future (TLF), funded at $20 million, is a 
new teacher-training research program that will fund innovative efforts 
that design, develop, implement and test new teacher-training programs 
in cooperation with the Department of Education.
    Widening Implementation and Demonstration of Evidence-based Reforms 
(WIDER), a new $20 million program to support research on how to 
achieve widespread sustainable implementation of improved undergraduate 
instructional practices and student outcomes at major universities. 
Transforming Broadening Participation through STEM (TBPS), a third new 
program, will expand support for activities to broaden participation of 
underrepresented groups through partnerships that match research 
centers with other institutions committed to broadening participation. 
The FY 2012 investment in TBPS is $20 million.
    The Faculty Early Career Development program (CAREER) develops the 
future scientific and technical workforce through support of young 
faculty who are dedicated to integrating the excitement of research 
with inspired teaching and enthusiastic learning. In FY 2012, NSF will 
invest $222 million to support approximately 606 CAREER awards, an 
increase of 60 awards. The Graduate Research Fellowship program (GRF), 
funded at $198 million in FY 2012, supports the development of graduate 
students in order to cultivate the next generation of STEM workers. In 
FY 2012, NSF will award 2,000 new fellowships, sustaining the doubling 
of new fellowship awards achieved in FY 2010. In addition, the cost of 
education allowance will be increased from $10,500 to $12,000, the 
first increase in this level since 1998. The Budget Request also 
includes initial funding for a stipend increase to $32,000 that will be 
fully implemented in FY 2013.
    Community college funding continues to be a priority for NSF in FY 
2012. NSF engages community colleges through several programs, 
including Advanced Technological Education (ATE), Transforming 
Undergraduate Education in Science, Technology, Engineering, and 
Mathematics (TUES), the Louis Stokes Alliances for Minority 
Participation (LSAMP), and the Tribal Colleges and Universities Program 
(TCUP). The total investment in community college programs is $100 
million.

    Promote Competitive Markets that Spur Productive Entrepreneurship.

    Advances in technology, economic growth, and a prosperous society 
depend on the translation of fundamental discoveries into new 
processes, practices, and commercial products that are widely used. 
Many NSF activities provide incentives for scientists, engineers, and 
educators to undertake use-inspired research that transforms basic 
discoveries into applications for the benefit of society and the 
economy.
    The Advanced Manufacturing initiative will pursue advances in 
sensor and model-based smart manufacturing; cyber-physical systems such 
as advanced robotics; smart buildings and bridges; and nano-
manufacturing. This initiative holds tremendous potential for 
significant short-term and long-term economic impact by developing the 
foundation for entirely new classes and families of products that were 
previously unattainable. The NSF request for FY 2012 includes $190 
million for these activities.
    The Wireless Innovation (WIN) Fund, a component of the 
Administration's new Wireless Innovation and Infrastructure Initiative 
(WI3), will provide $1 billion to NSF over the next five years. WI3 
proposes to reallocate a total of 500 megahertz of federal agency and 
commercial spectrum bands over the next ten years to increase the 
Nation's access to wireless broadband. NSF will support research on 
experimental wireless technology testbeds, more flexible and efficient 
use of the radio spectrum, and cyber-physical systems such as wireless 
sensor networks for smart buildings, roads, and bridges. A portion of 
the receipts generated through electromagnetic spectrum auctions will 
provide funding for WIN. NSF's FY 2012 investments will be coordinated 
with a number of other agencies, including the Defense Advanced 
Research Projects Agency and the National Institute of Standards and 
Technology.
    Enhancing Access to the Radio Spectrum (EARS),in addition to the 
related research funded through the WIN, will support research into new 
and innovative ways to use the radio spectrum more efficiently so that 
more applications and services used by individuals and businesses can 
occupy the limited amount of available spectrum. NSF proposes an 
investment of $15 million in FY 2012.
    Engineering Research Centers (ERCs) and Industry/University 
Cooperative Research Centers (I/UCRC)direct much of their basic 
research to problems with potential economic impact. By working closely 
with industry, these programs create enabling technologies for national 
needs, such as managing the electrical power system, improving 
manufacturing and biological processing, and supporting new healthcare 
information and telecommunications technologies. They also prepare 
students for innovation leadership in a globally competitive 
marketplace. The FY 2012 NSF investment is $96 million.
    The Small Business Innovation Research (SBIR) and Small Business 
Technology Transfer (STTR)programs, funded at $147 million in FY 2012, 
build partnerships between the academic and industry sectors. They 
bolster the innovation economy by funding translational research at 
U.S. small businesses on topics that span the breadth of NSF scientific 
and engineering research and reflect national and societal priorities.

    Catalyze Breakthroughs for National Priorities.

    In FY 2012, NSF will focus on key national priority areas, where 
the expertise of physical, biological, and social scientists and 
engineers can help advance U.S. goals through frontier research. NSF-
catalyzed research includes investments in clean energy and the 
advancing fields of bio- and nanotechnology, areas that are poised for 
innovative breakthroughs.
    Cyberinfrastructure Framework for 21st Century Science and 
Engineering (CIF21) is a new portfolio that builds on NSF's long 
history of providing leadership for cyberinfrastructure and 
computational science for the U.S. academic science and engineering 
community. The $117 million CIF21 will advance data-enabled science 
through the development of novel approaches to collect, manage, and 
curate the vast quantities of data generated by modern observational 
and computational tools. The program will also expand access to 
cyberinfrastructure to promote collaboration, and support improved 
community research networks to connect people, facilities, computers, 
and other tools.
    The Science, Engineering, and Education for Sustainability (SEES) 
portfolio, funded at $998 million in FY 2012, draws together NSF 
programs that spark innovations for tomorrow's clean energy solutions. 
SEES will promote a cross-disciplinary approach to sustainability 
science to explore the environment-energy-economy nexus in order to 
inform energy and environmental policies and improve our capabilities 
for rapid response to extreme events, such as power grid disruption, 
floods, or extreme weather.
    Clean Energy investments, a significant component of SEES, will 
lead to future clean energy and energy efficiency technologies. 
Investments totaling $576 million are found throughout the NSF 
portfolio, in core research programs and in activities such as BioMaPS 
and SEES.
    The National Nanotechnology Signature Initiatives are promising 
research themes that have the potential to generate applications with 
widespread economic benefit, as well as address national and homeland 
security challenges. In FY 2012, NSF will invest $117 million in three 
research areas: Nanotechnology for Solar Energy Collection and 
Conversion, Sustainable Nanomanufacturing-Creating the Industries of 
the Future, and Nanoelectronics for 2020 and Beyond. NSF also supports 
advanced manufacturing research through these investments.
    The National Robotics Initiative (NRI), a new interagency 
initiative for FY 2012, partners NSF with the National Aeronautics and 
Space Administration, National Institutes of Health, and the U.S. 
Department of Agriculture. NRI will marshal broad science and 
engineering support to provide U.S. leadership in the development of 
next generation robotics. The focus is on robots that work beside, or 
cooperatively, with people in areas such as manufacturing, space and 
undersea exploration, healthcare and rehabilitation, military and 
homeland surveillance and security, education and training, and safe 
driving. Collaboration and coordination strengthens the research effort 
and also ensures that agency programs do not overlap. NSF will invest 
$30 million in NRI in FY 2012.

    Interagency Initiatives

    NSF participates in a number of interagency programs that aim to 
coordinate research and development activities in areas of critical 
national importance.
    National Nanotechnology Initiative (NNI), involving 25 departments 
and agencies across the federal government, focuses on realizing the 
tremendous potential of nanotechnology. Investments in nanotechnology 
have led to the discovery and development of entirely new classes of 
materials. NSF will increase support for NNI research by 10.6 percent 
to a total of $456 million. This investment includes the National 
Nanotechnology Signature Initiatives.
    The Networking and Information Technology Research and Development 
(NITRD) explores new frontiers in computer, information, and networking 
science, and coordinates these efforts among multiple agencies. NSF 
will increase its investment in these activities by 15.3 percent to 
$1.258 billion in FY 2012. The focus of NSF support includes human-
computer interaction and information management, high-end computing 
infrastructure and applications, large scale networking, and 
cybersecurity and information assurance. Other initiatives in the NSF 
budget will explore new techniques in education and workforce training 
to exploit cutting edge networking and information technologies.
    Homeland Security Activities across NSF will increase by 9.2 
percent to about $426 million. The focus is on two general areas: 
protecting critical infrastructure and key assets and defending against 
catastrophic threats. Approximately 73 percent of this investment 
supports research in cybersecurity, emergency planning and response, 
and risk management, modeling, and simulation of resilient 
infrastructure.

    Major Research Equipment and Facilities Construction

    People and their ideas form the core of a robust science and 
engineering enterprise. But leading-edge tools are also needed in many 
cases to advance the frontiers and train students for the workplace. 
NSF provides the assets that will be central to success in the emerging 
``New Era of Observation,'' without precedent in terms of the sheer 
scale, scope, reach, resolution and volume of what we are able to 
observe. This new era has been enabled by the ``Era of Data and 
Information'' where we are now entering an emerging paradigm of data-
enabled science.
    NSF provides sophisticated tools to a broad population of 
scientists, engineers, students, and educators. All of the projects in 
the Major Research Equipment and Facilities Construction account 
undergo major cost and schedule reviews, as required by NSF guidelines. 
The following projects receive continued support.

        <bullet>  The Advanced Laser Interferometer Gravitational-Wave 
        Observatory (AdvLIGO) is a planned upgrade of the existing 
        Laser Interferometer Gravitational-Wave Observatory (LIGO). 
        AdvLIGO will be ten times more sensitive, powerful enough to 
        approach the ground-based limit of gravitational-wave 
        detection. The FY 2012 investment is $21 million.

        <bullet>  The Advanced Technology Solar Telescope (ATST) will 
        enable study of the Sun's magnetic fields, which is crucial to 
        our understanding of the types of solar variability and 
        activity that can affect communications and navigational 
        satellites in space and power grids here on earth, and may 
        influence climate. The FY 2012 investment is $10 million.

        <bullet>  The Atacama Large Millimeter Array (ALMA) is the 
        world's most sensitive, highest resolution, millimeter 
        wavelength telescope. ALMA will provide a testing ground for 
        theories of planet formation, star birth and stellar evolution, 
        galaxy formation and evolution, and the evolution of the 
        universe itself. The FY 2012 investment is $3 million.

        <bullet>  The National Ecological Observatory Network (NEON) 
        will consist of geographically distributed field and lab 
        infrastructure networked via cybertechnology into an integrated 
        research platform for regional to continental scale ecological 
        research. The FY 2012 investment is $88 million.

        <bullet>  The Ocean Observatories Initiatives (OOI) will 
        provide continuous, interactive access to the ocean through a 
        network of sensors designed to collect physical, chemical, 
        geological, and biological data. OOI will produce never-before-
        seen views of the ocean's depths. The FY 2012 investment is 
        $103 million.

    Terminations/Reductions

    NSF continually assesses its portfolio to ensure that investments 
align with agency priorities and focus on the frontiers of innovative 
science and engineering research. NSF proposes six programs for 
termination or reduction in FY 2012.

        <bullet>  Deep Underground Science and Engineering Laboratory 
        (DUSEL): NSF eliminates funding for DUSEL. Termination is based 
        on National Science Board reviews that concluded the cost and 
        scope of DUSEL were inconsistent with the agency's traditional 
        strengths and its role in advancing research and education 
        across many fields and disciplines. NSF will continue to 
        solicit proposals for future particle physics research. No 
        funding is required in FY 2012 for DUSEL.

        <bullet>  Graduate STEM Fellows in K-12 Education: NSF 
        eliminates the agency-wide Graduate STEM Fellows in K-12 
        Education (GK-12) program. While the program has been effective 
        in meeting its overall goals, recent evaluation findings 
        indicate that the effects of this program's fellowship 
        experience in improving research skills is mixed, and program 
        design limits the ability of participants to gain in-depth 
        experience in K-12 teaching. NSF plans to build on experiences 
        gained during the ten years of GK-12 funding to widen the 
        breadth of graduate traineeship experiences through other 
        programs.

        <bullet>  National STEM Distributed Learning Program (NSDL): 
        NSF eliminates funding for the NSDL program (formerly the 
        National STEM Digital Library). While NSDL has been successful 
        in meeting its original goals, an October 2010 preliminary 
        evaluation by the RAND Corporation, Steps Toward a Formative 
        Evaluation of NSDL: Phase 2, noted the challenges of sustaining 
        the collection in the face of changing technology, and raised 
        concerns about the currency of the collections, peer review of 
        collections, collaboration across pathways, and lack of 
        standardization. NSF plans to build from the substantial NSDL 
        experience to address key areas in cyberlearning through other 
        programs and activities, such as Cyberlearning Transforming 
        Education (CTE). No funding is required in FY 2012 for NSDL.

        <bullet>  Research Initiation Grants to Broaden Participation 
        in Biology: NSF eliminates funding for the Research Initiation 
        Grants to Broaden Participation in Biology program (RIG) 
        because it did not achieve the goal of broadening participation 
        in biology. The number of proposals from underrepresented 
        groups did not increase. RIG concludes in FY 2011.

        <bullet>  Science of Learning Centers (SLC): NSF proposes to 
        reduce funding for the SLC program, which currently supports 
        six large-scale, long-term centers that conduct science of 
        learning research. The on-going center review process and 
        reviews from an external May 2010 Advisory Committee both 
        recommended that NSF phase the program down as funding for 
        individual centers concludes and shift resources wherever 
        possible to enhance support for the science of learning using 
        non-center mechanisms. NSF expects there may be additional 
        reductions to this program in future years as funding for 
        individual centers comes to a close.

        <bullet>  Synchrotron Radiation Center (SRC): NSF eliminates 
        funding for the Synchrotron Radiation Center facility at the 
        University of Wisconsin. The SRC is 30 years old, and more 
        powerful and capable facilities have come on-line since 1980.

    Model Organization

    The National Science Foundation aims to perform as a model 
organization in carrying forward its mission. Only six percent of the 
NSF annual budget is spent on management and administration. The FY 
2012 request includes $494 million, an increase of $64 million, for 
activities to strengthen NSF's ability to manage its operations 
effectively and efficiently. These funds will support:

        <bullet>  Staff will include 40 additional full-time 
        equivalents for a total of 1,365 FTE;

        <bullet>  IT investments of $86 million will include NSF 
        financial system modernization (iTRAK), Research.gov expansion, 
        and improvements to the operational IT system's reliability and 
        security;

        <bullet>  Headquarters lease expiration funding is $45 million 
        to plan and prepare for a new headquarters lease; and

        <bullet>  IAcquisition, part of the government-wide effort to 
        strengthen the acquisition workforce and improve capabilities 
        in the pre-solicitation phase of major acquisitions, receives 
        $2 million.

    NSF is committed to promoting strong, independent evaluation to 
inform its policy decisions, program management, and performance, and 
to sharing publicly available findings online.

    OneNSF

    The concept ``OneNSF'' characterizes NSF efforts to perform as a 
model agency. The National Science Foundation will work seamlessly 
across organizational and disciplinary boundaries to create new 
knowledge, stimulate discovery and address complex societal problems 
and promote national prosperity.
    Within this overarching context, the process of setting NSF 
priorities involves many considerations and results in our best view of 
how to advance the nation's science, engineering, and education 
enterprise. Internally, NSF holds a series of retreats and planning 
meetings where directions are developed based on an understanding of 
new research frontiers, emerging fields, and opportunities to advance 
research and educational goals. NSF also considers opportunities to 
coordinate and collaborate with other agencies. Staff from all 
Directorates and Offices participate in these activities.
    The NSF system of competitive merit review helps to bring the best 
ideas forward from every corner of the nation. NSF continues to accept 
and review unsolicited proposals, a practice that ensures that 
unanticipated and novel ideas of great promise are heard.

    Conclusion

    President Obama has spoken of this generation's new ``Sputnik 
moment,'' a reference to the challenge of meeting the nation's economic 
and societal needs in the current climate of global competition for new 
ideas and talent. NSF's strategic investment in research and education 
will help the nation meet the challenges of our times and move beyond 
them.
    Mr. Chairman and members of the Committee, I hope my testimony 
explains NSF's transformative role in building our nation's future 
prosperity and continued leadership at the frontiers of discovery, 
innovation and learning. Robust NSF investments in fundamental science 
and engineering have paid enormous dividends, improving the lives and 
livelihoods of generations of Americans. The FY 2012 NSF Budget Request 
supports leading edge programs and activities that will continue this 
success in the future.
    This concludes my testimony. I thank you for your leadership, and 
will be pleased to answer any questions you may have.

                     Biography for Dr. Subra Suresh
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Subra Suresh, distinguished engineer and professor, was sworn 
in as the 13th director of the National Science Foundation (NSF) on 
October 18, 2010.
    Dr. Suresh leads the only federal agency charged with advancing all 
fields of fundamental science and engineering research and education. 
He oversees the NSF's $7-billion budget, directing programs and 
initiatives that keep the United States at the forefront of science and 
engineering, empower future generations of scientists and engineers, 
foster economic growth and innovation, and improve the quality of life 
for all Americans.
    Prior to his confirmation as NSF director, Suresh served as Dean of 
the Engineering School and Vannevar Bush Professor of Engineering at 
the Massachusetts Institute of Technology (MIT). He joined MIT's 
faculty ranks in 1993 as the R.P. Simmons Professor of Materials 
Science and Engineering. During his more than 30 years as a practicing 
engineer, he held joint faculty positions in four departments at MIT as 
well as appointments at the University of California at Berkeley, 
Lawrence Berkeley National Laboratory and Brown University.
    A mechanical engineer interested in materials science and biology, 
Suresh pioneered research to understand the mechanical properties of 
materials. His most recent research tackled the biomechanics of red 
blood cells under the influence of diseases such as malaria. In 2006, 
Technology Review magazine selected Suresh's work on nanobiomechanics 
as one of the top 10 emerging technologies that ``will have a 
significant impact on business, medicine or culture.''
    Holding true to his personal ideals, Suresh successfully leveraged 
his renowned research and leadership positions in academia to increase 
the number of women and minority engineers. He personally mentored more 
than 100 engineers and scientists in his research group. As department 
head and dean of engineering, he also led a successful campaign to 
increase the number of women among MIT's engineering faculty ranks.
    The Padma Shri Award (2011) from the President of India, Indian 
Science Congress General President's Award (2011), Society of 
Engineering Science Eringen Medal (2008), European Materials Medal 
(2007) and Acta Materialia Gold Medal (2006) are among the many 
prestigious awards Suresh has received for his innovative research and 
commitment to improving engineering education around the world. He 
holds honorary doctorate degrees from Sweden's Royal Institute of 
Technology and Spain's Polytechnic University of Madrid. He has been 
elected a fellow or honorary fellow of all the major materials 
societies in the United States and India, including the American 
Society of Materials International, Materials Research Society, 
American Society of Mechanical Engineers, American Ceramic Society, the 
Indian Institute of Metals and the Materials Research Society of India.
    Suresh has authored more than 230 research articles in 
international journals and is a co-inventor in more than 18 U.S. and 
international patent applications. He is author or co-author of several 
books that are widely used in materials science and engineering, 
including Fatigue of Materials and Thin Film Materials. He has 
consulted with more than 20 international corporations and research 
laboratories and served as a member of several international advisory 
panels and non-profit groups.Suresh has been elected to the U.S. 
National Academy of Engineering, American Academy of Arts and Sciences, 
Spanish Royal Academy of Sciences, German National Academy of Sciences, 
Academy of Sciences of the Developing World, Indian National Academy of 
Engineering and Indian Academy of Sciences.
    He earned his bachelor's degree from the Indian Institute of 
Technology in Madras in 1977; his master's from Iowa State University 
in 1979; and his doctorate from MIT in 1981. Suresh married his wife, 
Mary, in 1986, and they have two children, Nina and Meera.

    Chairman Hall. Thank you, Dr. Suresh. I now recognize Dr. 
Bowen to present his testimony. Dr. Bowen.

    STATEMENT OF RAY BOWEN, CHAIRMAN, NATIONAL SCIENCE BOARD

    Dr. Bowen. Chairman Hall, Ranking Member Johnson, and 
Members of the Committee, I appreciate the opportunity to 
testify before you today in support of the National Science 
Foundation budget request for Fiscal Year 2012. I am Ray Bowen, 
Chairman of the National Science Board and President Emeritus 
of Texas A&M University. I am especially pleased to appear 
before you today with our new NSF Director, Dr. Subra Suresh.
    On behalf of the entire National Science Board, I would 
like to thank the Members of the Committee for the longstanding 
commitment in support of NSF and its investments and a broad 
portfolio research and education in science technology, 
engineering and mathematics, known to us as STEM.
    NSF is a primary source of funding for academic basic 
research across non-biomedical science and engineering 
disciplines. During its 60-year plus history, NSF's broad 
portfolio of investments has underwritten a wealth of research 
and have directly and indirectly benefited the American economy 
and general public.
    I would like to briefly touch on one what we think is the 
best known example of this feature. It is the development of 
the Internet. On the first Internet, the interconnection of 
unrelated networks was established by DARPA in 1977. NSF 
investments over the next decade lead to a system of networks 
managed by a mix of universities, nonprofit organizations, and 
governmental agencies. By the mid 1980s, primary financial 
support for the Internet had been assumed by NSF, and the 
increasing demand for advanced networking and research 
computing capabilities was met by what we call NSF Net.
    By 1991, the NSF Net acceptable use policy was modified. It 
was modified to allow commercial traffic, and as the private 
commercial market grew, NSF decommissioned NSF Net. This was in 
1995, allowing for public use of the Internet. Regional, 
national and international computer networks became widely 
accessible because companies began publicly offering gateway 
service.
    This is just one example of many positive economic impacts 
flowing for NSF investments over the years. Due to its strong 
track record that the Board urges your strong support for the 
agency's FY 2012 budget request.
    The NSF budget request reflects an understanding of 
investments of science and technology that are critical to 
building America's future. This requesting knowledge is the 
importance of science and technology to America's long-term 
economic growth.
    One specific area I would like to mention is the 
Foundation's Agency Operations and Award Management accounts, 
so-called AOAM account. This account provides the framework 
through which the foundation of science and engineering 
research and education programs are administered. The agency 
operation award management funding covers NSF's scientific, 
professional, and administrative workforce, the physical and 
technological infrastructure and the essential business 
operations critical to providing a high quality of customer 
service to the public.
    With the AOAM account comprising only four percent of the 
agency's budget request, NSF has achieved an impressive state 
of administrative efficiency. The Fiscal Year 2012 request for 
AOAM aims to ensure that the agency will remain a model 
organization. The Board urges full funding of NSF's Operation 
and Awards Management account.
    I would like to describe, briefly describe, the Board's 
role in the development of the agency's budget request. The 
Board's Committee on Strategy and Budgets, the CSB committee, 
has primary responsibility for working with the NSF during the 
budget development phase, leading up to the Board's approval of 
the budget submitted to OMB. CSB has several discussions both 
by telephone and face-to-face meetings with the NSF national 
budget development during the course of the year. These 
discussions include priorities established by the 
administration articulated in the Office of Management and 
Budget and the Office of Scientific and Technology Policy 
research and development memo, a memo which emphasizes 
coordination across agencies of common goals in science and 
engineering activities.
    Programs and research areas of interest such as those 
emphasized in reauthorization bills and those articulated in 
congressionally mandated reports from the National Academy of 
Sciences are also part of these deliberations. In addition, 
there is a continual engagement of relevant STEM communities 
across the Nation. Further involvement with the science and 
engineering community includes NSF's advisory committee 
meetings, which are held throughout the year.
    These committees, constituted through the Federal Advisory 
Committee Act, provides strong strategic input to each of the 
agency's Directorates, especially with regard to envisioning 
science at the horizon. The budget process and priority setting 
are on the minds of these groups, which openly share the needs 
of their respective communities.
    Development of each year's budget request is somewhat a 
unique process. It is very interactive. There is no set 
formula. Considerations include the potential for impact, the 
readiness of the community, and the ability of programs to 
leverage activities with other resources.
    In the end, we believe a continual assessment and 
reassessment of priorities brings the best budget forward for 
the Foundation and for the Nation. We understand that 
investments in science and technology compete with a host of 
other worthy priorities. While it might be tempting to forego 
the long-term investment in the face of these near-term 
challenges, neglecting scientific research and education now 
may have serious consequences for the future of our country.
    I respectfully ask that you bear in mind something that you 
all realize, that investments in our scientific and 
technological workforce, infrastructure and basic research are 
critical for long-term prosperity and security. This critical 
need for investment is best demonstrated in the recent report 
of the National Academies, ``Rising Above the Gathering 
Storm,'' a report which received bipartisan acclaim.
    On behalf of the National Science Board and the STEM 
research and education communities, I would like to end by 
again thanking the Members of the Committee for your long-term 
recognition of the National Science Foundation and your 
commitment to this agency. We look forward to our continuing 
productive working relationship, and that completes my 
testimony.
    [The prepared statement of Dr. Bowen follows:]
                 Prepared Statement of Dr. Ray M. Bowen
    Chairman Hall, Ranking Member Johnson, and Members of the 
Committee, I appreciate the opportunity to testify before you today in 
support of the National Science Foundation's budget request for Fiscal 
Year 2012. I am Ray Bowen, Chairman of the National Science Board 
(Board) and President Emeritus of Texas A&M University. In 2002, I was 
nominated to the Board by President Bush, confirmed by the Senate, and 
then renominated and confirmed in 2008. I was elected Chairman of the 
Board by my peers in May 2010. In my experience with the Board during 
these past nine years, I have been consistently impressed with the 
quality of research supported, the long reach of National Science 
Foundation (NSF) activities, and by the dedication and expertise of the 
agency's staff.

    Introduction

    On behalf of the entire Board, I would like to thank the Members of 
this Committee for your long-standing commitment to support of the NSF 
and its investments in a broad portfolio of research and education in 
science, technology, engineering, and mathematics (STEM). NSF is the 
primary source of funding for academic basic research across non-
biomedical science and engineering (S&E) disciplines. NSF funds 
cutting-edge research at the frontiers of knowledge, and also supports 
scientific facilities and activities in STEM education. During its 60-
year plus history, NSF's broad portfolio of investments have 
underwritten a wealth of research that have directly and indirectly 
benefited the American economy and the general public. In light of the 
many achievements garnered from previous investments in S&E research, 
the Board urges your strong support for the agency's fiscal year 2012 
budget request.
    The context for our fervent support for NSF's budget request may be 
best appreciated within the context of the history of Federal support 
for basic scientific research. During WWII, Dr. Vannevar Bush led the 
Office of Scientific Research and Development, and with the strong 
backing of President Roosevelt, he organized and provided Federal 
funding for hundreds of research projects in university and industrial 
laboratories to support the war-time effort. The success of this 
endeavor precipitated a profound reassessment of the Federal role in 
national research.
    In 1945, Bush published Science-The Endless Frontier, which was a 
treatise on the need for the Federal government to provide regular, 
peace-time support for both basic research at universities and the 
education of future scientists through a single new agency. Bush wrote: 
``The Government should accept new responsibilities for promoting the 
flow of new scientific knowledge and the development of scientific 
talent of our youth. These responsibilities are the proper concern of 
the Government for they vitally affect our health, our jobs, and our 
national security.'' Importantly, he noted that ``basic research is 
essentially noncommercial in nature. It will not receive the attention 
it requires if left to industry.'' The Bush vision encouraged the 
mission agencies to support research universities in fields that were 
deemed to have probable long-term relevance to their missions.
    Five years later, in 1950, the National Science Foundation was 
created. Federal support for science research was encouraged, and with 
it, unprecedented innovation in the scientific and technological 
arenas. Due in large part to NSF's support for S&E research and 
education, our research universities have become the envy of the world. 
The application of new knowledge and human capital development in STEM 
fields resulting from this Federal/academic partnership has indeed 
created handsome benefits for all Americans. These long-term and often 
uncertain investments in S&E research and education over a half-century 
have provided extraordinary dividends for successive generations of our 
citizens.
    In the presence of global competition, our Nation should be strong 
in all facets of technical innovation and should have available a 
continuously renewed base of knowledge to inform its decisions and 
those of its citizens. In order to prosper over the long term, a nation 
requires several essential building blocks of innovation, including a 
robust high-tech industry, a well-educated scientific talent base, and 
a vigorous research community.
    Although the Board is very cognizant of the current Federal fiscal 
constraints that our Nation faces, we are also certain that the unique 
and long-term value of NSF programs in science and engineering research 
and education foster the bedrock of our future economic health. This 
long-term value is the basis of the Board's support for the 
Foundation's FY 2012 Budget Request.
    Concern about U.S. Leadership in S&E
    A recurring concern of the Board is the potential loss of U.S. 
global leadership across the science and engineering spectrum. As many 
other countries invest heavily in science and engineering research, 
graduate a record number of scientists and engineers, and increase 
incentives to attract outstanding international students and scholars, 
it would be unwise for the U.S. to neglect our science and engineering 
enterprise.
    The United States has long been a leading center of science, 
technology, and innovation, but we now face challenges as a result of 
growing capacity in science and technology (S&T) across the globe. 
Economists increasingly emphasize the central role of knowledge, 
particularly R&D and other activities to promote science and 
technology, in a country's economic success. But as recent indicators 
show us, in our biennial statistical report, Science and Engineering 
Indicators 2010 (SEI 2010), many countries and economies have taken 
steps to open their markets to trade and foreign investment, develop or 
recast their S&T infrastructures, stimulate industrial research and 
development (R&D), expand their higher education systems, and build 
indigenous R&D capabilities. In short, they are developing strategic 
plans and policy frameworks for increasing S&T capacity, and investing 
in the requisite infrastructure and workforce to achieve their 
objectives.
    The current status of the Nation's economy makes it imperative that 
we do not lose ground in the global S&E race. While the United States 
still leads the world in R&D investments, other countries have 
continued to increase R&D expenditures at an expanding rate. For 
example, between 1996 and 2007, China increased its R&D expenditures at 
a 20 percent annual growth rate. Increased global R&D activity should 
by no means be viewed as negative. It leads to a dynamic global system 
of exchange of scientific knowledge and collaboration among diverse 
researchers, and provides opportunities to build shared international 
facilities. However, the United States must view increased global 
capacity in S&T as a call to sustained action to continue robust 
investments in science and technology.
    One of the key returns on investment in science and engineering is 
the creation of new jobs. The S&E workforce has shown sustained growth 
for over half a century, and growth is projected to continue into the 
future. The number of workers in S&E occupations grew from about 
182,000 in 1950 to 5.5 million in 2007. This represents an average 
annual growth rate of 6.2%, nearly 4 times the growth rate for the 
total workforce.
    If innovation in the form of new technologies, goods and services 
are imported from other countries, our national competitiveness will be 
affected. The distribution of R&D funds by the U.S. is a direct 
reflection of our dedication to lead the world in S&E, and it provides 
insight into the Nation's broad mission priorities. Outcomes and 
benefits of R&D depend heavily on the total resources devoted to it.
    Board Role in Development of the NSF FY 2012 Budget Request
    The NSF budget request for Fiscal Year 2012 reflects a clear 
understanding that investments in science and technology are critical 
investments that will build America's future. This request acknowledges 
the critical nature of science and technology to America's long-term 
economic growth. Federal support for research and education across S&E 
fields is of special importance in uncertain economic times, especially 
when private firms are hesitant to invest in long-term research and 
development projects.
    For the past 60 years, the National Science Foundation has played a 
central role in innovation by catalyzing the development of fundamental 
ideas across the frontiers of science and engineering knowledge and 
supporting the people who generate them. As the only federal agency 
dedicated to the support of basic research and education in all fields 
of science and engineering, NSF is positioned to strategically 
stimulate innovative research that connects the science and engineering 
enterprise with potential economic, societal, and educational benefits. 
NSF's high-risk, potentially transformative investments will continue 
to lead the way for the important discoveries, the education of the 
future science and engineering innovators, and cutting-edge 
technologies that will help keep our Nation globally competitive, 
prosperous, and secure.
    The Board is intimately engaged with the development of the 
agency's initiatives featured in its budget request. The Board, 
primarily through its Committee on Strategy and Budget, with NSF senior 
leadership participates in the development of the budget from the 
initial planning stage for the next budget through informal 
discussions, numerous teleconferences, and final approval of the 
submission to OMB. In working with the agency on determining 
priorities, we take into account the priorities of the Administration 
and Congress. We also bring our experience with the needs and readiness 
of the Nation's science and engineering community as a whole. NSF FY 
2012 Budget Request
    The Board supports the FY 2012 Budget Request in its entirety. We 
are especially supportive of those programs that reach across 
disciplines to bring fresh approaches from differing perspectives to 
tackle some of the greatest challenges of our time. Throughout its 
history of developing successful collaborations with researchers in 
many disciplines, NSF is in the best position to bring together the 
science community to address seemingly intractable problems or 
controversial ideas at the frontiers of knowledge. The details of these 
efforts are best left to Dr. Suresh and the agency's senior management 
to describe.
    For the budget request before you today, one specific area I would 
like to focus on is the Foundation's Agency Operations and Award 
Management (AOAM) account.
    The AOAM account provides the fundamental framework through which 
the Foundation's science and engineering research and education 
programs are administered. AOAM funding covers NSF's scientific, 
professional, and administrative workforce; the physical and 
technological infrastructure necessary for a productive, safe and 
secure work environment; and the essential business operations critical 
to managing NSF's administrative processes and providing high-quality 
customer service to the public.
    The quality of the merit review process greatly depends upon NSF 
professional staff with the necessary expertise, within and across 
disciplines, to select and recruit superior reviewers and panelists, 
and the outstanding administrative staff to support them. The need for 
first-class scientific review is very high as just in the last year, 
NSF staff directed reviews of over 55,000 proposals. Each was 
thoroughly examined to ensure only the highest quality research would 
be supported. To sustain this excellence in merit review, the Board 
urges full funding for NSF's AOAM account.
    For the National Science Board Office, the Board requests $4.84 
million, an increase of $340,000, or 6.6 percent, for FY 2012. This 
proposed increase will allow the Board to continue to strengthen its 
national and NSF policy role and in oversight for NSF.
    NSB Oversight Role
    When Congress established the National Science Foundation in 1950, 
it defined dual responsibilities for the National Science Board. First, 
the Board was to oversee the activities of, and establish the policies 
for, the National Science Foundation. Second, the Board was to serve as 
an advisory body to the President and Congress on national policy 
issues related to science and engineering and education in science and 
engineering. For today's testimony, I'd like to focus on our first 
responsibility, that of oversight of NSF.
    Merit Review
    As you all know, NSF-funded research and education projects are 
selected through competitive, merit-based review. This is often cited 
as the `gold standard' for funding research, and is emulated by many 
countries as they develop and enhance their own scientific research 
efforts. Expert panels rely on two criteria to evaluate proposals: 
intellectual merit and broader impacts. Every year, the Board reviews 
the outcomes of the agency's merit review process. In the latest report 
(for FY 2009), NSF made nearly 10,000 awards with Omnibus funding. An 
additional 4,620 awards were supported with the $3 billion of American 
Recovery and Reinvestment Act (ARRA) funding. With the ARRA funding, 
NSF reached a 32 percent funding rate in FY 2009, significantly 
exceeding the 25 percent funding rate in the previous year.
    A large number of meritorious proposals are declined each year. 
Every year, NSF must decline highly rated scientific proposals due to 
budget limitations. For FY 2009, approximately $1.3 billion in added 
funding could have supported the many proposals that merited awards. 
This represents a substantial lost opportunity in terms of both 
innovation and job creation.
    MREFC
    The National Science Board has statutory responsibility for the 
oversight of activities funded from the Major Research Equipment and 
Facilities Construction (MREFC) account. These are high profile, high 
cost activities that are unique, meaning that they must often be 
designed and developed without a template. In my time on the Board, the 
agency has made great strides in overseeing both the design and 
construction of these critical facilities. It is a substantial 
challenge to prioritize and manage MREFCs, and the Board invests 
substantial efforts to review scientific needs, construction costs, and 
operations and maintenance costs in the MREFC process. (URL for the 
process or attach the document)
    Future operating costs for facilities are considered when the Board 
decides whether to approve construction of a new facility under the 
MREFC account. Projects are repeatedly assessed throughout the planning 
and construction period to ensure accurate awareness of projected 
operating costs. Beginning with the NSF FY 2009 budget request, the NSF 
Director instituted a ``no cost overrun'' policy requiring that the 
project cost estimate include adequate contingency funds to cover all 
foreseeable risks, and that any cost increases not covered by 
contingency be accommodated by scope reduction. Since implementing the 
policy for new facilities, NSF has been successful at staying within 
cost and schedule plans.
    In FY 2012, NSF will continue construction of five MREFC account 
projects: Advanced Laser Interferometer Gravitational-Wave Observatory 
(AdvLIGO), the Advanced Technology Solar Telescope (ATST), the Atacama 
Large Millimeter Array (ALMA), National Ecological Observatory Network 
(NEON), and the Ocean Observatories Initiative (OOI). All five MREFC 
projects in the 2012 Request have been reviewed and recommended for 
funding by the Board. The Board continues to work with agency senior 
management to improve the process for selecting and managing the MREFC 
account.
    NSF Strategic Plan for FY 2011-FY 2016
    NSF senior management worked closely with the Board in developing 
its new strategic plan. The plan, ``Empowering the Nation through 
Discovery and Innovation,'' establishes an overarching vision for NSF's 
role in the Nation's innovation enterprise, challenging the agency to 
set its sights high. The three major goals outlined in the strategic 
plan emphasize the unique role of the agency. The first goal, Transform 
the Frontiers, embraces support for the fundamental, interdisciplinary, 
high-risk, and transformative research and education that NSF has 
pioneered. The second goal, Innovate for Society, links the results of 
fundamental research to national and global policy areas where science 
and engineering play a significant role. The final goal, Perform as a 
Model Organization, sets high standards for attaining excellence in 
operational activities, promotes a culture of integrity and 
accountability, and encourages new approaches to assessment and 
evaluation of NSF's investment portfolio.
    The America COMPETES Act
    The 2007 reauthorization of NSF, commonly referred to as the 
America COMPETES Act, recognized the critical role the agency plays in 
maintaining the Nation at the forefront of research. With COMPETES, 
Congress recognized that the Federal Government must increase its 
investment in basic research and in science and math education, stating 
as the purpose of the Act ``to invest in innovation through research 
and development, to improve the competitiveness of the United States 
and for other purposes.'' On behalf of the National Science Board, I 
want to reiterate the key role that science advancement plays in 
furthering the Nation's economic base. The Board intends to continue 
its oversight of NSF awards to ensure the national treasure is invested 
productively.
    The America COMPETES Reauthorization Act of 2010 requires the Board 
to report to Congress on the mid-scale instrumentation needs of the 
science and engineering communities. The Subcommittee on Facilities is 
in the process of collecting background data and consulting with 
experts throughout the Nation's science and engineering community about 
future instrumentation needs. The report is due in January 2012, and 
NSB expects to submit its final report by that time.
    ARRA
    The National Science Board has taken particular interest in 
overseeing the $3 billion provided to the agency in the 2009 American 
Recovery and Reinvestment Act (ARRA, stimulus). The stimulus funding 
represented nearly 50 percent of the agency's annual budget, and the 
Board, acting in its oversight capacity for the agency, endeavored to 
ensure the additional funds were well spent.
    NSF management set up an overall framework for ARRA investments 
which emphasized sustainability and innovation. Management determined 
that grants would be allocated with varying durations. This would allow 
the agency to structure a sustainable portfolio with requests for 
renewal of projects staggered through the years. To encourage 
innovation, NSF management prioritized the funding of new principal 
investigators and funding of high-risk, high-return research. Because 
NSF has a large number of highly rated proposals that it is unable to 
fund, the agency used the majority of the funding to support those 
meritorious proposals which had already had been submitted, reviewed, 
and found to be deserving of funding, though available funds were 
insufficient to support them until ARRA funds were made available.
    For every Board meeting since ARRA was enacted, NSF has provided 
detailed updates on its disposition of this special category of 
funding. NSF skillfully managed this new responsibility, making timely 
awards in concert with the law's requirements. Funds had to be 
distributed quickly to meet the intent of the stimulus, and NSF was one 
of the most successful agencies in meeting this goal. In addition, 
stringent reporting requirements from the awardees was another mandate 
of the stimulus, and NSF, working closely with the community, developed 
a robust reporting process that has seen more than 99 percent of 
awardees submit their results on time.
    Closing remarks
    As our Nation recovers from economic recession, investments in 
science and engineering research and education are ever more critical 
to laying the long-term foundation for S&T-based innovation that drives 
the creation of new jobs and industries. The economic growth and the 
quality of life that we enjoyed in the 20th century were made possible 
in large part by scientific discoveries and technological innovations. 
Continued economic prosperity will require continued Federal 
investments in science and engineering research and education.
    Investments in science and technology compete with a host of other 
funding priorities. Though it might be tempting to forego the long-term 
investments in the face of short-term challenges, neglecting scientific 
research and education now will have serious consequences for the 
future of our country. As other countries now actively seek to emulate 
our success by building their own innovation infrastructures, we must 
be ever vigilant to enhance our own innovative capacity.
    This is a difficult time for Federal budgets for S&E research and 
education and the institutions and individuals in the nonprofit and 
public sectors that rely on Federal support. The Federal government has 
sustained a continual, visionary investment in the U.S. research and 
education enterprise in the expectation that such investment would 
benefit all Americans. That Federal effort has expanded the horizon of 
science and engineering discovery and achievements far and wide, 
leading to the realization of enormous benefits to our Nation.
    In recognition of our current Federal fiscal realities, the 
National Science Board will ensure that NSF sets priorities, makes hard 
programmatic budget decisions and, as a result, obtains the greatest 
benefit from the funds provided. However, even in a time of budget 
constraints, as a Nation we cannot ignore our growing dependence as a 
society on innovation for economic prosperity and the ever-improving 
quality of life Americans have come to expect. The Federal compact in 
research and education with the nonprofit sectors is an essential 
pillar of our Nation's global dominance in S&T.
    On behalf of the National Science Board and the S&E research and 
education communities, I would like to thank the Members of the 
Committee for your long-term recognition of and commitment to support 
for the National Science Foundation. We look forward to continuing our 
productive working relationship with you in service to the Nation.
                     Biography for Dr. Ray M. Bowen
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ray M. Bowen was born in Fort Worth, Texas, and earned his B.S. in 
mechanical engineering at Texas A&M University. After receiving his 
M.S. at the California Institute of Technology, he returned to Texas 
A&M for his Ph.D. in mechanical engineering. From 1994 to 2002, he 
served as president of Texas A&M and is currently president emeritus 
with a faculty appointment in mechanical engineering. His research 
interest is in nonlinear continuum mechanics. He teaches in the 
Department of Mathematics as well as in the Department of Mechanical 
Engineering at Texas A&M.
    Under Bowen's leadership, Texas A&M was admitted to the Association 
of American Universities, expanded and enhanced numerous academic 
programs, and successfully completed a major capital campaign. Bowen 
has been instrumental in the creation of Vision 2020, an effort to 
propel the institution into the ranks of the country's top ten public 
universities by the year 2020.
    Before assuming the presidency of Texas A&M, Bowen served for a 
year as interim president of Oklahoma State University. He joined the 
administration of Oklahoma State in 1991 as provost and vice president 
for academic affairs. His earlier academic appointments included Dean 
of the College of Engineering, Director of the Center for robotics and 
Manufacturing Systems, and Director of the Center for Applied Energy 
Research at the University of Kentucky (1983-1989); faculty member in 
the Mechanical Engineering and Mathematical Sciences Department, Rice 
University (1967-1983); and member of the engineering mechanics faculty 
at Louisiana State University (1965-1967).
    Bowen held two managerial positions at the National Science 
Foundation. In 1982-1983, he served as Director of the Division of 
Mechanical Engineering and Applied Mechanics, and in 1990-1991, he was 
Deputy Assistant Director and Acting Assistant Director for 
Engineering. He is a member of several professional societies and has 
authored or coauthored numerous professional articles and books.
    Bowen was appointed to the National Science Board in 2002 and 
reappointed in 2008. He was elected Chairman in 2010.

    Chairman Hall. Thank you, Dr. Bowen and Dr. Suresh, for 
your testimony, and once again, I will remind all of us that 
the committee rules limit us to five minutes, and we have two 
distinguished panels before us today. I will open by 
recognizing myself for 4 minutes and 59 seconds.
    Dr. Suresh and Dr. Bowen, I will ask both of you this 
question. NSF received $3 billion in stimulus or American 
Recovery and Reinvestment Act funding. Could you please give us 
an update on the NSF investment, particularly how many jobs 
were created? Has all the money been spent? If not, why not? 
And if so, were any significant scientific breakthroughs 
realized, or is it still too early to tell? You can't hardly 
answer that with a yes or no, so we will start out with how 
many jobs were created if you have that information.
    Dr. Suresh. Mr. Chairman, NSF last year received 55,000 
proposals, of which we funded 13,000. NSF receives far more 
outstanding proposals than we are able to fund in the 
community. When the ARRA funding became available to the tune 
of $3 billion a few years ago, we were able to very quickly 
allocate those funds to truly outstanding proposals that were 
peer reviewed based on our very well-established criteria. So 
with respect to your question, all of the funding has been very 
efficiently allocated to the community.
    NSF takes a long-term view on basic research, even though 
oftentimes we have many short-term benefits. The funds that we 
have allocated have only been out there for one to two years, 
so it will be too early and somewhat premature for us to assess 
how many jobs have been created.
    But let me just point to one reason, a set of data, that 
addresses your question. NSF was a pioneer in the new creation 
of the National Nanotechnology Initiative that came into 
existence in 1999. In just 11 years, NSF-funded centers, 
created 175 startups that involved 1,200 companies around the 
country, involving thousands of jobs. So based on that and 
based on other data that we know from the past, it is our every 
expectation that this investment in scientific discovery will 
lead to substantial payoffs in the mid-term and the long-term 
for the country.
    Chairman Hall. Do you agree with the $3 billion that you 
received, has all the money been spent?
    Dr. Suresh. All the money has been committed.
    Chairman Hall. Or committed.
    Dr. Suresh. Yes.
    Chairman Hall. Yeah, okay. And, Dr. Bowen, would that be 
your answer too probably pretty close?
    Mr. Bowen. Yes, sir, all the money has been committed. We 
are quite proud of the Foundation and staff for the effective 
way they have utilized this money, and I think the long-term 
payoffs will be something we will celebrate before this 
Committee sometime in the future.
    Chairman Hall. On the grants, Dr. Suresh, were they new 
jobs, or were they additional funding for existing jobs?
    Dr. Suresh. So the 13,000--every year we--our typical grant 
goes for about three years or so. So typically one-third of the 
funding that we have goes for new funding, and the typical 
grant size is about $150,000 per year, and it goes for three 
years. So we have a process whereby we not only review 
proposals every year, but we also look at how funded proposals 
perform. We have annual reviews, grantee conferences when we 
periodically ask the performance of the grantee.
    Chairman Hall. Thank you. And do either of you have any 
significant scientific breakthroughs realized, or is it too 
early to tell, or do you either care to comment on that?
    Dr. Suresh. Well, we have lots and lots of scientific 
discoveries that evolve every year. Just--I can go back to the 
long-term one, and I can tell you the short-term one. Our 
Social, Behavioral, and Economic Sciences directorate funded 
research on communities networking for the benefit of 
interactions with respect to resources, natural resources that 
are available through Dr. Elinor Ostrom, from the University of 
Indiana, and that led to a Nobel Prize in 2009. We have 
discoveries in nanotechnology all across the foundation, 
especially in engineering, math, and physical sciences, and the 
computer and information sciences and engineering that are 
revolutionizing computer industry and creating new jobs.
    Chairman Hall. Okay, thank you very much. My time is up. At 
this time, I recognize Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman. Dr. Suresh, 
in December Congress reauthorized and passed the America 
COMPETES, and I know that it has been quite recent. Three years 
ago, of course, we passed the first America COMPETES, and it 
really was in direct response to ``Rising Above the Gathering 
Storm.'' We realize we are in the midst of the storm now.
    But can you give us any update yet on whether or not it has 
had any impact?
    Dr. Suresh. I think that it has galvanized the community 
and brought to focus the pressures that are on us, not only 
with respect to the continued need to support science and 
engineering in the country, but the increasing global 
competition for science and engineering, for innovation, and 
for the workforce.
    One example that I can give with a lot of data points and 
personal experience is when I came to the United States in 
1977, there was no question for me, as a young 21-year-old 
engineering graduate, as to where I wanted to go in the world. 
And I came here, as did many of my colleagues, fellow 
graduates. Today there is competition from all over the world, 
and I think if--and that competition is increasing. It is 
increasing significantly. Other countries with a large 
population are investing hugely into science and engineering 
and scientific infrastructure.
    And therefore I think--and that is why the second report 
put out by the National Academies is entitled Category Five--
even though there has been a significant impact of the first 
report, there is continued belief in the community that we are 
reaching a crisis stage still, even with the investment. And 
therefore we cannot take the eye off the ball.
    Ms. Johnson. Thank you. Women continue to go down in their 
numbers in entering these fields, and I did put an amendment on 
the original bill before it went to the Senate that contained a 
study to involve more women. I have now introduced it as an 
independent bill as I have done before, but are there efforts 
going on to attempt to increase women's and even minority and 
handicapped participation? Because we need all we can get, and 
we are not seeing that much of an increase.
    Dr. Suresh. Thank you for asking this question. As you 
know, Ms. Johnson, when you and I met recently, this is a topic 
that is not only of great importance to NSF and has been a 
topic that NSF has played a leading role over the last decade 
or so. I have a personal commitment to this topic. Let me give 
you some brief remarks related to your point. With respect to 
women in the engineering workforce, NSF supports it in many 
different ways.
    We introduced an ADVANCE program some years ago, which is 
having a huge impact in the community. Our support for graduate 
research fellowships has gone up. Forty percent of the graduate 
research fellows last year are women graduates. We have some 
encouraging news with respect to women coming into the 
workforce. For example, the most recent year for which we have 
data, 2009, 72 percent of the valedictorians in American high 
schools were girls, and their fraction is increasing. In 2009, 
20 percent more women graduated from college than men did, and 
that difference is increasing.
    In the last 20 years in the United States, there was a ten 
percent increase in the number of Ph.D.s given to science and 
engineering graduates. That entire ten percent increase was 
because of women receiving Ph.D.s in science and engineering. 
So this is all good news with respect to women in the 
workforce. And NSF supports women through a CAREER award, and 
this year in the Fiscal Year 2012 budget, we have a request for 
an increase of 60 percent or about a little more than 10 
percent--60 CAREER awards or a little more than ten percent for 
supporting all candidates, including women candidates.
    But here is the problem. The retention of these women in 
the workforce has been an issue. The most recent year for which 
we have data is 2006, and women comprise only 26 percent of the 
STEM workforce, so there is a lot that needs to be done with 
respect to retention even though their entry into the process 
has seen some very good news. And this is something that we 
have discussed internally. There are a number of mechanisms 
that we will introduce using existing programs that will go in 
the right direction.
    Ms. Johnson. Thank you very much. My time is about up, but 
it appears to me that we are still attempting to be where we 
are supposed to be with only 50 percent of our brain power.
    Chairman Hall. Thank you, Ms. Johnson. On behalf of Dr. 
Brown here and the other male Members of this, could I have a 
copy of your amendment? You said 70 percent increase? Will you 
give me a copy to introduce.
    Ms. Johnson. Okay.
    Chairman Hall. Alright, thank you. Alright, at this time, I 
recognize Mr. Rohrabacher, the gentleman from California.
    Mr. Rohrabacher. Thank you very much. Let me just--thank 
you everybody in your organization. Your--the work you do is so 
important for our country, and perhaps that is one of the 
reasons why we have to pay attention to make sure the money is 
being channeled in the right direction. We are talking about 
$7.8 billion budget. Is that correct? And that represents a 13 
percent increase over last year's budget.
    Dr. Suresh. Over the 2010 enacted level.
    Mr. Rohrabacher. Okay, is the $3 billion stimulus, that is 
13 percent over and above the $3 billion in stimulus or not? Is 
that included in this?
    Dr. Suresh. No, the stimulus funding has expired. It has 
already been committed. It is a one-time funding.
    Mr. Rohrabacher. Right.
    Dr. Suresh. The $3 billion.
    Mr. Rohrabacher. Sure.
    Dr. Suresh. So that is not in this.
    Mr. Rohrabacher. So you went through $3 billion within a 
year or 18 months in terms of committing it when your usual 
budget would be $7.8 billion? Is that correct?
    Dr. Suresh. That is correct.
    Mr. Rohrabacher. Okay, so you would suggest to us that a $3 
billion increase in your spending level that you are capable, 
that you guys are capable of actually expanding that much? I 
mean that is a dramatic expansion of spending in a one-year or 
two-year period. And you are able to do that and put the 
taxpayers' money to good use?
    Dr. Suresh. Well, that is an excellent question, Mr. 
Rohrabacher, and I cannot only claim that we are capable of 
spending it. We have demonstrated that we are capable of 
spending it, but for the following reason. We funded between 10 
and 12 percent of the actual number of proposals that come to 
us. We fund only a small fraction of the outstanding proposals 
that are out there from the community.
    Mr. Rohrabacher. So what you obviously did then was take 
the proposals that had been rejected when you had less money 
and had to make a more, let us say, fine-tuned decision as to 
where that money was going to go. And you have received more 
money, and you were just able to use those things that had been 
rejected in the years before because you didn't have all the 
money?
    Dr. Suresh. Not all of the funding, if I may add a point. 
We also funded a variety of programs because of the 
availability of money that we could not have funded----
    Mr. Rohrabacher. Right, well I am just suggesting that when 
you had to prioritize, you didn't fund certain things that as 
soon as we gave you the stimulus money, they were funded. Let 
me ask you about one specific item here and what this 
represents. I noticed that there has been a $171,000 grant to a 
New York theater company for a climate change play. Now, if we 
were talking to the National Endowment for the Arts, maybe this 
would be a different level of discussion. What is your 
organization doing financing plays, theater plays?
    Dr. Suresh. So I----
    Mr. Rohrabacher. Especially ones that are aimed at 
basically presenting a point of view on a vision of climate 
change, which should be very serious rather than 
propagandistic.
    Dr. Suresh. So let me add a few points. I have not seen the 
play, so I don't know the contents of this in the interest of 
full disclosure. NSF not only engages in funding science, but 
also in engaging science for the public, disseminating the 
information from science to the public. That is point one.
    The second point is NSF does not engage in advocacy. We 
don't--we just present the facts. We just present the 
scientific data. The community makes up its mind on that.
    Mr. Rohrabacher. Let me note that. The description of this 
play, certainly it is an advocacy play, and I would suggest you 
take a very close look at that and do not repeat that and come 
back to us to expect to take your opinion seriously if you are 
funding this type of nonsense. And the bottom line is that we--
yeah, it is science for the public. That could well be said 
that, yeah, we are going to propagandize people on points of 
view if we get into controversial areas.
    Your job, and what you have done well and what we all 
applaud, is when you are expanding the horizon of scientific 
knowledge in this country so that it can be utilized to uplift 
humankind, we don't necessarily need a leader of discussion 
among the public on various issues, whether they deal with 
morality or whether they deal with climate change. So with that 
said, I would hope that you pay a little more attention to 
things like this so that we don't have to bring it up to you in 
hearings next year when you come before us.
    Because I know you will have done--nine out of ten things 
you are doing this year will be wonderful and that we can 
support. And unfortunately at the hearings, quite often we are 
only looking at those things where we disagree. So let me 
just--I am not trying to ignore the good things, but we have to 
bring up these things as well.
    Chairman Hall. Thank you. The gentleman's time has expired. 
Ms. Lofgren, the young lady from California.
    Ms. Lofgren. Well, thank you very much, Mr. Chairman, and 
thanks to the two of you for being here today to testify to us, 
but beyond that, your service to our country at the NSF. It is 
outstanding, and it is appreciated.
    You know I come from Silicon Valley, and we know that when 
times are tough, it is time to double down on science funding, 
and that is a broadly supported proposition in the valley, not 
only among scientists, but you can go out among working people 
who understand that prosperity is very much tied to what we do 
in science and innovation. So I am interested, Dr. Bowen, in 
your take on the C.R. H.R. 1 that was recently passed and we 
are still trying to come to grips with the ongoing funding.
    I received a letter from research universities in 
California, the California Institute of Technology and Stanford 
University in my neck of the woods, University of California, 
University of Southern California, and what these research 
universities said to me in the letter was that the cuts of 5.2 
percent below the 2010 level for NSF would result in far fewer 
grants to scientists and limit the basic research in fields 
such as computer science, mathematics, physics, and applied 
physics, which drive many of the cutting edge discoveries that 
power our innovation economy.
    Now, you are the president Texas A&M. I mean do you agree 
with that assessment? What can you tell us about the impact 
those reductions would have on our economy if they were 
sustained across the budget years?
    Dr. Bowen. Well, truth in advertising. I am the former 
president. Their current president works much harder than I do 
these days. I subscribe to the content of the message you 
received. The dilemma that we have always is that we deal with 
long-term horizons. We support very fundamental research that 
the benefits will be seen somewhere downstream. A year from 
now, we probably could not identify a huge loss, a huge 
setback, but a few years later, we would feel the hurt. You 
categorize the categories of stresses that produces at the 
universities.
    Another one is young people. Young people beginning their 
careers in STEM areas that plan to spend their lifetime 
educating and conducting scholarly research would not have the 
opportunity to have that small grant from the National Science 
Foundation to start their career. There will be impacts. We are 
concerned about it, but we also understand the huge pressures 
that are on our nation at this time to address all of these 
problems.
    But within the isolated area that I live and the areas of 
my concern, you characterize the same concerns that we have.
    Ms. Lofgren. Dr. Suresh, I wonder if it is fair to ask you 
that same question. We had a reduction, and, yes, I mean we 
have a budget problem, and we need to deal with that. I don't 
think there is any disagreement from anybody on this panel. The 
question is how to do it, and one of the big fighters of 
deficit is prosperity. So the concern I have is if you unwisely 
reduce investments in science and education, you are killing 
your future prosperity.
    Dr. Suresh. Thank you for the opportunity to respond, Ms. 
Lofgren. Let me just give you what the impact would be, the 
impact, compared to the Fiscal Year 2011 request. There will be 
1,800 fewer awards and 20,300 fewer people will be supported if 
this level is passed. If you compare it to the 2010 enacted 
level, there will be 500 fewer awards and 5,500 fewer people 
will be supported because of this.
    In the area of STEM education, which was referred to 
earlier, the impact will be 5,000 fewer people with respect to 
the 2011 request, and 4,400 fewer people compared to the 2010 
request.
    Ms. Lofgren. I don't know if there is time to quickly get 
into the Science and Engineering Beyond Moore's Law, but can 
you tell us anything very quickly about what that is going to 
do?
    Dr. Suresh. It is a very important topic. For truth in 
advertising, I have spent a lot of time in your neck of the 
woods, and at one time, I was fortunate enough to hold chair at 
Cal Tech, so I personally know Mr. Moore whose----
    Ms. Lofgren. So do I.
    Dr. Suresh. --which is named after him is expected to come 
to an end in this decade. One of the things that research 
funding that NSF funds, with respect to Science and Engineering 
Beyond Moore's Law, is to look into new ways of doing 
computing, new ways of creating computational engines, whether 
it is handheld or computers and computer chips that could 
inform new technologies.
    For example, there is a new material for which the Nobel 
Prize was given in physics last year called graphene, and 
helping to engage graphene into the manufacture of a computer 
chip. And when we look at nanoelectronics, which the Chairman 
referred to earlier, as the dimensions in a computer chip, 
which is about the size of a thumbnail, we have tiny copper 
wires.
    They carry current of magnitude more than the current 
density that is carried by the electrical wiring in this room. 
If we send the same amount of current here, this building will 
burn down in no time. The computer chips are so efficient. And 
one of the things that the science and engineering beyond 
Moore's Law talks about is how do we manage the heat that is 
generated by computers while increasing their speed and 
increasing their efficiency.
    There are a number of other things. Single molecule 
computing and so forth.
    Ms. Lofgren. I can see my time is up, and the Chairman has 
been very kind to indulge the answer, so I will have to follow 
up with you further. Thank you, Mr. Hall.
    Chairman Hall. Thank you very much. Chair at this time 
recognizes Dr. Bartlett, gentleman from Maryland.
    Mr. Bartlett. Thank you. I was just wondering how our 
metric was going. As I was sitting here, I was thinking about 
the confusing set of weights and measurements we have. I 
remember one of my favorite teachers was Dr. Moses Warton Young 
from Howard Medical School. And when the medical students came 
in, he wanted to know where he needed to begin in teaching 
them. So he said he was going to begin with a nursery rhyme to 
see how they did.
    There was a crooked man who walked a crooked mile and found 
a crooked style--crooked sixpence beside a crooked style. So he 
I want to know three things. What is a six-pence? What is a 
mile? And what is a style? And almost none of the students knew 
what a six-pence, a mile, and a style were. So now he said he 
knew where to start. You need to start at kindergarten with 
them.
    We do indeed have a confusing set of measurements, don't 
we? Temperature, it freezes at 32 and boils at 212. If it was 
the Centigrade scale, it is zero and 100. It makes a lot of 
sense, doesn't it?
    In surveying, we still use rods and chains and perches. 
When you buy farm fence, you buy it in a 20-rod roll, which is 
330 feet. If you buy fence for your lawn, you buy it in a 50-
foot roll or a 100-foot roll. We measure the depth of water by 
fathoms. Sixteen ounces to a pound, but not all ounces are 
equal. You have different kinds of ounces. Two thousand pounds 
to a ton but not all tons are equal. You have short tons, and 
you have long tons. In length, we have inches, but they are not 
divided decimally. They are divided by quarters and eighths and 
sixteenths and thirty-seconds and so forth. And we have 12 
inches to a foot and three feet to a yard.
    Because I buy things from other countries, I have two 
complete sets of tools to handle the metric things and those 
that are made in our country. When it comes to weight, when I 
was a researcher, I knew the weight of my rats. They were in 
grams, and a really big one was a kilogram. That is a big rat. 
I never thought of my weight in kilograms. I always thought of 
my weight in pounds. So I lived in two different worlds in 
thinking about weight.
    Grams and liters and so simple. It is a milligram and it is 
a kilogram, and it is a centimeter, and it is a kilometer. And 
you can go both ways, and all you do is move the decimal. In 
thinking about surface measurements, we have acres, and I had 
forgotten what an acre was, but I knew that there were 640 
acres in a square mile. And I thought I remember a mile was 
5,280 feet. So I divided--so I multiplied. I squared 5,280 
feet. I got 27,878,400. I divided it by 640, and my acre is 
43,560 feet if I did the math right. Is that what an acre is? 
Gee we really do have a confusing set of weights and 
measurements, don't we?
    That has to be a real burden on our economy. It really 
costs us a lot of extra money to do these things. How are we 
coming at moving metric? You know we buy things in meters, and 
my car has--I can now look. I have a Prius, and I punch the 
wrong thing, I am really speeding. I am going in kilometers 
rather than in miles per hour.
    How are we coming in moving metric, which we really need to 
do, don't we?
    Dr. Suresh. Mr. Bartlett, by having switched at age 21 
overnight from the metric system to the English system, I feel 
the pain. With respect to the weights that you mention, pounds 
versus kilograms, personally I always use kilogram because it 
is 2.2 times smaller than the pounds. So I look lighter when I 
measure that.
    Mr. Bartlett. That is true.
    Dr. Suresh. But to your question, the National Institutes 
of Standard and Technology is the primary organization that is 
interested with weights and measures and standards for the 
country. I am sure Pat Gallagher, when he testifies, will 
respond to that question. But NSF does basic research, and as a 
graduate student here, I did all my homework problems in both 
the metric system and the English system.
    Mr. Bartlett. It just has to be a pretty big burden on our 
economy. Just the two sets of tools that every garage and every 
homeowner has to have. That is costing us something, and there 
are enormous confusions and inconsistencies and so forth.
    It has been years now we have been trying to do this. What 
do we need to do to the culture so that we can get there?
    Dr. Suresh. I think it has to start with education early 
on, and we need a national standard. And switching is not easy 
overnight because you have to switch all the tools and the 
costs associated with the change of the entire system. And I 
think this is something that is in the direct domain of 
National Institutes of Standards and Technology, rather than 
the National Science Foundation.
    Mr. Bartlett. I appreciate it.
    Mr. Bowen. If I might add a comment. I will try to be 
brief. I spent all of my time the last several years teaching 
large, undergraduate engineering classes, and you and I are 
approximately the same generation as I have struggled with the 
same kind of issues that you have.
    They don't seem to be concerned. They are very flexible. 
They have their little calculators. They go online. All these 
conversion factors are right at their fingertips. It is 
frustrating how easily they deal with it, and I think long 
term, your point is well taken. And the country needs to get 
through this transition. But the young people that I have 
interacted with are quite comfortable.
    Chairman Hall. Okay, thank you. The gentleman's time is up. 
Usually those of us on the committee here learn more when we 
listen to Dr. Bartlett's questions as much as we do when we get 
the answers. He is a great member.
    At this time, I recognize Ms. Fudge for really and truly 
five minutes.
    Ms. Fudge. Thank you very much, Mr. Chairman. I always stay 
within my time. Dr. Suresh, of particular interest to this 
committee are the NOYCE Teacher Scholarship Program and the 
Math and Science Partnerships, MSP Program, that we expanded 
under the America COMPETES Act. Both of these programs have 
demonstrated success, and both of these programs bring teachers 
to high-need areas, such as my district in Cleveland, Ohio.
    Rather than investing in these programs that work, the 
budget request proposes decreasing funding for both NOYCE and 
MSP by $10 million in order to start a new, $20 million teacher 
quality program. How did NSF arrive at the decision to decrease 
funding for these programs in order to fund a new teacher 
training research initiative? And how would the new program 
relate to NOYCE and MSP?
    Dr. Suresh. Thank you for the question. As you said, the 
NOYSE Program, teacher training program and MSP program have 
been programs that have given us a lot of very good input and 
feedback. They have been funded over a period of time. The main 
reason, we have a long process that leads up to the budget 
process. So informed by the information that we have and the 
successful practices that have been developed from the NOYCE 
program and the MSP program, we thought now would be an 
opportunity to leverage the successes of these programs as 
educational practices change to leverage them through the 
Teacher Learning for the Future, which is the new program that 
you referred to, so that we can assess the elected merits of 
scholarship support versus teacher training support. And using 
these two, what is the optimum way to move forward based on 
evidence that we have gathered? So it doesn't in any way 
indicate any reduction in a commitment on our part. All it 
indicates is that we are, based on a lot of internal discussion 
that has led up to the Fiscal Year 2012 Budget Request.
    We are assessing the relative merits of this, and as you 
said, it is the funds from those programs that will be used to 
create the Teacher Learning for the Future.
    Ms. Fudge. I would just suggest to you at this time of very 
difficult budget cuts to try to start something new that is 
unproven and not continue a program that is proven is a concern 
to me.
    My second question. Last fall, the President's Council of 
Advisors on Science and Technology, PCAST, released a report on 
STEM education. One of the key recommendations of that report 
was that the Federal Government should establish a mission-
driven R&D entity focused on the development of innovative 
technologies in K-12 education.
    In response to that report, the Department of Education 
recently announced an ARPA-ED initiative, which would be funded 
at $90 million for Fiscal Year 2012. NSF has long supported 
research in this area, yet the proposed ARPA-ED initiative is 
housed solely at the Department of Education. I am interested 
in hearing how ARPA-ED will differ from current programs at NSF 
and whether or not NSF is planning to have a role in this 
effort.
    Dr. Suresh. We would very much hope that NSF will have even 
a greater role than the collaborations that we have already 
with the Department of Education. We have had a long-standing 
collaboration with the Department of Education. You mentioned 
the Math and Science Partnership Program. We have also been 
engaged with them on a number of initiatives. Following the 
America COMPETES Act Reauthorization of December of 2010, we 
have established the National Science and Technology Committee 
on STEM education. I co-chair that committee along with the 
OSTP Deputy Director Carl Weiman. And part of the mission of 
the committee is to find greater ways in which NSF and the 
Department of Education can work together.
    The other area where there is a lot of opportunity for 
collaboration with respect to potential ARPA-ED is in CTE, 
something we call CTE, Cyberlearning Transforming Education. 
This is a program where NSF brings in new tools with respect to 
improving cyberinfrastructure, and we will increasingly engage 
them, not just through the EHR directorate within NSF, but also 
through every Directorate at NSF for potential collaborations 
with the Department of Education.
    Ms. Fudge. Thank you so much. Mr. Chairman, I yield back.
    Chairman Hall. Thank you. I now recognize Mrs. Adams from 
Florida.
    Mrs. Adams. Thank you, Mr. Chair. I want to follow up on 
what Ms. Fudge asked you. You are doing away with some programs 
and starting new programs at a time where it appears you are 
taking the money and then some to create new programs where 
they are new and unproven programs. So I just want to know how 
do you explain the decision making process for the terminations 
and reductions as well as the creation of the new programs. And 
is it the scientific community driving these decisions, or is 
it the Administration?
    Dr. Suresh. That is an excellent question. NSF typically 
follows a process that includes input from the peer community. 
Whenever there is an issue, we have--we convene a panel of 
experts. And the panel of experts from around the country, 
these are the leaders in the field in the community that tell 
us what is the best way to engage the community. We have, as 
Dr. Bowen mentioned in his opening statement, we also have a 
Committee of Visitors who inform us what to do. And then there 
is a long internal process, so everything we do engages the 
community very, very strongly.
    Mrs. Adams. Dr. Bowen?
    Dr. Bowen. Excuse me. I have nothing to add to his 
comments.
    Mrs. Adams. Okay, well in your opening statement, and I 
just want to--you said the priorities established by the 
administration. Are you still with that statement?
    Dr. Bowen. Yes.
    Mrs. Adams. So the priorities are set by the 
Administration?
    Dr. Bowen. It is one of a set of interactions we have.
    Mrs. Adams. Okay, thank you. Scattered throughout the 
Federal Government are entire federal budget requests--dramatic 
increases in spending in clean technologies. At the Department 
of Energy alone, there are enormous spending increases for 
Clean Tech through ARPA-E and EERE, the Office of Science, the 
Loan Guarantee Program, the Energy Innovation Hubs, to name 
just a few. Similar programs are proposed throughout the 
government including NSF, Science, Engineering, and Education 
for Sustainability Portfolio, and it just goes on and on.
    The Fiscal Year 2012 budget request is $998 million for 
this effort. This is 51 percent increase over the Fiscal Year 
2010 amount and reflects 13 percent of your entire budget. 
Given what was just asked you earlier, given the questions 
asked about the CR, wouldn't it be best to prioritize your 
spending on things that may be, just may be are not spread 
across other agencies?
    Dr. Suresh. So let me just briefly mention two or three 
factors. Unlike other agencies----
    Mrs. Adams. Very briefly. I have another question.
    Dr. Suresh. Unlike other agencies like Department of 
Energy, including Department of Basic--Department of Energy 
Basic Science, NSF does not push a particular mission. This 
particular program, it looks like sustainability in the broader 
sense. Of course, clean energy is an important part of it, 
which includes fundamental basic research that covers the wide 
spectrum of energy, clean energy options and alternative energy 
options.
    Mrs. Adams. So you then are saying that you believe that 
you need $338 million in new spending on this one topic alone?
    Dr. Suresh. Because this covers---
    Mrs. Adams. Yes or no.
    Dr. Suresh. Yes please.
    Mrs. Adams. Thank you. I just want to get to my questions. 
I am one of those people. And going back to another question I 
heard about the funding the STEM education for individuals from 
historically underserved populations, minorities, women, 
persons with disabilities. I know that Ms. Johnson touched on 
women, but out of the $160 million budget request for the 
division, $20 million for which is for new broadening 
participation programs, only $1.6 million is available for 
increasing opportunities in STEM education for women and zero 
is available for increasing opportunities in STEM education for 
persons with disabilities.
    Can you please explain the rationale for this and why the 
division has become more narrowly focused?
    Dr. Suresh. You know, a couple of quick responses that I 
will give to that. We launched a program a year or two ago in 
engineering looking at new educational opportunities for 
veterans coming from the recent wars. Last year, we supported 
this to the tune of $3.7 million, and this is an area in which 
we have a lot of potential opportunities, not only to attract 
people with disabilities, but also disabled veterans from 
underrepresented groups in science and engineering.
    This is a topic where we are now doing--we had a retreat on 
this topic. We are looking into potential opportunities in 
which NSF can support in concert with the Department of Defense 
and other agencies.
    Mrs. Adams. So you are okay with turning that over to 
another agency for this, but you are not----
    Dr. Suresh. This is within NSF in the Engineering 
Directorate.
    Mrs. Adams. So there is zero in your request is what I 
found. So but for the record, outside the human resource 
development division programs, would you please provide us with 
funding and programmatic details on all programs within the 
foundation that are either specific to serving historically 
underserved populations, minorities, women, and persons with 
disabilities that will provide special considerations for these 
populations?
    Dr. Suresh. I will be happy to get that information to you.
    Mrs. Adams. Thank you.
    Chairman Hall. I thank you. Chair now recognizes Ms. 
Edwards, the gentlelady from Maryland.
    Ms. Edwards. Thank you, Mr. Chairman, and thank you very 
much, Dr. Suresh, and Dr. Bowen, for your testimony today. Dr. 
Suresh, I think when I saw you last, you had arrived only one 
day in town, so I hope that you have settled by now. I also 
want to say a special thank you to Dr. Cora Marrett, your 
deputy who is here. She has had a chance to come out to my 
congressional district and see what we have going on there with 
some STEM learning. And I think it is an important relationship 
that NSF has with local communities and school systems to 
understand how we need to move K to 12 and beyond for STEM 
education.
    This morning, although I have some questions of my own, I 
actually this morning want to ask a question on behalf of our 
colleague, Congresswoman Giffords, that has been provided by 
her staff. It is an area of focus that she has spent a lot of 
time on over this last Congress, and I know that were she here 
today, she would want to make sure that we got this on the 
record. As you know, she has been a strong advocate for STEM 
education at every level. Only by providing solid educational 
foundation for America's youth will we be able to compete in 
the 21st Century economy of tomorrow.
    Congresswoman Giffords expressed that on a number of 
occasions here in this committee last year when she introduced 
the 21st Century Graduate Education Act, which authorized NSF 
to award grants for implementing research-based reforms and 
graduate level STEM education that emphasized preparation for 
diverse careers in the STEM workforce.
    The idea that Ms. Giffords has had was to help budding 
American scientists prepare for the diverse career 
opportunities that they will face such as researching in 
academia, teaching in high schools or working in the national 
labs or industry. The 21st Century Graduate Education Act was 
actually incorporated into the America COMPETES reauthorization 
that we passed last year. And so, Dr. Suresh, I wonder if you 
could tell all of us, for the record, what steps NSF has taken 
and will take to implement this program.
    Dr. Suresh. I will get you specific details on this 
program. On this particular program, for the record, the--we 
are increasing commitment for a number of programs that are 
aimed at graduate students from many different angles. So let 
me just briefly point at what they are. We will have 2,000 
additional graduate research fellowships in Fiscal Year 2012. 
That is over and above 3,200 or so existing fellowships that we 
will continue.
    We are increasing the cost of education for graduate 
fellows, which has been long overdue. In 2013, we plan to 
increase the living expenses, which has also been long overdue 
to help attract graduate students. We are also looking at the 
IGERT Program with 50 percent support from the research 
Directorates within NSF. The IGERT Program provides 
opportunities for graduate students in interdisciplinary 
research.
    Then we have the Engineering Research Centers and Science 
and Technology Centers, which give unique opportunities for 
students in many interfacing with the industry, many leadership 
roles and so forth.
    So our commitment is very strong, and it is growing. And I 
will get you the specific data on that particular program.
    Ms. Edwards. If you could both share it with the committee, 
obviously share it with me, but also make sure that that is 
copied to Congresswoman Gifford's office. Thank you.
    Dr. Suresh. I will be happy to do that.
    Ms. Edwards. Thank you. With that, I yield.
    Chairman Hall. I thank you. At this time, we will recognize 
the gentleman from Alabama, Mr. Brooks.
    Mr. Brooks. Thank you. I very much appreciate the 
opportunity to visit with you again. Enjoyed the visit to the 
NSF recently. Very impressive the people that you have 
collected together to administer the various programs that you 
all have oversight for.
    I am going to focus primarily on fiscal matters. Since 
Fiscal Year that started October 1, 2007, deficits have 
averaged $1.2 trillion with the current year estimated at $1.65 
trillion by the White House. And while it is most impressive 
that President Obama's Fiscal Year 2012 budget proposes to 
increase NSF funding by 13 percent or $894 million according to 
Dr. Suresh's testimony, I submit that it is irresponsible for 
the White House to propose these increases with absolutely no 
way to pay for them other than by raising taxes on our job 
creators, which, of course, will increase unemployment while 
mortgaging the future of our children and grandchildren while 
risking a government insolvency and potential bankruptcy that 
would likely cut national science foundation funding to zero if 
that risk should occur. With an economics background, I believe 
it is an absolute certainly that it will occur. It is not a 
matter of it, it is a matter of when unless we get our 
financial house in order and do it quickly.
    In order to help prevent a Federal Government bankruptcy, 
Congress is going to have to make some very tough budgeting 
decisions. In that context, which NSF grant fields are most 
deserving of funding in your judgment? Which will be most 
likely to produce technology that will, in turn, produce 
American jobs?
    I know you have a bunch of fields. You introduced me to a 
lot of department heads. In your judgment, where should we put 
the money if we are going to advance our technology, which 
will, in turn, advance jobs, which will, in turn, create wealth 
for America, which will, in turn, help us with these budget 
deficits?
    Dr. Suresh. Thank you for the question. As I mentioned in 
my opening testimony, NSF-funded research historically over the 
last 60 years creates for the near term, for the long term, 
significant job opportunities. For example, as the Chairman 
mentioned in his opening remarks, we funded the two co-founders 
of Google when they were graduate students at Stanford when the 
work was not ready yet for commercial success.
    Just in the last ten years, NSF-funded research centers in 
the area of nanotechnology have lead to 175 startups--this is 
just NSF-funded work--involving 1,200 companies.
    So one of the things about NSF and its impact is that it is 
even more important in this economy than in a well-functioning 
economy because this is the engine of innovation for the 
country at a time when we have growing international 
competition.
    Mr. Brooks. Mr. Suresh, I am sorry. I am going to have to 
cut you off. Everything you said I just agree with. The NSF has 
done, in my judgment, a good job in advancing basic research 
projects that, in turn, result in technologies that result in 
more jobs. But my question is how do you prioritize between the 
various fields? I think you introduced me to 10 or 12 different 
divisions of research.
    How do you prioritize that we put the money where there is 
going to be the most bang for the buck, where the American 
taxpayer will get the technological advances that is most 
likely to produce the greatest number of jobs? What is your 
priorities?
    Dr. Suresh. We prioritize using a well-established process. 
We prioritize based on how the work that has been funded gives 
results. We periodically review them. We have a well-
established peer review process. We have a process internal to 
NSF where we engage every layer of the organization. We get 
input from the community. Just in the Fiscal Year 2012 budget, 
we have terminated six programs so----
    Mr. Brooks. Well, do you treat all the fields the same, or 
do you evaluate them on a case-by-case basis?
    Dr. Suresh. We evaluate them on the basis of new knowledge 
they create, the discoveries they produce, the impact they have 
both in knowledge creation and on society. So we have two 
criteria.
    Mr. Brooks. Well, are you--okay, I am trying to get at the 
specific fields that you believe are most important, not 
necessarily the criteria by which you, on a case-by-case basis, 
determine which grants to give. But which fields are the most 
important to create jobs? Which are the least important?
    Dr. Suresh. So we have the priorities that we have 
articulated in the Fiscal Year 2012 budget gives specific 
areas. The area of new science, basic science and engineering, 
in broad area of sustainability. Sustainability definitely 
refers to clean energy, but it also refers to other things 
beyond clean energy. Transportation, cities, infrastructure, 
the basic sustainability science.
    Cyberinfrastructure for the 21st century in increasing 
data. Cybersecurity, we will be investing in $155 million in 
Fiscal Year '12 in cybersecurity. Robotics is another area. NSF 
will be a leading partner in the National Robotics Initiative. 
Nanotechnology Signature Initiatives that I talked about 
earlier. So these are all areas where we think now is the right 
time to invest.
    Mr. Brooks. Thank you, sir.
    Dr. Suresh. Thank you.
    Chairman Hall. Thank you, Mr. Brooks. Now, I recognize Mr. 
Clarke, the gentleman from Michigan. And I might say we are 
going to have the vote shortly, and we have some decisions to 
make on when to come back and how we do it. I thank you, Mr. 
Clarke. Thank you, sir.
    Mr. Clarke. Thank you, Mr. Chairman, Dr. Suresh, Dr. Bowen. 
Really appreciate your testimony here. My question is really 
similar to many that have been already posed. My concern is 
with inner city kids. You know on standardized test scores, 
especially in the city of Detroit, they have done horribly in 
the areas of science and mathematics. So like other Members 
here, I am concerned about the proposed $41 million cut in the 
kindergarten through grade 12 educations provided by NSF. And 
also the elimination, proposed elimination of the graduate 
fellows program, also for kindergarten through grade 12.
    Now, I am aware that the President would have the 
Department of Education offset some of these cuts, but in light 
of NSF's long history to being committed to highly effective 
education programs, could you help underscore what the 
administration's commitment is to improving science technology, 
engineering, and mathematics education for urban school 
districts?
    I am really concerned about these inner city kids who many 
of them are from families where no one ever graduated from 
college. I want them to have a chance to get a job or have a 
business in this new and emerging advanced manufacturing sector 
that you have helped promote and that is going to help put many 
metro Detroiters to work. I just want to make sure that every 
kid has a chance to get the training that they need to make 
money and advance manufacturing.
    Dr. Suresh. Mr. Clarke, a lot of the things you mentioned 
resonate with me personally. I was the first one in my family 
to go to college so I fully understand and appreciate the 
comments you make. NSF is very, very strongly committed to K 
through 12 education, especially with respect to groups that 
are underrepresented, that have fewer opportunities and 
underprivileged--come from underprivileged areas.
    You mention the GK-12 Program. The GK-12 Program has been 
funded by NSF for 12 years. It has had very many positive 
things that have come out of this, but over the last 12 years, 
we have also had other programs that have evolved, such as the 
IGERT Program, which have taken up important aspects of the 
spirit of the GK12 Program, and we will continue to honor the 
commitments that we have made for Fiscal Year '12 in the GK-12 
Program as we look at new opportunities to fund, especially in 
K through 12 education.
    So I want to underscore the fact this moving from one 
program to another is a realignment of priorities in the 
context of changes in circumstances around the country based on 
the information and evidence that we have gathered through 
long-term funding. It does no way reflect a reduced commitment, 
particularly toward education.
    Mr. Clarke. Thank you, Doctor. Just a follow up. Many 
districts, school districts, like Detroit really don't have the 
capacity to apply for many of your grants. How do you structure 
your grants in educational initiatives so that those school 
districts and students that are in most need can have access to 
them?
    Dr. Suresh. Well, we look at a number of mechanisms, and 
one of the mechanisms is to seek input from the community on 
what the best ways of doing this are. And our Assistant 
Director for Education and Human Resources, Dr. Ferrini-Mundy, 
who is sitting behind me, she has recently articulated a vision 
for not only making commitments from what the budget of EHR is, 
but also bringing the best practices from all the research 
Directorates and involving them.
    So with respect to how specifically we interface with a 
particular community, we seek input from the experts related to 
that particular community. We gather information on best 
practices. In fact, we are in the middle of preparing a report 
for the Appropriations Committee on the best practices from 
select schools in the country for STEM education in the K 
through 12 area, and take that information, apply it more 
broadly to situations where we have underprivileged children or 
children without access to good education.
    Mr. Clarke. Before I yield back my few seconds, I want to 
commend your work and tenure at MIT, and I enjoy--I look 
forward to working with the NSF staff on this issue.
    Dr. Suresh. Thank you, sir.
    Chairman Hall. Thank you, both. Recognize Mr. Benishek of 
Michigan. We are limited time now. Make your questions as short 
and answers as accurate as you can. Thank you.
    Mr. Benishek. Director Suresh and Dr. Bowen, thank you for 
being here. Members of my district elected me because they saw 
that our government was spending money, more than we had. So it 
is distressing to see that your budgeting has an increase of 13 
percent. I mean everything that we do, that you are doing, is 
all great, but we can't spend money we don't have. So in my 
view, we need to really focus on doing things effectively and 
spending the money wisely because frankly, we can't continue 
doing this. And everyone says that their program is the best 
and that it is very important for our future and our children.
    But frankly, our children aren't going to be able to afford 
anything if they are trying to pay off this massive debt that 
we are building. More specifically, I just want to ask you one 
thing. This STEM education that we have all been hearing a lot 
about, don't you think it would be more effective to have--I am 
not talking about the effectiveness, which I don't even want to 
get into. But STEM education apparently is administered by 12 
different agencies of the Federal Government and 100 different 
programs amongst those agencies. And this type of thing goes on 
among other fields as well.
    Don't you think it would be much cheaper and more effective 
to have one agency deal with a subject like this?
    Dr. Suresh. That is a very good question, Mr. Benishek. Let 
me just offer two brief responses to that. NSF is unique in its 
role compared to, let us say, the Department of Education, 
which has a much larger budget for STEM education 
implementation than NSF does. NSF's primary mission is to 
develop new and innovative models, validate them, test them, 
assess them, and then let agencies like the Department of 
Education take it over.
    And in that context, NSF for the last many decades has 
played a pioneering role in creating new models for STEM 
education.
    Mr. Benishek. I am talking about the effectiveness of the 
overall plan. Don't you think that one agency would be better 
off, it would be better off and more efficient and better 
communication if one agency did all the aspects related to this 
subject of STEM rather than having to share the information 
then with 12 other agencies?
    Dr. Suresh. Perhaps for implementation, but for creating 
new models for STEM education, the kinds of infrastructure and 
capabilities that NSF has from the scientific and engineering 
community may not be present in the Department of Education or 
other agencies, where NSF is unique. And this is why we were 
asked for many decades to play a role in creating research 
models and new modes of STEM education at NSF, and this is a 
unique role that NSF plays for the community and for the 
country that, as far as I know, is not broadly engaged by other 
agencies even the----
    Mr. Benishek. I understand that, but don't you think it 
would be better off if it was all in one agency?
    Dr. Suresh. Well, perhaps for implementation but not for 
creating models because other agencies do not have the same 
flexibility in all fields of science and engineering as NSF 
does. NSF is the only federal agency that engages in all fields 
of science and engineering and research in the broadest sense 
without pushing a particular mission.
    So it is unique in that respect, and that is why I believe 
NSF is ideally suited to create unique models for STEM 
education.
    Regarding your point on reducing duplication and waste, the 
committee on STEM education that I mentioned in response to an 
earlier question, the very purpose of the committee that I co-
chair is to find out what all the other agencies do, how to 
engage with them more efficiently and how to reduce waste. This 
is part and parcel of our conversation.
    We had a meeting about two weeks ago to look into that, and 
this is very much on the agenda for us.
    Mr. Benishek. Thank you very much for your answer. I yield 
back the remainder of my time.
    Chairman Hall. Thank you for your good questions, and I am 
sorry to pass fine people at the end of the line there and ask 
you to be as--and I won't waste any more time bitching about 
it. Mr. Lipinski, you are back now so you moved ahead of poor 
Mr. Sarbanes again. And we recognize you for five minutes. And 
we just have four to go, and I would like to dismiss this panel 
if we could as early as possible.
    Mr. Lipinski. All right, thank you, Mr. Chairman. Dr. 
Suresh, as you know, I have championed research prizes, 
coauthoring the H Prize and writing the prize language included 
in the COMPETES reauthorization last year. As a result of that 
bill, the Federal Research Agencies now have broad, new 
authority to offer prizes for innovative research or solutions 
to critical problems. And I think that this tool is a 
complement to traditional research funding.
    They offer a new way to incentivize high-risk, high-reward 
research and generate excitement about the frontiers of science 
and engineering. And I know that as dean of MIT's engineering 
school, that you have been involved firsthand with the highly 
successful Lemelson MIT prize. I expect that some of your 
students have also been part of MIT's $100,000 entrepreneurship 
competition.
    So based on your experience with scientific prizes at MIT, 
I would like to hear your thoughts on how this new authority 
might be used at NSF and what we can do to maximize a return 
from scientific prizes, both at the NSF and other Federal R&D 
agencies.
    Dr. Suresh. Thank you, Mr. Lipinski, and also thank you for 
taking the time from your busy schedule to visit us a couple of 
weeks ago with Mr. Brooks. As you mentioned, I have had the 
good fortune to interact with a lot of students in connection 
with different prize programs. Just two days ago, MIT announced 
the winner of this year's MIT Lemelson Program, a young woman 
named Alice Chen, for her work in health sciences and 
technology.
    The prizes help to galvanize the innovative spirit of young 
minds, but one of the critical things, one of the reasons it is 
so successful in a place like MIT or other institutions is 
because the competitions are closely coupled with a very good 
and very basic science and engineering. And NSF--and this is 
something that is very important that we do, not only create 
prize programs, but also couple them to basic research and 
innovation.
    I have charged Dr. Cora Marrett and also a chief technology 
officer, in collaboration with the head of our engineering 
Directorate to look into best ways in which NSF can engage in 
various prize activities. One of the initiatives that could 
possibly be a vehicle for this could be the new robotics 
initiative.
    So we are talking to other agencies. We are having internal 
conversations on how best to launch these prize programs so 
that we will have the biggest impact based on the experiences 
that we have from the community.
    Mr. Lipinski. Thank you. I just wanted to, because of time, 
move on. Second thing I want to talk about, maybe just a make a 
statement here about I am concerned about our academic research 
infrastructure and I really--I am greatly concerned that we are 
underinvesting in research and teaching labs, instrumentation 
and shared-use facilities. And what this is going to mean is 
problems for the United States competing with countries like 
China for top talent and also lead to inefficient use of 
research dollars.
    I think that NSF is planning on publishing an update of the 
report that came out in 2005 that said that there is a $3.5 
billion backlog of needed renovations. So that is a great 
concern of mine, and I will be submitting a question for the 
record for you, Dr. Suresh, on that.
    But I want to use the remainder of my time to talk about 
and ask you about advanced manufacturing. I was excited to see 
in your written testimony the focus on turning innovation into 
competitive advantage. I think that leveraging our basic 
research success to create jobs is tremendously important, 
especially in this economy. And I applaud your efforts to 
increase technology transfer and incubate small businesses.
    And I particularly would like to register my support for 
the proposed $190 million advanced manufacturing initiative. 
The statutory basis for this initiative came from Section 506 
in the COMPETES Reauthorization Act, which I had authored, and 
I just wanted to know a little bit more what you could tell us 
about what you think this program can accomplish in both the 
short and long term. And I also I would be particularly curious 
to hear your thoughts on nanomanufacturing.
    Dr. Suresh. Thank you for the question. In the 1960s and 
'70s, NSF sponsored a variety of basic research activities in 
mathematic modeling and process modeling, which at that time 
was not funded by American industry. And that investment from 
NSF lead to significant advances in graphic prototyping in the 
country in the 1970s. And that led to major innovations for the 
country and the economy in succeeding years.
    So manufacturing is an area that it is very strongly 
predicated upon basic fundamental research work. So I want to 
emphasize that. With particular references to 
nanomanufacturing, in the last 15 years or so, nanotechnology 
has advanced to such a point, and I can speak for hours on this 
because this happens to be my own----
    Mr. Lipinski. I don't think you have that time.
    Dr. Suresh. No, I know. That is why I will be very brief. 
We have the ability to manipulate single molecules, single 
atoms, and we can create objects from atomic level up. So we 
can go from atoms to systems, and this is an area we have 
unprecedented opportunities for innovation for a significant 
industry impact. And that is why our colleagues at NSF felt 
that now is the time to put emphasis on advanced manufacturing 
for the future of the country.
    Chairman Hall. The gentleman's time has expired. Mr. 
Lipinski asks good questions, and you have the right to give 
him an answer in writing more thoroughly, and he is entitled to 
it, if you want to. At this time, we recognize Mr. Hultgren of 
Illinois.
    Mr. Hultgren. Thank you, Chairman Hall. Thank you, Director 
Suresh. I am going to be very brief. I have some other 
questions so I will submit those as well hopefully to get your 
response to that. But I want my good friend, Dr. Harris, to be 
able to ask some questions as well. So I am just going to ask 
one quickly. And I represent Fermilab area and am very 
interested in some of the projects that they are working on.
    But just wanted to ask you will NSF provide support for the 
experiments at DUSEL, such as the long-base line neutrino 
experiment, dark matter search experiments, and other 
underground science experiments?
    Dr. Suresh. NSF has had a long and rich history of 
supporting basic research and physics, high energy physics, 
plasma physics, neutrino physics and so forth. So that 
commitment has not changed. We will continue to support it. 
With particular reference to DUSEL, the National Science Board, 
which Dr. Bowen chairs, decided unanimously and articulated 
very clearly in December of last year that the proposed 
stewardship model for the DUSEL was inconsistent and 
unacceptable with respect to NSF's mission.
    As a result of this, the National Science Board, which 
necessarily has to authorize any funding for DUSEL beyond a 
certain threshold level, decided unanimously not to support 
this for the reasons that they very clearly articulated.
    In light of this, there is--DUSEL is one of the programs 
that is slated to terminate in Fiscal Year 2012. Having said 
that, NSF continues to support basic research in areas, and we 
will be happy to have a discussion with the Department of 
Energy. There are already conversations going on. If either the 
Department of Energy, or other agencies, were to come up with a 
appropriate stewardship model, NSF will be happy to work with 
them to look into ways in which we can collaborate and fund 
innovative science in the physics area that is relevant to 
DUSEL.
    Mr. Hultgren. Well, I really do hope we have support there. 
Many have already come along. I know universities are a part of 
this. Much has been spent already to pursue this. I think also 
we have to realize we have lost so many of our best and 
brightest now going over to Europe with the work that is going 
on there. We need to have important researches being done here 
to keep our best and brightest working here in America.
    So I want to encourage you to do that. I want to work with 
you on that however I can, but I just wanted to let you know 
how important that is to me, something I believe we need to be 
a part of as the Federal Government with that basic scientific 
research. So thank you. With that, I will yield back. Thanks, 
Mr. Chairman.
    Chairman Hall. Thank you. Time has expired. Chair 
recognizes Mr. Sarbanes from the state of Maryland.
    Mr. Sarbanes. Thank you very much, Mr. Chairman. I will be 
brief as well. We are hearing a lot from our constituents on 
different issues. We obviously hear concern about the fiscal 
situation of the country and desire to have us tighten our 
belts and be prudent in making these tough choices.
    But the other theme I hear as I move around my district is 
a real recognition that we need to rebuild this country, that 
while we were sleeping, in effect, the infrastructure of the 
country has been crumbling around us, whether you speak to 
physical infrastructure, building bridges, tunnels, railways, 
and so forth, whether you are speaking to human infrastructure, 
investing in human capital, civic infrastructure, building 
community and so forth.
    There is a recognition that we need that investment. We 
need to rebuild the country. We are up to the task if we are 
given the tools and the leadership to do that. You are really 
focusing on that second piece, that investing in human capital, 
in human infrastructure, making sure in particular that the 
next generation is getting the skill set, the talents, the 
tools they need to lead us into the future.
    And so I want to congratulate you on and commend you on 
staying focused on that particular investment because that is 
going to determine whether we are successful going forward or 
not.
    While I have you here, I just wanted to encourage you, 
particularly around STEM education and I think you are 
preaching to the choir in many respects really across the aisle 
here in recognizing the importance of science, technology and 
these other investments that we need to make. I have been 
working for a while on something called No Child Left Inside, 
which is an attempt to get outdoor education promoted, 
environmental education really well integrated into the 
instructional programming in our schools across the country. 
And one of the reasons is because when you look at programs in 
schools that emphasize environmental education and get children 
outdoors applying what they are learning in science classes to 
the outdoors and all the stimulation that goes with that, what 
it does is it triggers their interest in pursuing careers in 
science and technology and so forth and engineering and math.
    So I am just asking you if you will be receptive to our 
providing you with more information about the NCLI initiative 
and opportunities for NSF to collaborate on that initiative and 
promote that kind of imagination and innovation for the next 
generation.
    And with that, I will yield back my time, Mr. Chairman. 
Thank you.
    Chairman Hall. Sure. Thank you. I would tell you we have 
about 10 minutes until we have to vote. Dr. Harris, we 
recognize you for such a time of the five minutes as you choose 
to use. Thank you.
    Mr. Harris. Thank you, Mr. Chairman. Thank you, Dr. Suresh, 
for being here. And I am just going to follow up a little bit 
on what Mr. Brooks from Alabama had to say. And I appreciate 
science. I always have my whole life obviously. But the fact of 
the matter is that you use the word invest many times in your 
written testimony. But I will tell you the only investing going 
on now are foreign governments, including China, investing our 
bonds because we are running a $1.5 trillion deficit. And, Dr. 
Suresh, you are a scientist. You have seen the same curves I 
do. You know it is not sustainable. It is just not. It is black 
and white. It is not sustainable. So we do have to look at ways 
to cut, and I am a little disappointed.
    You know you got $3 billion in stimulus funding. Stimulus 
was sold to the American public as a one-time expense that has 
to be paid back. Every single dollar of the $787 billion was 
borrowed, with over half those dollars coming from foreign 
ownership of those bonds. And they do need to be repaid, and I 
think they need to be repaid starting now. The stimulus idea 
was let us move up some spending, and then let us pay it back.
    So I am disappointed to hear that you think a five percent 
cut in H.R. 1, I think that is what you said, a 5.2 percent 
cut, which you would have gotten in H.R. 1, having gotten $3 
billion, a 50 percent increase in your funding a couple years 
ago, is something that you think well the sky will fall. I am 
kind of disappointed to hear that.
    But the priorities are such that--and I know your--does 
your agency do anything with economics? I mean does it do 
economic science forecasting? That is--you don't have anything 
to do with that?
    Dr. Suresh. We have a Directorate called Social Behavior 
and Economics Directorate.
    Mr. Harris. You do? Okay, do you know if they have done 
any--I mean was it a priority for that Director to do any 
studies on the effect of our debt growing above our GDP? Could 
you get that to me because we have limited time? If you can get 
that to me, I am a little surprised that the administration 
didn't make that a priority for your organization given the 
fact we are on a fiscal--we are at the edge of a fiscal cliff 
with that.
    But the only thing, again I want to just follow up with the 
gentlelady from Florida, what she said about I am a little 
puzzled by this duplication. I have been--now this is the--I 
think it is the third budget hearing in this committee. Every 
single one by organization has a climate research and says 
their climate change research is absolutely essential. I don't 
think that is part of what I think of the National Science 
Foundation. And NOAA came in, EPA, and Department of Energy, 
all with this.
    The GAO just came out with their famous finding that there 
is an incredible amount of duplication within the agencies, so 
I am going to ask you to just answer in writing what your 
agency has done to make sure that there is no duplication at 
all in what all those other agencies are doing about climate 
change.
    Because I am afraid--and again, look, I had NIH grants when 
I was in medicine. I know the way it works. You have a wide 
variety of agencies. It takes a lot of time when different 
groups are requesting grants, it takes a lot of your 
intellectual energy to prepare all those different grants, so 
consolidating these kind of things would be useful. And, Mr. 
Chairman, I yield back the balance of my time.
    Chairman Hall. Okay, I thank you, and I do thank Dr. Suresh 
and Dr. Bowen for good answers, good timely answers. Sorry we 
were pressing, but we now have about eight minutes to get over 
there to vote. It will take about four minutes to get there, 
two minutes for staff to tell us how to vote, and about a 
minute to vote.
    We are going to excuse you both and thank you very much, 
and to the group that will be testifying on NIST, we will be 
back probably within 45 minutes, 15 after the last vote over 
there.
    Dr. Suresh. Thank you, Mr. Chairman.
    Chairman Hall. She said five minutes after the last vote. 
We will settle for 7-1/2 minutes. Is that okay? I thank all of 
you.
    [Recess.]
    Chairman Hall. I thank you, and we are back in session with 
appreciation for the past two witnesses, and our second panel 
is Dr. Patrick Gallagher, Under Secretary of Commerce for 
Standards and Technology and Director of NIST. And I want to 
particularly thank Under Secretary Gallagher for waiting so 
patiently through the first panel. I think you were here the 
whole time. I kept waiting for you to go up there and tell them 
just five minutes in their sixth or seventh minute.
    And we thank you. We have to be flexible with you. You have 
been too good. So at this time, I will welcome Dr. Gallagher. 
Prior to his service at NIST, he served as Director for one of 
the NIST user facilities, the Center for Neutron Research. And 
Dr. Gallagher started in 2008 as acting Director of NIST and 
was confirmed as Director in November of 2009. As a practicing 
physicist, he has a unique understanding of the inner workings 
of NIST.
    As the witness should know, spoken testimony is limited to 
five minutes, after which the Members of the Committee will 
have five minutes each to ask questions. And most of us have an 
airplane to catch, and I know the Chairman wants to get back to 
his office. So at this time, I thank you for your testimony in 
about five minutes from now. Thank you, sir. Go ahead.

STATEMENT OF PATRICK GALLAGHER, UNDER SECRETARY OF COMMERCE FOR 
 STANDARDS AND TECHNOLOGY, AND DIRECTOR, NATIONAL INSTITUTE OF 
                    STANDARDS AND TECHNOLOGY

    Dr. Gallagher. Thank you, Mr. Chairman. I will respect your 
time and I appreciate the Committee. Congresswoman Edwards, 
thank you as well and Members of the Committee for this 
opportunity.
    The NIST mission to promote U.S. innovation and industrial 
competitiveness is well aligned with the President's goals of 
supporting economic growth through innovation, infrastructure, 
and education in a time that we know to be a very tough budget 
environment.
    The Fiscal Year 2012 budget request for NIST is $1 billion. 
This represents a 17 percent increase over the Fiscal Year 2010 
enacted level. Let me briefly summarize the request. For NIST 
Scientific and Technical Research Services account, which funds 
our laboratory activities, the budget request is $679 million, 
a net increase of $174 million. These funds will accelerate the 
development of standards, technology and measurement science in 
areas as diverse as advanced manufacturing, cybersecurity, and 
critical infrastructure.
    For the NIST Industrial Technology Services account, the 
budget request is $238 million, an increase of $33 million, and 
it reflects a $1.9 million reduction to the Baldrige 
Performance Excellence Program consistent with the 
Administration's goal of transitioning this program out of 
federal funding.
    The budget requests $84.6 million for the Construction of 
Research Facilities account. This represents a $62.4 million 
decrease. The construction request includes $25.4 million for 
the continued renovation of the aging Boulder Building 1 
facility and funds for needed repairs and maintenance of our 
facilities at our two campuses.
    Finally, NIST requests $100 million in new mandatory 
account for the creation of a public safety infrastructure 
fund. This is NIST component of the President's Wireless 
Innovation and Infrastructure Initiative (WI3).
    Let me touch on several major themes that are in the 
request. Those are manufacturing, infrastructure and education. 
The President's 2012 budget for NIST includes a strong focus on 
advanced manufacturing to provide the measurement tools and 
other essential technical assistance that U.S. manufacturers 
need to invent, innovate, and produce and to do that more 
rapidly--and more efficiently than their competitors.
    Within the laboratory budget, there are five manufacturing-
related initiatives totaling $85.3 million. These initiatives 
will enable NIST to bolster and diversify needed research and 
services in areas like nano and biomanufacturing, additive 
manufacturing, and advanced robotics that will strengthen U.S. 
competitiveness. My written testimony discusses each of these 
in more detail.
    The President's budget also strongly supports manufacturing 
through the Manufacturing Extension Partnership and the 
Technology Innovation Programs. For MEP, the budget request is 
$143 million. This is an $18 million increase. NIST's MEP will 
expand the capabilities of its nationwide network of centers 
located in all 50 states in a number of critical ways to assist 
manufacturers to successfully compete over the long term.
    And the request for TIP of $75 million enables the program 
to hold competitions to fund high-risk, high-reward research in 
critical national need areas like manufacturing.
    NIST is also requesting $12.3 million for the Advanced 
Manufacturing Technology Consortia, or AMTech. This new program 
is a public/private partnership program to provide grants for 
the formation of industrial consortia to address industrial-
driven technology challenges that no one company can solve on 
their own.
    With regard to strengthening the U.S. infrastructure, the 
budget contains $43.4 million in three initiatives for 
cybersecurity-related programs and activities. This includes 
initiatives building upon NIST core cybersecurity work in 
support of the Comprehensive National Cybersecurity Initiative, 
to support a national program office to coordinate activities 
for the National Strategy for Trusted Identities in Cyberspace, 
or NSTIC, and to expand the scope of the Comprehensive National 
Cybersecurity Initiative Education Initiative.
    In the area of interoperability infrastructure, the budget 
proposes an initiative to focus on the standards needed for 
smart grid, an interoperable system of electronic medical 
records, and for cloud computing.
    The physical infrastructure initiatives in NIST will 
further development of increased energy efficiency and 
environmental impact for manufacturing and support more 
disaster-resistant structures. In light of this morning's news 
from Japan, this includes efforts to support disaster-resistant 
infrastructure or what are called lifelines in the community 
that are so critical to the survivability of a community under 
natural disaster scenarios.
    And I would remind the Committee that NIST is the lead 
agency in the Interagency National Earthquake Hazard Reduction 
Program, a critical effort in this regard.
    And finally in the wireless infrastructure, the Public 
Safety Innovation Fund that I mentioned earlier will focus our 
efforts in support of providing our public safety community 
with a network-based emergency communication infrastructure. 
This budget incorporates over $11 million in administrative 
savings and the proposed decrease for the Baldrige Programs 
saves an additional $1.9 million.
    Mr. Chairman, the Fiscal Year 2012 budget request for NIST 
reflects the Administration's recognition of the important role 
that NIST can play in innovation, and I thank you for this 
opportunity. I look forward to answering the Committee's 
questions.
    [The prepared statement of Dr. Gallagher follows:]
         Prepared Statement of Dr. Patrick D. Gallagher, Ph.D.
    Chairman Hall, Ranking Member Johnson, and members of the 
Committee, thank you for the opportunity to appear before you today to 
present the President's Fiscal Year (FY) 2012 budget request for the 
National Institute of Standards and Technology (NIST). This budget 
reflects the important role that NIST plays as part of President 
Obama's Plan for Science and Innovation. As the President has said.``We 
know what it takes to compete for the jobs and industries of our time. 
We need to out-innovate, out-educate, and out-build the rest of the 
world.'' \1\ The NIST FY 2012 budget clearly lays out the NIST role in 
the Administration's priorities by making critical investments in key 
areas that will help preserve our nation's economic security and 
strengthen American competitiveness.
---------------------------------------------------------------------------
    \1\ Remarks by the President in State of Union Address on January 
25, 2011.
---------------------------------------------------------------------------
    Mr. Chairman, I would like to start with a quick mention of the 
context of this budget. Overall, this is a very difficult budget 
environment. The President made clear that it was important for the 
government to live within its means and establish some priorities 
within those limits. The President has focused on a number of key 
goals, including innovation, infrastructure and education.
    Within that context, NIST finds itself with a mission that's very 
well aligned to those goals. Over the past few years, numerous reports 
have underscored the importance of a robust Federal presence in the 
sciences to advance technological innovation. The ``Rising Above the 
Gathering Storm'' report and its follow-on, ``The Gathering Storm, 
Revisited,'' were a clarion call to action that helped to shape the 
America COMPETES Reauthorization Act that this Committee championed and 
the President signed into law earlier this year. In addition, in 
February of this year, the White House Office of Science and Technology 
Policy, National Economic Council, and Council of Economic Advisers 
jointly released an update to the 2009 ``Strategy for American 
Innovation'' that ``focuses on critical areas where sensible, balanced 
government policies can lay the foundation for innovation that leads to 
quality jobs and shared prosperity.''
    The NIST mission is to promote U.S. innovation and industrial 
competitiveness through measurement science, standards and technology. 
The NIST mission is very well-aligned with the priority goals that the 
President has laid out. The FY 2012 budget for NIST reflects that 
alignment.
    Mr. Chairman, the President's FY 2012 discretionary budget request 
for NIST is $1 billion, a 17 percent increase over the FY 2010 enacted 
level. The budget maintains the President's commitment to double the 
NIST laboratory budget, and to support and enhance our world leadership 
in the physical sciences and technology.
    The NIST budget is comprised of three discretionary spending 
accounts and one new proposed mandatory spending account.
    For the NIST laboratories, the budget requests $679 million to 
accelerate the development of standards, technology, and measurement 
science in areas as diverse as advanced manufacturing technologies, 
cybersecurity, and infrastructure. The request reflects a net increase 
of $173.6 million over the FY 2011 annualized CR level. We did not 
continue funding $10.5 million in previous year earmarks and redirected 
this amount to new initiatives. Thus, the budget proposes $178.5 
million in laboratory initiatives and $5.6 million in adjustments to 
base.
    For the NIST Industrial Technology Services (ITS) account, the 
budget requests $238 million, an increase of $33 million over FY 2011 
annualized CR levels. The account includes NIST's external programs: 
the Technology Innovation Program (TIP), the Hollings Manufacturing 
Extension Partnership (MEP), the Baldrige Performance Excellence 
Program (BPEP) and the newly proposed Advanced Manufacturing Technology 
Consortia (AMTech) program. The request includes $12.3 million for the 
AMTech, a new cooperative grant program with industry and academia to 
foster public-private partnerships to develop needed technology to 
support advanced manufacturing industries that will broadly benefit the 
Nation's industrial base. Also in the ITS line is a $1.9 million 
reduction to BPEP from the FY 2011 annualized CR levels.
    The budget requests $84.6 million for the Construction of Research 
Facilities (CRF) account; representing a $62.4 million decrease from 
the FY 2011 annualized CR level. The request includes $25.4 million for 
the continued renovation of the Boulder Building 1 renovation but does 
not include $67 million in FY 2010 earmarks and the Construction Grant 
Program.
    Finally, NIST requests $100 million in mandatory appropriations for 
the Public Safety Innovation Fund, NIST's component of the Wireless 
Innovation Fund, which itself is part of the President's Wireless 
Innovation and Infrastructure Initiative (WI3). This mandatory 
appropriation request will fund NIST's safety efforts in this area, 
with particular focus on working with industry and public safety 
organizations to develop new standards, technologies, and applications 
to advance public safety.
    Let me speak in more depth about the major thematic initiatives in 
this request: manufacturing, infrastructure, and education. These 
themes directly relate to the President's stated goals to ``out-
innovate, out-educate, and out-build.''

Out-Innovate: Supporting Innovation for a Strong Manufacturing Base.

    In order to ``Out-Innovate,'' the U.S. must have a strong 
manufacturing base. With that focus innovation in manufacturing is key 
to the NIST 2012 budget. In the area of manufacturing, U.S. industry 
faces relentless competition that has trimmed the nation's share of 
global manufacturing output from 25 percent in 2000 to about 20 percent 
today.
    The U.S. manufacturing sector, still the world's largest, is the 
nation's innovation engine. Manufacturers perform half of all research 
and development in the U.S., and they employ 17 percent of the nation's 
scientists and engineers. The sector develops, builds, and supplies the 
advanced equipment that enables the U.S. military to maintain 
technological superiority over our adversaries.
    Providing the measurement tools and other essential technical 
assistance that existing U.S. manufacturers and aspiring start-ups need 
to invent, innovate, and produce-more rapidly and more efficiently than 
their competitors-is a top NIST priority. NIST has partnered with the 
manufacturing sector for over a century. Today's challenges require 
stepping up efforts to enhance and strengthen the nation's underlying 
technical infrastructure, which is integral to our innovation and 
advanced manufacturing capabilities.
    To reap the economic benefits of our ability to innovate, our 
nation's manufacturing sector must be able to renew itself by adopting 
new technology and developing new markets. The nation's manufacturers 
must respond quickly and effectively to an ever-changing mix of 
requirements, risks, and opportunities, from new regulations to rising 
energy costs to emerging technologies and markets. The revitalization 
of the U.S. manufacturing base is critical to driving innovation and 
job creation in the future and will play a major role in building an 
economy that can help raise the standard of living for all 
Americans.\2\
---------------------------------------------------------------------------
    \2\Executive Office of the President, A Framework for Revitalizing 
American Manufacturing, Dec. 2009.

2012 Manufacturing Initiatives:
    The President's FY 2012 budget for NIST includes five 
manufacturing-related initiatives in NIST's scientific laboratories 
that will enable NIST to bolster and diversify needed research and 
promote proven services that will strengthen U.S. manufacturing 
competitiveness in high-value-added product markets.

        <bullet>  Strengthening Measurement Services in Support of 
        Industry Needs ($20.0M) The U.S. economy depends upon a robust 
        and reliable physical science-based measurement system. 
        Industry is increasingly relying upon and utilizing NIST's 
        precision time and synchronization services to drive 
        innovation. Industries as diverse as telecommunications, 
        electric power distribution, broadcasting, and navigation 
        networks, as well as many crucial applications in national 
        defense, intelligence, and homeland security rely on NIST 
        calibrations and measurement services. In aeronautics, for 
        example, NIST calibrations for commercial and federal 
        government partners ensure the accuracy and performance of 
        altimeters and electrical systems that enable F-18s and 
        commercial aircraft to fly. This initiative will enhance 
        systems for distributing NIST measurement services to meet the 
        growing demand from industry for such services.

        <bullet>  Advanced Materials for Industry ($14.2M) The 
        discovery and optimization of new materials is costly and 
        inefficient. Today, U.S. researchers can design and create new 
        materials at a rate that outpaces our ability to support the 
        measurements to characterize and exploit these discoveries. 
        NIST efforts in advanced materials development and measurement 
        science can help manufacturers save millions of dollars in 
        design costs. This initiative will help to provide that support 
        to industry through the development of a national measurement 
        and standards infrastructure necessary to enable computer 
        modeling and simulation capabilities for discovering new 
        materials and reliably optimizing structures and properties for 
        manufacturing processes and product performance and features.

        <bullet>  Innovations for 21st Century U.S. Manufacturing: 
        Faster, Smarter and Cleaner ($13.3M) Innovation is central to 
        manufacturing, and in turn, to the overall growth and health of 
        the U.S. economy. The ability to rapidly introduce product 
        innovations provides a foundation for future growth in U.S. 
        manufacturing and with it, the creation and retention of high-
        skill, well-paying jobs. This initiative will fund efforts to 
        develop advanced robotics technologies that allow the U.S. to 
        retain manufacturing competitiveness, and fund programs that 
        will promote sustainable operations and improve energy 
        efficiency in both the manufacturing and construction sectors 
        of the economy.

        <bullet>  Measurement Science and Standards to Support 
        Biomanufacturing ($9.5M) The high cost of biotechnology 
        medicines is adversely impacting the U.S. healthcare system and 
        economy. Biotechnology drugs, currently dominated by protein 
        therapeutics, are the fastest-growing class of pharmaceuticals 
        and the fastest growing (<SUP> cents</SUP>20%/year) category of 
        health care spending. \3\ Inefficiencies in the manufacturing 
        process contribute to the high cost of these drugs. Under this 
        initiative, NIST will work closely with industry, the FDA, and 
        other standards organizations to better understand the 
        manufacturing process resulting in higher quality biologic 
        products through continuous improvement of manufacturing 
        processes. It will also enable the development of agile 
        biomanufacturing processes required for next generation 
        products such as stem cells and personalized biotherapeutics.
---------------------------------------------------------------------------
    \3\ Biotech 2008--Life Sciences: A 20/20 Vision to 2020, Burrill 
and Company, 2008.

        <bullet>  Measurements to Support the Manufacture and 
        Production of Nanotechnology-based Products ($28.2M) There 
        remain significant barriers to the full commercial exploitation 
        of nanotechnology. The lack of manufacturing and 
        characterization tools adds significantly to the development 
        cost of nano-based products. Rigorous measurement science is 
        needed to characterize the environmental, health, and safety 
        risks of engineered nanomaterials. NIST's expertise in 
        measurement science as well as its world-class nanotechnology 
        fabrication facilities at the Center for Nanoscale Science and 
        Technology (CNST) in Gaithersburg, Maryland, provides industry 
        unique resources to advance the measurement science needed to 
        enhance our understanding of the safety of nanomaterials, and 
        fund research on the development and manufacture of cost-
        competitive technologies. This initiative will position the 
        U.S. to be globally competitive in emerging technologies 
        through safe use of nanotechnology. It will also provide needed 
        investments in the CNST to keep it at the cutting-edge of 
---------------------------------------------------------------------------
        innovation.

    The President's budget strongly supports manufacturing through the 
Industrial Technology Services programs.

Hollings Manufacturing Extension Partnership (MEP)
    The President's 2012 Budget requests $142.6 million for the MEP 
program. This request is a $17.9 million increase over the FY 2011 
annualized CR level. The MEP is a federal-state partnership which 
requires a two-thirds financial match from non-NIST sources. Through 
its national network of MEP Centers located in every state, 1,400 
technical experts help small- and medium-sized manufacturers navigate 
economic and business challenges and connect to public and private 
resources essential for increased competitiveness and profitability.
    Through competitively awarded cooperative agreements, NIST MEP will 
expand the capabilities of its nationwide network of centers to 
accelerate commercialization of technological innovations, adopt 
environmentally sustainable business practices, promote renewable 
energy initiatives, foster market diversification, and connect domestic 
suppliers to manufacturers to assist manufacturers in successfully 
competing over the long term in today's complex global manufacturing 
environment.&

The Technology Innovation Program (TIP)
    The FY 2012 request for TIP is $75 million. The proposed TIP budget 
represents an increase of $5.1 million above the FY 2011 annualized CR 
level. TIP funds cutting edge, transformative research and development 
projects that address critical national needs and societal challenges 
not already being addressed by others. TIP requires a 1:1 match of 
funds from the private sector. In FY 2012, TIP expects to hold a 
funding competition in one or more of the following research areas: 
advanced robotics and intelligent automation, energy, healthcare, 
water, civil infrastructure technologies, and manufacturing.
    TIP funding will incentivize innovative research and development 
(R&D) projects, conducted by small- and medium-sized U.S. based 
companies, alone or as joint ventures with universities, national 
laboratories and other non-profit research organizations. Further, it 
will foster research collaborations, enable the creation of 
intellectual property in the United States, disseminate new knowledge, 
and advance the state-of-the-art in technologies that address societal 
challenges. In its most recent round of funding for manufacturing 
projects, TIP awardees included those young, small companies which are 
the engines of innovation and the future generators of globally 
competitive jobs.

Advanced Manufacturing Technology Consortia (AMTech)
    NIST is also requesting $12.3M for the Advanced Manufacturing 
Technology Consortia (AMTech) program, a new public-private partnership 
that will broadly benefit the Nation's industrial base by providing 
grants to form and fund industrial consortia to address industrial 
driven technological challenges that no one company can address alone. 
AMTech is modeled upon NIST's successful partnership, the 
Nanoelectronics Research Initiative, which in collaboration with 
industry, funds research consortia targeting the nanoelectronics 
technology sector.
    AMTech will collapse the timescale of technological innovation by 
including partners that span the innovation lifecycle from idea to 
discovery, from invention to commercialization. Through cost-sharing 
and a common research agenda, these consortia would support the 
development of innovative new technologies directed at creating high-
wage jobs and economic growth across the industry sector. These 
consortia will develop road-maps of critical long-term industrial 
research needs and provide support for research and equipment at 
leading universities and government laboratories directed at meeting 
these needs.

Out-Build: Building the Nation's Infrastructure--Cyber, Physical and 
                    Wireless

    To meet the President's challenge to ``Out-Build'' other nations, 
NIST is requesting funds in the FY 2012 budget to strengthen the U.S. 
infrastructure in three main areas: the cyber infrastructure, the 
physical infrastructure and the wireless infrastructure.
    Cybersecurity Infrastructure. A secure cyber infrastructure is 
vital to the economic vitality and national security interests of the 
United States. In addition to enabling more than $200 billion in annual 
e-commerce, interconnected networks of computers are essential for 
critical functions such as air traffic control, electric power 
distribution and the GPS in our cars. The nation's cyber infrastructure 
is central to maintaining the timely delivery and quality of public 
services that are part of everyday life. Our nation's computers face 
ever-increasing threats from malicious individuals, organizations, and 
nation states. Currently, our computer security tools are manually 
implemented, too complex to be effectively used, and too static to 
respond to rapid changes in the threat environment. This allows many 
attacks to succeed, causing significant damage and undermining 
confidence in vital commercial and public information systems. The 
result is a large, direct economic impact--estimates show that 
Americans lose billions of dollars each year to cyber crime.
    NIST is responsible for cybersecurity research, development of 
federal cybersecurity standards, establishment of methods and metrics 
for determining the effectiveness of security controls, and providing 
technical support to public and private sector implementation of 
security standards and controls. The FY 2012 budget request contains 
$43.4 million for cybersecurity related programs and activities that 
will strengthen NIST's contribution to the development and promulgation 
of effective and usable cybersecurity standards.
    The cybersecurity infrastructure request has three initiatives.

        <bullet>  Scalable Cybersecurity for Emerging Technologies and 
        Threats ($14.9M) The request would provide improvements to 
        NIST's core cybersecurity work in support of the Comprehensive 
        National Cybersecurity Initiative (CNCI), the Federal 
        Information Security Management Act (FISMA), and other national 
        priorities. NIST will develop improved security techniques, 
        support the creation of consensus security standards, increase 
        the interoperability and usability of security technologies, 
        and expedite the secure adoption of emerging information 
        technologies.

        <bullet>  National Program Office for the National Strategy for 
        Trusted Identities in Cyberspace (NSTIC) and NSTIC Grant 
        Program ($24.5M) The request would support a National Program 
        Office (NPO) to coordinate federal activities needed to 
        implement NSTIC. This initiative is in direct response to the 
        recommendations of the White House Cyberspace Policy Review and 
        will raise the level of trust associated with the identities of 
        individuals, organizations, services, and devices involved in 
        online transactions. NIST will be responsible for day to day 
        and overall operation of the NPO. NIST will work with the 
        private sector to identify potential funding opportunities for 
        the delivery of NSTIC solutions. Of the $24.5 million for 
        NSTIC, $7.0 million will support a National Program Office and 
        $17.5 million will fund the pilot grants.

        <bullet>  National Initiative for Cybersecurity Education 
        (NICE) ($4.0M) The request supports NICE, which expands the 
        scope of the Comprehensive National Cybersecurity Initiative's 
        (CNCI) Education Initiative from the training of the Federal 
        workforce to a larger national education focus. NIST will 
        develop a cybersecurity education framework that addresses: 
        national cybersecurity awareness, formal cybersecurity 
        education, Federal cybersecurity workforce structure, and 
        cybersecurity workforce training and professional development.

        <bullet>  Interoperability of Infrastructure. Other critical 
        emerging technologies such as the Smart Grid and national 
        health care information systems have the potential to transform 
        our society and revitalize the U.S. economy. To be effective, 
        the many interconnected components in these systems must be 
        fully interoperable to allow information to be exchanged and 
        used seamlessly across systems. As a respected and trusted 
        technical partner, NIST is uniquely positioned to bring 
        together stakeholders from industry, government, academia, and 
        standards development organizations to establish consensus-
        based interoperability standards and conformity tests. The 
        President's budget request for NIST contains an initiative that 
        will support continued efforts in these critical areas as well 
        as provide the infrastructure necessary to address other 
        emerging interoperability challenges.

          <bullet>  The Interoperability Standards for Emerging 
        Technologies Initiative ($23.8M), will focus on the development 
        of standards to enable or accelerate the successful development 
        of new technologies such as a smart electrical grid (Smart 
        Grid), interoperable electronic healthcare records, and cloud 
        computing. These technologies have the potential to transform 
        our society and galvanize U.S. industry, and provide new 
        opportunities for exports of U.S.-developed technologies. For 
        each technology to be effective, however, many complex 
        interconnected components must be built to be enable full 
        interoperability and reduce the full potential of these 
        technologies. Lack of standards for interoperability can 
        significantly slow adoption of these emerging technologies, 
        dampen confidence in industry, and increase the risks of 
        stranded investments in solutions that quickly become obsolete.

        <bullet>  Physical Infrastructure. Buildings in the U.S. 
        consume 72 percent of all electrical energy produced in this 
        country. Emissions associated with buildings and appliances are 
        projected to grow faster than those from any other sector. To 
        ensure adequate supplies of energy and curtail the projected 
        growth of carbon dioxide emissions, it is essential to reduce 
        building energy consumption significantly while minimizing the 
        environmental impacts of buildings during their life cycles. In 
        addition, many of the nation's largest buildings and much of 
        its infrastructure are concentrated in disaster-prone regions 
        where hurricanes, earthquakes, floods and other hazards are 
        common. Catastrophic failures in infrastructure as a result of 
        natural disasters are costly and directly impact our personal 
        and economic health. NIST is requesting funds for two 
        initiatives that will further the development of a stronger 
        building infrastructure.

          <bullet>  Measurements and Standards to Support Increased 
        Energy Efficiency and Reduced Environmental Impact initiative 
        ($13.3M) This initiative will fund research in Net-Zero Energy 
        Building (NZEB) design. NZEB designs would use as much energy 
        from renewable sources as they consume. Such design also 
        doubles the service life of building materials, products, and 
        systems in order to minimize their lifecycle impacts--this also 
        takes indoor air quality into account. Current analysis methods 
        are not able to assess the indoor air quality impacts of key 
        design decisions or impacts of new technologies. This 
        initiative will provide the measurement science required to 
        achieve net-zero energy, high-performance buildings. It will 
        also provide the measurement science to support gas measurement 
        standards to ensure their accuracy and comparability.

          <bullet>  Measurements and Standards to Support Advanced 
        Infrastructure Delivery and Resilience ($10.6M) The disaster 
        resilience of our structures today is determined in large 
        measure by the building codes, standards, materials, and 
        practices used during their construction. There are gaps in the 
        measurement science needed to improve the disaster resilience 
        of infrastructure exposed to natural and man-made hazards. This 
        request funds efforts to provide improvements to our nation's 
        physical infrastructure to damage from earthquakes, windstorms, 
        and fire. This funding will also develop comprehensive measures 
        of construction practices so our Nation's building 
        infrastructure can be both more efficiently built and more 
        resilient.

    Wireless Infrastructure. The request to create the Public Safety 
Innovation Fund (PSIF), a mandatory account within NIST funded at $100 
million ($500 million over five years) is part of the Administration's 
Wireless Innovation and Infrastructure Initiative (WI3).
    President Obama called for a National Wireless Initiative to make 
available high-speed wireless services to at least 98 percent of 
Americans. The WI3 will make it possible for businesses to achieve that 
goal, while freeing up spectrum through incentive auctions, spurring 
innovation, and supporting a nationwide, interoperable wireless network 
for public safety. An important element of this plan is the 
reallocation of the D Block for public safety, and some of the proceeds 
from the incentive auctions being dedicated to NIST research, 
experimentation and testbeds. The funds will also focus on applied 
development to foster the development of a next-generation Public 
Safety communications network.
    Specifically, to spur innovation, the WI3 includes a Wireless 
Innovation (WIN) Fund for research and development of emerging wireless 
technologies and applications. NIST will focus on applied development 
to foster the development of a next-generation Public Safety 
communications network. The current systems for 4G high speed wireless 
services are not tailored for public safety's requirements. Developing 
and implementing such requirements, including capabilities to enable 
handsets to operate in peer-to-peer (or without the aid of a central 
network) will require technological leadership that NIST can help 
provide. NIST, in consultation with agency partners, including the 
National Institute of Justice at the Department of Justice and the 
Department of Homeland Security, will focus on developing and testing 
requirements, standards, wireless applications, and other wireless 
technologies in support of an interoperable nationwide Public Safety 
Broadband Network.

Out-Educate: Training the Next Generation of Scientists.

    In order to ``Out-Educate,'' each agency must do its part. While 
NIST does not have a primary mission in education, the future 
development of the nation's scientists is critical to the future of 
NIST. NIST has an important role to play in helping to identify, 
recruit, and retain the next generation of scientists and engineers to 
help drive American competitiveness. There is one initiative associated 
with this area:

        <bullet>  The Postdoctoral Research Associateship Program 
        ($3.0M) This highly competitive program is very effective at 
        attracting outstanding scientists and engineers to consider a 
        career in science by providing opportunities to work alongside 
        NIST researchers. I want to thank the Committee for its support 
        in eliminating the cap on funding for the post-doc program. The 
        elimination of this cap allows NIST to fund more associates. 
        The requested increase will enable the program to offer at 
        least an additional 23 positions per year and keep the pipeline 
        of bright, new scientists flowing.

        <bullet>  National Initiative for Cybersecurity Education 
        (NICE) ($4.0M) As mentioned earlier, the request supports NICE, 
        which expands the scope of the Comprehensive National 
        Cybersecurity Initiative's (CNCI) Education Initiative from the 
        training of the Federal workforce to a larger national 
        education focus.
    Construction of Research Facilities (CRF): The FY 2012 request 
totals $84.6 million, a $62.4 million decrease over the FY 2011 
annualized level. The request contains $25.4 million to continue the 
renovation of the 60-year-old Building 1 on the NIST Boulder campus, 
which houses the majority of research and measurement laboratories on 
the Boulder campus. The balance of the account, $59.2 million, will 
provide funding for NIST to address deficiencies and maintain NIST's 
laboratories and facilities. The decrease reflects the elimination of 
congressionally-directed projects from FY 2010.
    Budget Decreases: Finally, let me touch on two areas in which the 
budget reflects savings: The Administration's Administrative Efficiency 
Initiative challenged all agencies to identify savings as part of the 
budget development process. NIST's FY 2012 budget incorporates over $11 
million in administrative savings across the agency in order to make 
the agency more efficient and effective in an era of tight budgets.
    The Baldrige Performance Excellence Program (BPEP) requests $7.7 
million, $1.9 million less than the FY 2011 annualized CR level. The FY 
2012 funding supports the continued development of the Baldrige Program 
Criteria, dissemination of best practices, and the annual awards 
process. At the proposed level, BPEP will evaluate alternative sources 
of funding and alternative cost models consistent with the 
administration's goal of transitioning the program out of federal 
funding.

Summary

    In summary, I would like to note that for more than 100 years NIST 
has maintained the national standards of measurement. This role was 
assigned by the U.S. Constitution to the Federal Government to promote 
industry and ensure market fairness. The FY 2012 budget request for 
NIST reflects the Administration's recognition of the important role 
that NIST plays in innovation and the impact that the research and 
services NIST provides can have on moving the nation forward by laying 
the foundation for long- term job creation and prosperity. By 
sustaining our investments in fundamental research, we can ensure that 
America remains at the forefront of scientific capability, thereby 
enhancing our ability to shape and improve our nation's future and that 
of the world around us. I look forward to working with you Mr. Chairman 
and members of the Committee and would be happy to answer any 
questions.

                 Biography for Dr. Patrick D. Gallagher
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Patrick D. Gallagher, Under Secretary of Commerce for Science 
and Technology and Director. Dr. Patrick Gallagher was confirmed as the 
14th Director of the U.S. Department of Commerce's National Institute 
of Standards and Technology (NIST) on Nov. 5, 2009. He also serves as 
Under Secretary of Commerce for Standards and Technology, a new 
position created in the America COMPETES Reauthorization Act of 2010, 
signed by President Obama on Jan. 4, 2011.
    Gallagher provides high-level oversight and direction for NIST. The 
agency promotes U.S. innovation and industrial competitiveness by 
advancing measurement science, standards, and technology. 2010 
resources include $856.6 million from the Consolidated Appropriations 
Act of 2010 (Public Law 111-117), $49.9 million inservice fees, and 
$101.5 million from other agencies. The agency employs about 2,900 
scientists, engineers, technicians, support staff and administrative 
personnel at NIST's two main locations in Gaithersburg, Maryland and 
Boulder, Colorado.
    Gallagher had served as Deputy Director since 2008. Prior to that, 
he served for four years as Director of the NIST Center for Neutron 
Research (NCNR), a national user facility for neutron scattering on the 
NIST Gaithersburg campus. The NCNR provides a broad range of neutron 
diffraction and spectroscopy capability with thermal and cold neutron 
beams and is presently the nation's most used facility of this type. 
Gallagher received his Ph.D. in Physics at the University of Pittsburgh 
in 1991. His research interests include neutron and X-ray 
instrumentation and studies of soft condensed matter systems such as 
liquids, polymers, and gels. In 2000, Gallagher was a NIST agency 
representative at the National Science and Technology Council (NSTC). 
He has been active in the area of U.S. policy for scientific user 
facilities and was chair of the Interagency Working Group on neutron 
and light source facilities under the Office of Science and Technology 
Policy. Currently, he serves as co-chair of the Standards Subcommittee 
under the White House National Science and Technology Council.

    Chairman Hall. And I thank you for staying within the five 
minutes and for your testimony and for those who are with you 
today that have helped you prepare for this and giving of their 
time and being so patient when we had to take time off to go 
vote.
    And I thank the folks that are back here. The main ones are 
here, but the empty seats shouldn't be of any bad omen to you 
because this goes into the congressional record. They get 
copies of everything. It will be read. You will be heard by 
more than just three or four people here, but this is the day 
everybody heads for home or they have two or three other 
committee meetings before the end of the week. So bear with us 
and thank you. We know you have duties to go to, so I will not 
take up any more time apologizing, but I thank you very much.
    I don't think I have mentioned that we really have just 
five minutes each of us for questions. I recognize myself for 
five minutes, and I will give some of that back.
    Dr. Gallagher, I have a question here. Your testimony 
highlights a NIST initiative focusing $13 million in Fiscal 
Year 2012 on research related to what they call ``net zero 
energy buildings.'' Explain first for the record what it means 
to be 'net zero'. And then why is NIST doing this work instead 
of the Department of Energy or perhaps the private sector? And 
is there coordination with other federal agencies to ensure 
that there is not duplication of efforts and to utilize the 
expertise of other agencies? That is about three questions in 
one, and I used up too much time even asking. You are 
recognized to give us a good answer to that, as accurate an 
insight as you can.
    Dr. Gallagher. Right, thank you. The net zero energy 
buildings program is basically a goal to develop and build 
buildings that generate as much energy as they use. It is a 
stretch goal to achieve a building infrastructure that is 
sustainable.
    In the United States, I think you know that our building 
infrastructure is one of our major consumers of power. It is 
about 40 percent of our total electricity and the energy budget 
goes into our building infrastructure. So if we can make 
reductions and make improvements in the efficiencies of our 
building infrastructure, we can really have big benefits.
    The way to achieve net zero energy buildings is a 
combination of high efficiency components, so it is certainly 
about energy efficient appliances, heating and cooling systems, 
but it is also about the optimization of those components into 
a working building. And then on top of that, it is about adding 
distributed energy generation, things like solar energy 
distribution. So it is about design integration, and it is 
about optimizing a set of building practices and materials that 
are used in the construction and use of buildings.
    The Energy Department certainly plays a role in the 
research efforts, but a lot of this is taking place in 
industry. And the NIST role is basically to support industry by 
developing the basis for model codes and standards that the 
building industry can use as they develop high efficiency 
building designs.
    Chairman Hall. Okay, is there coordination then with other 
federal agencies to ensure that there is not duplication--that 
is one of the things we have more concern with, and to utilize 
the expertise of the other agencies, I asked why wasn't this 
work being done by the Department of Energy. I think you have 
answered that, and I thank you. And I will go to Ms. Edwards, 
who is the ranking member here, for her five minutes.
    Ms. Edwards. Thank you, Mr. Chairman, and I know that 
Ranking Member Johnson would want to be here. And she has asked 
me to sit in her stead because she has a conflict. Dr. 
Gallagher, thank you very much for the work that you do, the 
fine work at NIST. Your headquarters is in Gaithersburg, 
Maryland in the fourth congressional district. And I want to 
suggest to Chairman Hall that it would be a great field trip 
for this Committee to come out and visit the NIST headquarters 
and laboratories because I know that when I visited, I learned 
so much. And it makes such a huge difference in terms of 
understanding the mission of NIST and the work that is done 
there.
    I would point particularly to the Center for Nanoscale 
Science and Technology, which is doing some of the cutting edge 
research in nanotechnologies, cost competitive technologies, 
that really are the game changer for the future. And so, Dr. 
Gallagher, thanks, and I look forward to sharing that visit 
with my colleagues.
    I want to ask you in particular about the manufacturing 
extension partnership. I would just share with you, Dr. 
Gallagher, that at University of Maryland, the entire 
University of Maryland system, is in a partnership. It is 
supported by NIST, and I know that for my state, that 
partnership makes a huge difference. I mean it is the way that 
we take some of this really innovative work that is going on at 
our universities, and we partner with business and transfer 
those technologies into the marketplace.
    And I want to share with you a story from rural Maryland. 
It is JEM Engineering, and they provide custom antenna design, 
manufacturing and testing services for government and 
commercial applications. NIST made--through the partnership, 
there was a relatively modest investment that has actually 
resulted in this private firm seeing an increase of $1.2 
million in its sales.
    Another company in Montgomery County, Maryland, SEMicro 
Division of METE specializes in design development and 
manufacturing of adhesive testing equipment. Now, I wouldn't 
know anything about this, but I do know that when I paint my 
walls, I want to make sure it sticks. And that is what this 
company does and what they have been able to do with help 
through this manufacturing and engineering partnership is to--
extension partnership is to develop a technology that allows 
the use of digital technology converted from analog technology 
to do testing to make sure that the stuff that we want to stick 
does. And this has been really important, particularly to the 
paints and coating industry.
    And I know that this company has also seen significant 
growth in its sales, and it is this kind of partnership that is 
really the great combination that NIST does in partnering with 
the business community and transferring technologies and seeing 
market growth.
    In Maryland, I would note that we have seen a real impact 
of about $291 million across our state from very, very modest 
investments through this partnership, and I know that is true 
across the country.
    I had a question from my colleague again, Congresswoman 
Giffords from Arizona, who has been a huge proponent of 
expanding our manufacturing base. And she notes that, her staff 
has noted for me that in Arizona the MEP has helped over 300 
manufacturers in Congresswoman Giffords' district and in the 
last five years, increase sales by about $480 million, creating 
641 jobs in Arizona. That is something that--it is about 1,400 
jobs.
    And so if you could tell me please the role that you see 
from the new budget in terms of the investments that we are 
making in the MEP program and whether the current budget 
request really keeps us on track for increasing the partnership 
to about $180 million by 2015, and the contribution that we 
anticipate that can make to our manufacturing sector.
    Dr. Gallagher. Well, I thank you very much for that, and I 
am delighted to hear the success stories coming from some of 
the manufacturers that use the MEP program. I think you touched 
on a couple of critical aspects to remember about MEP. It is a 
partnership program. The MEP program provides up to one-third 
of the funding for centers that are across the United States. 
And what that partnership does is it allows these state-based 
centers to interact with each other to share and disseminate 
best practices. And it allows them to share metrics, what 
specifically works and doesn't work.
    And the services that are being provided are services that 
maybe a very large manufacturing company would be able to do 
within themselves, but the small business community cannot 
perform. So this is addressing and matching the capabilities of 
manufacturers in supply chains with new technologies and new 
products--helping these small manufacturers operate in what is 
increasingly a competitive global international market.
    If small business manufacturing is the center or the 
heartbeat of our economic growth, I think it is imperative that 
a program like this continue. The proposed budget for MEP is 
consistent with the growth that we have talked about in America 
COMPETES for strengthening this program that addresses a fairly 
significant fraction of the small, mid-sized manufacturing 
base. And I think within that community that is using these 
services, it is having a very significant impact.
    Ms. Edwards. Okay, thank you.
    Chairman Hall. Thank you, and at this time, I recognize the 
gentlelady from Florida, Mrs. Adams.
    Mrs. Adams. Thank you. I want to touch back as something, 
and then I want to move forward, and I just want quick a 
response from you as possible. You said that the $13 million 
that is requested on net-zero research is a stretch goal. At a 
time when the American people are having to tighten their 
belts, at a time when our economy is such that people are 
looking every day for jobs, and we need jobs, we need our 
economy to improve, do you think it is wise to come and say we 
want to get $13 million for a stretch goal? Shouldn't we just 
be prioritizing and working with the other agencies that are 
already doing this type of investigation and investigative 
research?
    Dr. Gallagher. So the quick answer is I think it is wise. 
Remember the goal is the challenge goal that is in front of 
them, an interagency effort to develop clean energy technology. 
So it came out of an interagency study that was started the end 
of the Bush administration.
    Mrs. Adams. Do you know how many agencies are doing this 
study, or are working on this issue?
    Dr. Gallagher. There are several agencies involved in----
    Mrs. Adams. Multiple.
    Dr. Gallagher. --their role----
    Mrs. Adams. Very multiple. There are millions and millions 
of dollars.
    Dr. Gallagher. I don't know the amount, but their roles are 
laid out in the report.
    Mrs. Adams. So when you are telling us you are asking for 
$13 million for a stretch goal, that concerns me. I just want 
to let you know that because of the economy and the jobs that 
we are trying to create at this point in time.
    I understand the administration has established an 
initiative known as the National Strategy for Trusted 
Identities in Cyberspace. The strategy seeks to improve upon 
the passwords currently used to log in online and enable people 
to validate their identity securely when they are doing 
sensitive transactions online. The steps the administration has 
taken in this area are concerning to me because it is unclear 
what the trusted identity will look like. Is the administration 
proposing some central sort of national identification system? 
And can you explain what the goals of NSTIC are and what 
tangible output will be produced assuming the initiative moves 
forward?
    Dr. Gallagher. Yes, thank you. So NSTIC refers to a 
national strategy for developing an infrastructure for trust. 
The strategy is being prepared, and we hope it is released 
shortly, so that will certainly show more details about what 
the approach will be. I can share with you that the approach is 
not to create a centralized identity, government-managed 
infrastructure. In fact, the reason Commerce----
    Mrs. Adams. Will you not create that then?
    Dr. Gallagher. We will not create that. So the purpose is 
to support industry to develop a variety of technologies that 
can be used to establish trust between two people having an 
interaction on the Internet. And our hope is that if industry 
creates these solutions, whenever the government needs 
something, we can turn to that.
    Mrs. Adams. Yes, it is always good to see the private 
sector working.
    Dr. Gallagher. We agree.
    Mrs. Adams. In early 2009, the National Academies published 
a report titled ``Strengthening Forensic Science in the United 
States: A Path Forward.'' The report detailed many concerns 
with the state of forensic science in our country, and the 
reliability and accuracy of the science behind techniques and 
procedures used to convict or acquit people of crimes was 
called into question. Could you please discuss what NIST's role 
has been in forensic science, and what you think the 
appropriate role for NIST should be in the future?
    Dr. Gallagher. Thank you. I think the historic role for 
NIST is its core mission, which is the nation's measurement 
laboratory. So the activities we have had in forensic science 
are to establish a scientifically validated methodology for 
specific types of measurements. From the beginning of NIST's 
history, we have been involved in forensic science 
measurements.
    The specific example that is noted most often is our role 
in establishing the methodology for DNA matching, which is, of 
course, used extensively. In fact, that was pointed out in the 
Academy's report. So I think the correct role for NIST is to 
not be a judicial agency, but to actually focus on the 
measurement science and to provide a validated basis for 
techniques that are used in the field.
    Mrs. Adams. So that is----
    Dr. Gallagher. That has been our effort.
    Mrs. Adams. Thank you. And also I am quickly going to ask 
about the manufacturing I have heard from some in the district. 
That there doesn't seem to be an understanding from our 
President about the importance of the industry to the future of 
American innovation. Do you feel there is leadership on this 
issue, and how is the administration coordinating manufacturing 
activities amongst the different federal agencies?
    Dr. Gallagher. So I have an enormous passion for 
manufacturing because our ability----
    Mrs. Adams. As have I.
    Dr. Gallagher. --as a country to innovate depends on our 
ability as a country to manufacture. 70 percent of the 
scientist and engineers in this country work for manufacturing 
industries. So our capacity as a country to innovate is 
fundamentally tied to manufacturing.
    I think that there is a window of opportunity. I think 
there is an enormous sense that, in fact, everyone is getting 
it. I think everyone understand the importance of this. The 
highest levels of the administration are now focused----
    Mrs. Adams. They are now focused on it? Thank you.
    Dr. Gallagher. And there is a very robust interagency 
process to----
    Mrs. Adams. Well, as someone who worked in the 
manufacturing business years ago as a teenager and watched it 
all disappear, I would love to see it all come back.
    Dr. Gallagher. I would love to work with you on that.
    Mrs. Adams. Thank you.
    Dr. Gallagher. Thank you.
    Chairman Hall. I Thank the gentlelady. The Chair recognizes 
Mr. Sarbanes from Maryland for five minutes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I appreciate it. 
Thank you for being here, Dr. Gallagher. I appreciated your 
taking the time the other day to brief me on this. I had some 
understanding of it. I have a much deeper understanding and 
appreciation of the work that you do and how critical it is to 
the innovation agenda for our country.
    If you were here during the earlier panel, which I believe 
you were, you heard me hammer on this theme of rebuilding the 
country and how that is something that Americans understand 
implicitly. What is involved in that is really investment in 
all different kinds of infrastructure, physical infrastructure, 
human infrastructure, civic infrastructure. A lot of the work 
that NIST is doing is powering innovation and technology. And I 
too want to commend NIST for the MEP program and for the 
Manufacturing Extension Partnership and all that that means, 
particularly for small businesses who may not have the 
resources on their own to bring in new, innovative, cutting-
edge techniques but can draw on the expertise that is assembled 
through the MEP program.
    And I hope that at the end of this budget process, the 
resources that you would like to see committed to sustaining 
that effort are there to help that, the mission of that 
program.
    You mentioned the other day when we met and I thought you 
might address it in the hearing briefly, this idea of 
establishing sustainability standards. Obviously one of the 
principal roles NIST has is to create these standards that can 
cut across, and also to think about how our standard setting 
interacts with the standard setting that goes on around the 
world and make sure that we are at the table as that is 
happening, that we are exercising a leadership role where that 
is appropriate and useful to do.
    And I was impressed to hear that the United States' 
standard setting process is really the gold standard 
internationally. Could you speak to the efforts to kind of push 
and work with industry to develop these sustainability 
standards? Before, as I gather, others have done so because I 
don't think that has been established elsewhere yet. And if we 
could get on the front edge of that, that would be really 
helpful, I think.
    Dr. Gallagher. So thank you. All right, the standard 
setting in the United States is actually unique around the 
world because standards are set by the private sector. Industry 
leads our standards development efforts in the United States. 
NIST's role by law is to coordinate the federal agencies' 
interaction with the private sector standards.
    In the area of sustainability, it is quite interesting 
because consumers have always attached value to what a 
manufactured product is. And so obviously we are sensitive to 
price. That reflects how efficiently something is made, but we 
also are concerned with the quality of how something is made. 
In the 1980s, we were very concerned about the quality of 
American manufactured products.
    Increasingly, there is this sense of caring about the life 
cycle of a manufactured product because of finite resources. So 
whether it was officially made using either natural materials, 
including the recyclable costs or the recovery costs when the 
useful lifetime of that manufactured product is done, whether 
it is the use of energy in manufacturing that process.
    And other parts of the world are actually addressing these 
and in some cases, making requirements in their marketplace 
about whether hazardous materials of a certain type will be 
used or certain types of energy efficiency.
    U.S. manufacturers are coming to NIST because they see the 
strategic advantage of having their products be identified as 
sustainably manufactured. And for consumers to attach value to 
that, we have to help define what that means, and so this is a 
classic case of NIST working with industry to help define 
what--how do you define sustainability, and what the voluntary 
consensus standards are around that.
    My feeling is that consumers will attach value to this, and 
as they do, that will strongly advantage U.S. manufacturers 
because many of the attributes of manufacturing in the United 
States with our energy infrastructure and our environmental 
approach re-advantages manufacturers in that context.
    So it is critically important. This Committee has 
recognized that it was called for under the America COMPETES 
reauthorization, and we have tried to reflect that in our 
request. It is critically important.
    Mr. Sarbanes. Thank you.
    Chairman Hall. Thank Mr. Sarbanes, and now we recognize the 
gentleman from Arizona, one of our new Members, Mr. Quayle, for 
five minutes.
    Mr. Quayle. Thank you, Mr. Chairman. Dr. Gallagher, good to 
see you again.
    Dr. Gallagher. Yes.
    Mr. Quayle. Thanks for coming. One of the things I wanted 
to talk to you about is health IT, and one of the things that 
has been coming up a lot is electronic medical records and how 
we can actually probably be able to reduce injuries and 
mistakes and also reduce costs because a lot of times, we 
repeat and duplicate procedures that aren't needed.
    But one of the things that I have been talking to doctors 
back in my home district about is that there are so many 
different types of electronic medical records, and they are not 
compatible with one another. And so what happens is that it is 
much easier and much quicker for them to actually just go and 
do the same procedures over again.
    So we are starting to have a lot of electronic records that 
can't communicate with one another. And we are just duplicating 
the same problem that we had before. So I wanted to know how 
have you at NIST been able to deal with the huge laundry list 
of various health IT standards in trying to make sure that 
there is one set way that electronic medical records can 
communicate with one another?
    Dr. Gallagher. Thank you very much. It is critically 
important, and I think you enunciated the advantages of 
information in medicine, that the efficiencies we can gain are 
extremely large. The challenges are large too because if this 
information can't be officially shared, protecting the security 
so we don't violate the privacy of patients, that it is used 
appropriately, then this system doesn't work.
    By law, the responsibility for fostering the creation of a 
national not interoperable system of health care records was 
given to HHS, and they have an office of the national 
coordinator that is led by Dr. David Blumenthal. NIST works 
extremely closely with that office, and, in fact, that role was 
also laid out by legislation.
    The best way to understand the NIST contribution is that, 
as a nonregulatory, technical agency, our job is to work both 
with the industries that are developing these electronic 
medical systems and with HHS, the federal agency that creates 
the incentives through Medicare/Medicaid reimbursements that 
are set out by law, to make sure that when we set requirements 
or standards for these products that they are testable and 
achievable.
    So a key part of the NIST role is how do you show that two 
systems can share information and that the information will be 
accurately and securely conveyed? So a key part of the NIST 
role is its technical work to find a testable test methods, 
validation methods. How would you demonstrate the two systems 
can talk to each other securely and reliably? And then working 
with HHS to support how they help the market. In other words, 
how do you help a physician, who is buying a system, know that 
the system he is buying will work in this national network? And 
that it could come down to product identification or some sort 
of voluntary certification process.
    NIST has experience with a wide range of those processes, 
and so we provide guidance there. These are called conformity 
assessment techniques. How do we show in the market that 
something complies with these standards that industry has come 
up with?
    Mr. Quayle. And in the private sector, those that are 
dealing with electronic medical records, have they been helpful 
and open to having some set standard in terms of being able to 
communicate? Obviously each different product will have 
different bells and whistles, but having the ability to have 
one set standard so that they can communicate, whether one 
doctor uses one product and the other uses another. Have they 
been open to that?
    Dr. Gallagher. Very open. So from the marketplace, if I am 
a company producing these kinds of products and services, this 
is to my advantage now because there is no way I am going to 
capture the whole market where everybody buys my system. So 
what I want is to make sure that the products I am selling, the 
physicians and doctors' offices and hospitals buying it know 
that it will work in this national network. It basically 
creates a platform technology that they can then build on, and 
they can distinguish themselves, not on whether it works--that 
is now sort of a core functionality--but what additional 
features their products and services offer.
    So it provides a real platform on which they can go 
forward, and they have been very cooperative. In fact, it is 
industry that takes the lead in defining many of these 
requirements. We are the technical resource for them and play a 
key convening role. How would you demonstrate that these 
requirements that you are proposing would work, and how would 
we show it through tests and other techniques?
    Mr. Quayle. And is one of the big requirements going to be, 
or is it in the process of being basic cybersecurity because of 
the delicate nature of medical records to make sure that they 
don't get in the wrong hands? Is that being addressed in----
    Dr. Gallagher. It is critically important because you are 
talking about sharing information, very sensitive information 
about patient and physician basically through the Internet. And 
we don't want to violate patients' privacy. We don't want 
anyone compromising these records or destroying them because we 
are literally dealing with peoples' lives here, and so the 
cybersecurity is a critical attribute of a successful 
electronic medical records system.
    Mr. Quayle. Okay, thank you, Dr. Gallagher. I yield back.
    Chairman Hall. Thank you for that. Chair now recognizes Mr. 
Wu for five minutes, and your time is almost up, Mr. Wu.
    Mr. Wu. Mr. Chairman----
    Chairman Hall. Since you are a member of the Committee, we 
recognize you for your five minutes.
    Mr. Wu. Mr. Chairman, you have always appropriately kept me 
on a correct length leash. Thank you. Thank you very much for 
being here, Dr. Gallagher. You are a very capable leader for a 
very important agency. My three-part description of NIST has 
always been if you can't measure it, it is not real for 
economic or technical purposes. If you don't have a reference 
material for it, you don't really know what it is. And if you 
don't have technical standards, then it is potentially 
interoperable, and you run the risk of a technologic tower of 
Babel.
    Your agency is absolutely crucial to our technology and to 
our economy and to American innovation. I am here today to ask 
you about a very prosaic, very practical matter that has been 
forcefully brought to our attention by the tragedy in Japan 
this morning. These earthquakes, the earthquake in Japan, and 
we certainly extend our heartfelt condolences to all the 
Japanese who have been affected by this and those who are 
currently here in the United States.
    This kind of tragedy has also struck Chile and Haiti in the 
recent past. It is also something that is very much on my mind 
because a similar phenomena will occur off the coast of Oregon. 
The Cascadia Fault runs off the Washington, Oregon, and 
California coasts, and of particular concern is a 250-mile 
stretch of the Cascadia Fault that is currently locked up. 
Historically it has locked up, and every 300 years or so, there 
is an earthquake of up to 9.0 magnitude right in the range of 
the 8.9 Richter Scale magnitude that occurred in Japan this 
morning. The fault is also close to the Oregon coast, like the 
Chilean fault earlier this year and like the Japanese fault.
    NIST is taking a leadership role in setting standards and 
doing cutting edge research on structures, buildings, and other 
infrastructures, which are resistant, better resistant, to 
earthquakes. I would like you to talk a little bit about that, 
and then I have one quick follow-up question after that.
    Dr. Gallagher. Great, thank you. And it is tragic that this 
is such a timely topic today. Many of our colleagues and 
friends from Japan were waiting to hear how things are faring 
with them. So the relationship with NIST and hazard reduction 
for earthquake hazards goes back to 1977 when Congress passed 
the National Earthquake Hazard Reduction Act. In that process, 
several agencies have critical responsibilities. There are four 
major agencies: NIST, the U.S. Geologic Survey, FEMA, and the 
National Science Foundation. They are working with the Office 
of Science and Technology Policy.
    The roles complement each other, so USGS looks at seismic 
research and how you predict and map out hazard areas. FEMA 
looks primarily at response and recovery activities, and NSF 
supports the long-range engineering research that we need to 
help engineers design seismically-resistant structures and the 
NIST role is quite interesting.
    The NIST role is to support the development of 
infrastructure and buildings that are resilient against 
earthquake hazards. And the way we affect that is understanding 
how buildings are built. That is when you design in how 
resistant a building is to a hazard. So the most critical thing 
you can do is take the research results that these larger 
efforts are doing, plus what we learn when an earthquake 
happens, and make sure we are reflecting the latest 
understanding in building codes.
    The Federal Government doesn't set building codes. What we 
do is work with the codes community to develop model codes, and 
those are adopted at the local level. So the NIST role is 
interesting because we have to learn from tragedy: so one of 
our roles is to use the field as experience, figure out why 
structures fail under earthquake or other natural disasters, 
and also look to what the research community is telling us, and 
then work with the standards and codes community to reflect 
that.
    And I think the advisory committee for the Earthquake 
Hazard Reduction Program is actually at NIST. Yesterday and 
today, I will be meeting with the committee as soon as I leave 
here, and I think they would tell you we have a balance of the 
portfolio problem. That we, while we have very strong efforts 
in the recovery part of our--the emergency recovery part of our 
portfolio. We are not spending enough on the hazard mitigation 
or the risk reduction piece.
    And that includes not just the buildings themselves but 
also the infrastructure. If you lose power and natural gas and 
water the ability of a community to respond is severely 
compromised, and so these lifeline issues are critically 
important. And this is also reflected in our request.
    Mr. Wu. Doctor, the Chairman will forcefully say that my 
time has expired, so let me ask this question and ask for your 
answer later. And my understanding is that different building 
codes, different nations, the Chileans, the Japanese, some of 
them have had remarkably resilient buildings, and I would like 
to know how the United States compares to some of these other 
countries when you have time to respond, not during Committee 
time. Thank you very much.
    Dr. Gallagher. Thank you.
    Chairman Hall. Thank you, Congressman Wu, and thank you, 
Dr. Gallagher, for your very direct and professional answers. 
We appreciate it. Thank all those of you still here in 
attendance. And Members of the Committee may have additional 
questions that they will submit to you. We ask that you answer 
those in writing. If you can, we would like for you to do it 
within the two weeks time if that is possible. The record will 
remain open for two weeks for additional comments. The Members 
and witnesses are excused. I thank all of you for coming. The 
hearing is adjourned.
    [Whereupon, at 1:27 p.m., the Committee was adjourned.]
                              Appendix I:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Subra Suresh, Director, National Science Foundation

Questions submitted by Representative Ralph M. Hall

Q1.  Scattered throughout the entire federal budget request are 
dramatic increases in spending on ``clean technologies.'' At the 
Department of Energy alone, there are enormous spending increases for 
clean tech through ARPA-E, EERE, the Office of Science, the Loan 
Guarantee Program, and Energy Innovation Hubs, to name just a few. 
Similar programs are proposed throughout the government, including 
NSF's ``Science, Engineering, and Education for Sustainability (SEES)'' 
portfolio intended to ``spark innovations for tomorrow's clean energy 
sources with a cross-disciplinary approach to sustainability science.'' 
The FY 12 budget request is $998 million for this effort. This is a 51 
percent increase over the FY 10 amount and reflects 13 percent of the 
entire NSF budget.

a.  Given that President Obama said in the State of the Union that he 
was ``willing to eliminate whatever we can honestly afford to do 
without,'' and the immense amount of spending across the federal 
government on clean energy activities, do you really believe the NSF 
can't ``afford to do without'' this $338 million in new spending on 
this one topic?
b.  Further, is it even possible for NSF to responsibly absorb and 
spend such dramatic increases in funding? How is NSF working with the 
Administration to ensure that there is a government-wide coordinated 
research strategy, with specific, government appropriate research to 
confined areas? How can you prevent ``research crawl,'' when identical 
research proliferates into every agency? How can you assure us that the 
research NSF is supporting is not identical to the research being 
supported by the plethora of other agencies performing similar 
research?
A1a. NSF's involvement in clean energy is driven by the fundamental 
research questions that underlie future energy pathways. NSF's 
investments in clean energy support research and education in 
alternative energy for electricity (solar, wind, wave, geothermal) and 
fuels (chemical and biofuels). NSF grantees also address the 
collection, conversion, storage and distribution of energy from diverse 
power sources (including smart grids), the science and engineering of 
energy materials, energy use and energy efficiency. As an integral part 
of the NSF Science, Engineering, and Education for Sustainability 
(SEES) portfolio, clean energy research addresses our advancement 
toward reliable and sustainable energy resources that will not degrade 
essential ecosystems and environmental services, not lead to 
unacceptable social or economic consequences, and will prepare society 
to responsibly adopt them.
    In FY 2012, the SEES activity, which is designed to advance 
science, engineering, and education to inform the societal actions 
needed for environmental and economic sustainability and sustainable 
human well-being, is proposed to include a major emphasis on 
sustainable energy. NSF will mobilize the social, behavioral, and 
economic science research community to work in close collaboration with 
natural scientists and engineers to provide a comprehensive and 
integrated approach to solving questions of sustainability. NSF views 
this investment to foster insights into the environment-energy-society 
nexus as vital to increasing the effectiveness of our energy and 
ecosystem management policies, and to securing a prosperous future for 
the Nation.
    Future U.S. economic competitiveness, energy independence, and 
sustainable growth greatly depend upon a talented and motivated 
workforce with strong competencies in science and engineering. NSF's 
long track record of supporting the development of creative faculty, 
and their students, form the backbone of the Nation's strength in 
science, technology, engineering, and mathematics. These faculty and 
students go on to be the leaders in efforts supported by other agencies 
such as the Department of Energy (DOE), entrepreneurial start-ups, and 
large companies. NSF's integration of research and education is vital 
for the future of the country. Specific efforts under SEES will support 
postdoctoral researchers and early career scientists at the interfaces 
between social sciences and engineering disciplines so that they might 
gain the skills necessary to address critical scientific and societal 
challenges.
A1b. NSF funds research that is performed external to the government 
and across traditional disciplinary lines. This approach to research is 
critical to address highly complex areas, such as the environment-
energy-society nexus, where disciplinary boundaries need to be broken 
to solve seemingly intractable problems and enhance energy 
independence.
    Last year some $2 billion in funding requests that were judged to 
be meritorious and worthy of support were declined due to 
unavailability of sufficient resources. Initial SEES activities in 2010 
and 2011 were significantly oversubscribed, demonstrating the 
tremendous need for investment in this area, and the requested S338 
million increase in SEES would support approximately 700 typical NSF 
research grants. Importantly, the complex nature of the environment-
energy-society dynamic will, in many cases, best be understood through 
the coordinated work of teams of investigators and require research at 
multiple organizational, spatial, and temporal scales. Funding these 
teams will require support at levels above the NSF average.
    The issue of possible duplication of effort across agencies is 
important to NSF. Our activities in the sustainability arena are 
developed in close consultation with DOE, NOAA, USGS, USDA, and other 
federal agencies to specifically leverage, not duplicate. federal 
investments. Already, DOE partners with NSF in Engineering Research 
Centers focusing on the engineering, science, social science, economics 
and human behavioral aspects associated with disruptive changes in 
energy strategies. Discussions with other federal agencies indicate 
considerable interest in building joint programs and sharing 
infrastructure. Leveraging these programs internationally is also 
important to meet sustainability challenges. The proposed SEES activity 
explicitly includes support for networks of diverse investigators in 
order to optimize collaboration and reduce duplication.
    NSF is a key player in the inter-agency sustainability arena 
because of our unique involvement with all the areas of science, 
engineering, and science education required to address the complex 
system level problems of sustainability. As the only agency 
specifically dedicated to advancing fundamental scientific and 
technological understanding across all science and engineering fields, 
NSF-supported research typically precedes direct application by mission 
agencies or others by years to decades. In addition to closing key 
knowledge gaps about the interplay of environment, energy, and society, 
NSF will link the academic community with private partners to address 
sustainability issues and educate the next generation interdisciplinary 
workforce. Here is how NSF SEES sets us apart from the other agencies 
and plays to our strengths:

        <bullet>  NSF has developed a ``pathways approach'' to SEES. 
        This approach involves cross directorate and interdisciplinary 
        research that integrates the physical, engineering, social, and 
        environmental sciences to provide a comprehensive and 
        integrated approach to solving questions of sustainability.

        <bullet>  Our ``sustainable energy pathways'' integrates 
        resource characterization and the technology needed to develop 
        and effectively use the resource with the social and 
        environmental impact of widespread adoption of that energy 
        source.

        <bullet>  NSF will invest in graduate students and postdoctoral 
        scholars with the aim to develop a scientific workforce trained 
        in new technologies for emerging markets in energy and other 
        aspects of sustain ability science.

        <bullet>  NSF uses a total systems approach to the 
        sustainability challenge that involves cutting edge science and 
        technology coupled with a strong commitment to education and 
        training. National Nanotechnology Initiative /NNI)

Q2.  The budget request calls for a 10.6 percent increase for the NSF 
contribution to the National Nanotechnology Initiative (NNI). Please 
tell us how this increase of funding will be spent and why it is 
necessary at this time?
A2. The NNI investment at NSF will focus primarily on priority areas 
driven by national needs (manufacturing, electronics, and energy), 
public safety (nanotechnology environment, health and safety (EHS)), 
and partnerships with other agencies (NNI-NSTC crosscuts) and industry.
    BA portion of NSF's NNI investment, $117.40 million, will be 
invested in three NNI Signature Initiatives (partially covered by the 
requested increase in addition to the reallocation of funds within the 
current budget)
    Sustainable Nanomanufacturing ($35.40 million): This request will 
support single investigator and interdisciplinary research teams in the 
following areas:

        <bullet>  Novel processes and techniques for continuous and 
        scalable nanomanufacturing;

        <bullet>  Directed (physical/chemicallbiological) self-assembly 
        processes leading to heterogeneous nanostructures with the 
        potential for high-rate production;

        <bullet>  Principles and design methods to produce machines and 
        processes to manufacture nanoscale structures, devices and 
        systems; and

        <bullet>  Long-term societal and educational implications of 
        the large-scale production and use of nanomaterials, devices 
        and systems, including the life-cycle analysis of such 
        nanomaterials, devices and systems.

    Partnerships with NIST, DOD and other NNI agencies are planned.
    Nanoelectronics for 2020 and beyond ($50.0 million)--This request 
will fund grants to advance the forefront of computation, information 
processing, sensor technologies, and communications infrastructure 
beyond the physical and conceptual limitations of current technologies. 
The initiative is intended to support proposals by single investigators 
and interdisciplinary teams of investigators committed to exploring 
innovative research concepts in nanoelectronics involving fundamental 
challenges from novel materials, chemistry, and logic devices, to 
circuit designs and systems architectures, algorithms, and perhaps 
entirely new paradigms of computation, sensing, and processing of 
information. The following themes will receive priority:

        <bullet>  Exploring new chemistries and materials for 
        nanoelectronics;

        <bullet>  Exploring alternative state variables and 
        heterogeneous integration for nanoelectronic devices and 
        systems; and

        <bullet>  Exploring novel paradigms of computing.

    Co-funding with the Semiconductor Research Corporation and other 
NNI agencies is planned.

    Nanotechnology for Solar Energy Collection and Conversion ($35.40 
million). This request will fund single investigators and 
interdisciplinary research teams in the following areas:

        <bullet>  Improve efficiency of photovoltaic solar electricity 
        generation with nanotechnology;

        <bullet>  Develop thermoelectric converters for solar thermal 
        energy generation and conversion with nanotechnology; and

        <bullet>  Improve solar-to-fuel conversions with 
        nanotechnology.

    NSF will collaborate with DOE and other NNI agencies.

    Environmental, Health and Safety (EHS). In FY 2012, funds are 
transferred from several Program Component Areas (PCAs) to increase 
funding for the Environmental, Health and Safety (EHS) PCA to reach a 
total FY 2012 funding level of $34.51 million. This shift reflects the 
prioritization of EHS within the overall NNI portfolio. Requests for 
research are primarily directed at environmental, health, and safety 
implications and methods for reducing the respective risks of 
nanotechnology development. The support for EHS represents 7.6 percent 
of total NNI funding at NSF.
    The three signature initiatives and nano-EHS research increases 
have been recommended by interagency working groups, workshops 
organized with the research communities and the President's Council of 
Advisors on Science and Technology (PCAST). In addition, NSF sponsored 
an international study entitled ``Nanotechnology Research Directions 
for Societal Needs in 2020'' (NSFIWTEC report in 2010, available on 
www.nsf.gov/nano.) It provides assessment of nanotechnology development 
over the last ten years (2000-2010) and a long term vision of the field 
over the next decade (2010-2020).

    MREFC

Q3.  As you are well aware, the recently passed House Continuing 
Resolution reduces funding for the MREFC account significantly. Should 
that amount become law, please describe how NSF will distribute the 
funding across current projects.

A3. If expected funding levels are not appropriated in FY 2011, NSF 
will give priority to completing projects in construction--with highest 
priority to those farthest along. NSF plans to minimize the disruption 
to the portfolio of projects in construction by making budget 
alterations to the smallest number of projects necessary to stay within 
the available budget. For early phase construction projects and new 
starts, NSF will assess their plans to see where funding reductions 
would produce the least impact on project performance and risk, and 
result in the best overall outcome under the circumstances. Changes to 
the proposed funding plans--which were based on technically limited 
cost profiles (i.e. expenditure profiles based on planning projects at 
the maximum rate technical work can be performed because that profile 
provides the lowest total cost to the government)--could result in net 
increases to the total project costs of each of the projects affected. 
NSF is quantifying these cost impacts and will make adjustments to the 
proposed distribution across the portfolio of projects based on an 
understanding of the costs of various options.

Questions submitted by Representative Mo Brooks

Budget Priorities
Q4.  Could you please identify and explain the processes and criteria 
used to establish the priorities for NSF in the FY 12 Budget Request?

A4. NSF establishes scientific priorities based on a myriad of inputs 
and considerations, To ensure that NSF's research funding is focused on 
the needs of the scientific community, the agency takes seriously the 
important feedback obtained through workshops, Advisory Committee 
meetings, outreach efforts, and everyday interactions between NSF 
program staff and their peers and colleagues in the science and 
engineering community, In addition, the Foundation closely follows 
guidance and priorities identified by OMB and OSTP in official 
documents, such as the annual joint memorandum on Science and 
Technology Priorities, and statutory requirements and other 
Congressional priorities.
    High-level planning begins early in the budget cycle and is a 
highly collaborative and evolutionary process, NSF's senior management 
team, which represents all directorates and offices, works closely 
together throughout the planning stages to brainstorm, share, build, 
and refine their ideas, Ultimately the NSF director, in concert with 
the National Science Board, determines NSF's strategic budget 
directions.

Q5.  The Administration's Innovation Strategy details its efforts to 
strengthen our nation's competitiveness and long-run economic growth. 
What role does the Foundation and Board play in measuring and 
evaluating the economic impacts of basic research funding? What methods 
does the Federal Government use to prioritize funding areas of basic 
research, both within an area of science and across areas of science?

A5. The National Science Foundation (NSF), including the National 
Science Board (NSB), undertakes a number of actions that inform 
government, industry, and academic officials about the economic impact 
of basic research funding, The Science and Engineering Indicators 
report, issued biennially by NSS, provides a broad base of quantitative 
information on the U,S, science and engineering (S&E) enterprise 
including: patents awarded (e,g'' academic patents awarded per 1,000 
S&E academic doctorate holders); scientific publications (e,g'' 
academic S&E article output per $1.0 million of academic research and 
development (R&D)); investments in R&D (e,g., academic and federal R&D 
obligations as share of gross domestic product); and trends in R&D 
performance and international R&D comparisons (e,g., ``wealthy 
economies generally devote larger shares of their gross domestic 
product to R&D than do less developed economies ''). In addition, NSF's 
Science of Science and Innovation Policy (SciSIP) program invests in 
research designed to develop, improve, and expand models, analytical 
tools, data, and metrics that can be applied in the science policy 
decision making process, Among the research topics supported under the 
SciSIP program is the evaluation of the tangible and intangible returns 
from investments in science and in research and development. 
Retroactive impact assessments (including research-submitted 
highlights) also enable NSF to measure and evaluate the impact of its 
investments. Methods used by federal agencies--including NSF--to 
prioritize basic research investments include: Administration-
identified national challenges, the OMS-OSTP R&D priorities, National 
Science and Technology Council deliberations and decisions, 
Congressional authorizations and budget allocations, and input from the 
U.S. research community though NSF advisory committees and other 
mechanisms such as the President's Council of Advisors on Science and 
Technology.

Q6.  The NSF FY 12 Budget eliminates and reduces several programs 
across the Directorates, but does not go nearly far enough in my 
opinion. At the same time, several new programs are being created and 
many directed programs are receiving increases. I am concerned that 
while programs like the Graduate STEM Fellows in K-12 Education and the 
National STEM Distributed Learning Program are on your list because 
evaluations have shown that they are not necessarily proven programs, 
it seems that NSF is simply looking to shift those dollars (and more) 
into new, unproven programs. Can you explain the decision-making 
process for the terminations and reductions as well as the creation of 
the new programs? Is the scientific community driving these decisions 
or is the Administration?

A6. NSF undergoes a continual portfolio assessment process in order to 
ensure that investments are closely aligned with agency priorities and 
at the leading edge of science and engineering. The Foundation uses its 
evaluation processes to identify where the potential might lie for more 
innovative and effective investments.
    The six terminations and reductions proposed for FY 2012 reflect 
this ongoing process of review and reprioritization. A number of these 
were informed by recent program evaluations, while others reflect 
findings from major reviews by the National Science Board and other key 
stakeholders.

Q7.  The word ``new'' appeared 34 times in your testimony and 17 times 
in Dr. Bowen's. Most of these references were to new programs or 
initiatives. In light of our current economic reality, when the 
American people are begging us to change our spending habits and 
resources are precious, why is it necessary to begin new programs? Can 
you provide a better justification for the creation of these new 
programs mentioned in your testimony, especially those that seem to 
duplicate existing programs, such as Teacher Learning for the Future, 
and Transforming Broadening Participation through STEM?

A7. To effectively transform the frontiers and innovate for society, 
NSF engages in a dynamic and ongoing process of strategic realignment 
and refinement of program emphases. To do so requires phasing out 
programs that have met their goals, while preserving the key elements 
of those programs in new formulations that anticipate future needs. 
These realignment and refinement decisions are based on a range of 
factors, including key national reports, input from the research and 
education communities in schools and universities, input from NSF's 
advisory groups, evolving collaborations with other agencies such as 
the U.S. Department of Education (ED), and analyses of evidence growing 
out of NSF's funded portfolios.
    The proposed Teacher Learning for the Future (TLF) and Transforming 
Broadening Participation through STEM (TBPS) programs do not duplicate 
existing programs. Instead, they will build on the lessons and 
successes of current programs, and will draw heavily on recent research 
and synthesis studies, to catalyze needed innovations and new models in 
two areas that are essential for progress in improving STEM education: 
the effectiveness of STEM teaching, and the recruitment, development, 
and retention of a broadly diverse STEM workforce that includes people 
from all groups traditionally underrepresented in STEM, including women 
and persons with disabilities. These two programs will challenge NSF 
grantees to transform the frontiers of education and innovate in ways 
that are critical for society.

Q8.  I understand and respect that, as mentioned in hearing testimony, 
``neglecting scientific research and education now will have serious 
consequences for the future of our country.'' However, Congress is 
faced with many difficult funding decisions in our current economic 
situation. Every Committee is hearing similar pleas from education to 
transportation and from energy to defense. Federal funding cuts are a 
likely reality over the next few years. How would you suggest we look 
at reigning in government expenditures across the board? How do we 
prioritize programmatic funding for the Foundation?

A8. The President's budget for FY 2012 identifies a path to restrain 
spending overall while also protecting essential investments in the 
Nation's future. The Foundation's vital role has been recognized in 
significant ways: The President's Plan for Science and Innovation calls 
for doubling the federal investment in key basic research agencies, 
including NSF; and the America COMPETES Reauthorization Act of 2010 
acknowledges that ``the National Science Foundation is the finest 
scientific foundation in the world, and is a vital agency that must 
support basic research needed to advance the United States into the 
21st century.'' Consistent with this, NSF's FY 2012 Budget Request 
capitalizes on promising research areas where new discoveries can help 
regain U.S. competitiveness and leadership in the science and 
engineering enterprise.

Q9.  Dr, Bowen identified NSF as the ``only federal agency dedicated to 
the support of basic research and education in all fields of science 
and engineering.'' Are the more applied areas of research identified in 
the America COMPETES Reauthorization Act, coupled with many 
Administration applied priorities for NSF in the FY 12 budget request 
diluting the funding for basic, fundamental research? Please explain 
your response.

A9. This is not the case. Congress and the Administration recognize the 
importance of funding basic, fundamental research, and the FY 2012 
Request strengthens these investments.
    The 2010 Act recognizes that NSF, as the only federal agency 
dedicated to fundamental research in all fields of science and 
engineering, supports advances that lead to downstream applications. 
For example, in manufacturing research, such as nanomanufacturing and 
advanced sensing and control techniques, NSF's contributions will be in 
``fundamental research leading to transformative advances in 
manufacturing technologies, processes and enterprises that will support 
United States manufacturing . . .'' The 2010 Act also recognizes that 
NSF can play a key role in developing collaborations ``that promote 
innovation and increase the impact of research by developing tools and 
resources to connect new scientific discoveries to practical uses.''

STEM Education

Q10.  The Administration plans to invest $3.4 billion across the 
federal government for STEM education, including many new initiatives 
primarily at the Department of Education. While the Department of 
Education should certainly take a more active role in STEM, do you know 
what the rationale is for shifting this support from NSF to Education? 
How actively involved can NSF be in decisions being made at the 
Department of Education on STEM-related issues? What steps are being 
taken to ensure that these new activities are research-based and will 
have input from not only the education community but also the 
scientific community?

A10. NSF continues to play the leading role across federal agencies in 
advancing and improving K-12 science, technology, engineering, and 
mathematics (STEM) education, through the design, creation, 
implementation, and study of models, approaches, and instructional 
materials for STEM student learning, and through investment in ensuring 
effective STEM teaching through teacher preparation and development. 
Building on its past accomplishments and anticipating the future, NSF 
is uniquely situated among federal agencies to advance this kind of 
education because of its strong connections with the Nation's leading 
STEM researchers, faculty, education researchers, science, technology, 
and education policy makers, and other professionals.
    NSF programs supporting STEM education encompass a wide range of 
disciplines, including biology, chemistry, engineering, mathematics, 
physics, computer science, social science, economics, behavioral 
science, geological sciences, Arctic and Antarctic studies, and a range 
of interdisciplinary areas. Among federal agencies, this immediate 
access to such a broad range of cutting-edge science for activities in 
K-12 education is unique. Complementary programs at other agencies 
focus on mission-oriented areas of STEM. This unique NSF context allows 
for an investment that is STEM education-specific and that complements 
the more general and wide-ranging investments of the U.S. Department of 
Education (ED). The Administration's request does not signal a shift of 
support from NSF to ED. Rather, it conveys the more deliberate 
complementarity of the two agencies' investments resulting from very 
strong communication and coordination activities that have been 
underway between the two agencies over the past two years. Currently, 
there is a working group comprised of NSF and the Institute of 
Education Sciences (IES) staff developing common ``evidence standards'' 
that will serve as a basis for both NSF and ED STEM programs.

Q11.  Everyone touts the importance of America COMPETES and the America 
COMPETES Reauthorization Act, but rather than sticking to funding 
proven and established programs at NSF like Noyce Scholarships and the 
Math and Science Partnership (MSP), the FY 12 budget request reduces 
their funding by $20 million in order to create a new teacher 
development program. The Noyce program was expanded in the original 
COMPETES Act to include a new program called 10,000 Teachers. 10 
Million Minds. The FY 12 budget is now calling for a NEW 100,000 STEM 
teachers program with the same hoped for end result. Other than the 
focus being at the Department of Education versus NSF, do you have any 
idea how this new program will be different? Is there a problem with 
the program currently in place at NSF?

A11. NSF's MSP program is a broadly defined research and development 
program aimed at improving K-12 student learning in the STEM fields. 
There are a number of strategies and approaches funded in this program, 
including teacher professional development; strong engagement of STEM 
faculty; efforts to work with standards, frameworks and curricula; and, 
to some extent, efforts to improve teachers' preservice preparation. 
Evaluation evidence indicates that MSP is effective in building 
professional learning communities and, in particular contexts, raising 
student achievement. The Robert Noyce Scholarship (NOYCE) program is 
primarily a scholarship program, and the program evaluation being 
launched at this time will include examining the impact of Noyce 
scholars on their students' learning. Neither of these programs is 
explicitly focused on building the research knowledge to support the 
innovation and improvement needed in teacher preparation to prepare 
100,000 new STEM teachers who will be effective in ensuring student 
learning of tomorrow's complex STEM content.
    NSF's proposed TLF program would likely attract applications from 
PIs who have become involved in teacher preparation research on the 
basis of their implementation experiences in MSP and Noyce, and would 
allow a focused and rapid development of learning about quality teacher 
preparation that would serve as the foundation for the larger scale-up 
activity proposed by the Department of Education.

Q12.  A few weeks ago, the new National Science and Technology Council 
STEM Education Committee convened. Please describe the role NSF will 
play in this Committee. Do you think it will be able to effectively 
identify duplicative and ineffective STEM programs across the federal 
government? And if so, how and what actions can be taken to save the 
American taxpayer from continuing to support these programs?

A12. NSF Director Subra Suresh, together with OSTP Associate Director 
Carl Wieman, serves as co-chair of the newly constituted STEM Education 
Committee (Co-STEM). Work is already well underway in two task groups--
Federal Inventory of STEM Education (FI-STEM) Task Force and the 
Strategic Plan Preliminary Task Force. Dr. Joan Ferrini-Mundy, NSF's 
Assistant Director for Education and Human Resources, is the NSF 
representative on both of these task groups. The inventory group has 
already created a draft template for gathering relevant information 
about STEM programs, including information about effectiveness and 
metrics, and has begun collecting the relevant information. This 
inventory will serve as a key foundation for the Strategic Plan group. 
NSF is confident that the kind of deliberate planning for 
complementarity and interfacing of programs that has been started 
between the NSF and the Department of Education can serve as a model 
that can be expanded to ensure appropriate complementarities and 
coordination among other agency programs. We do anticipate that this 
may require the realignment and refocusing of several programs across 
agencies.

Broadening Participation

Q13.  NSF is proposing to eliminate funding for the Research Initiation 
Grants to Broaden Participation in Biology program (RIG) because ``the 
number of proposals from underrepresented groups did not increase.'' Is 
this the same case for other broadening participation programs within 
the Foundation? What evidence do we have that these programs are 
achieving the desired results? Why do we need yet another new $20 
million ``Transforming Broadening Participation through STEM (TBPS) 
program?

A13. After the introduction of the Research Initiation Grants to 
Broaden Participation in Biology program, the number of Biology 
principal investigators from under-represented groups did not increase. 
Consequently, the Biological Sciences Directorate is evaluating its 
strategy for broadening participation and discussing a different model 
to reach the goal of increasing competitive regular research proposals 
from underrepresented groups. Every NSF Directorate goes through a 
similar analytical process with respect to its programs, and NSF's 
Priority Goal for STEM workforce development focuses on establishing 
evaluation that will inform program improvement for more strategic 
impact. NSF's Transforming Broadening Participation through STEM 
program would take advantage of new possible emphases and partnerships, 
based on continued understanding of best practices and needs. At the 
undergraduate level, recruitment and retention of students from groups 
traditionally underrepresented in STEM is an especially serious 
challenge. TBPS would invest in strategies to place exciting and 
substantial access to cutting-edge science at the center of efforts to 
recruit and retain students; none of the current HRD programs at the 
undergraduate level has this particular focus as the main strategy.

Questions submitted by Representative Randy Neugebauer

NEON

Q14.  Your FY 2012 budget request includes $224.7 million for the Major 
Research Equipment & Facilities Construction program (MREFC), which is 
an increase of nearly 92 percent over FY 2010 levels. A large chunk of 
this funding would be applied to the second year construction of the 
National Ecological Observatory Network (NEON), which will collect data 
across the U.S. on the impacts of climate change, land use change, and 
invasive species. What assurances can you provide and what practices 
and safeguards will be put in place in NEON to ensure that scientific 
objectivity will not be compromised in favor of more agenda-driven 
research practices?

A14. NSF-supported fundamental science assures an objective science 
baseline upon which managers and public officials can make sound 
decisions that impact the health and welfare of this country, and from 
which the R&D enterprise can provide the innovations that drive U.S. 
industry and business.
    The NSF review processes both for MREFC project planning and 
oversight and basic merit review for individual science projects are 
highly structured with inherent safeguards. The MREFC process includes 
``Guidelines and Design Review Processes'' that define the practices, 
processes, and criteria for the design, construction, and operations of 
all NSF Large Facilities. The MREFC process evaluates the scope, 
scientific and technical requirements, cost, and schedule. Using expert 
panels, Directorate evaluation, and the Directors Review Board, the 
scientific conceptual design, project execution, management, and 
operations plans are evaluated. This includes approval by numerous 
external review panels (that include cost analysts and engineers), 
internal review, and approval by the National Science Board. NEON has 
been through all stages of these processes and has been certified at 
all levels as a scientifically-sound and well engineered construction 
project with carefully reviewed and certified cost and schedule.
    Scientific objectivity has been at the center of the NEON design 
and deployment at all stages of the project development. Infrastructure 
will be deployed to advance our understanding of the biosphere at 
regional to continental scales. The science requirements, the design 
and construction plans and processes, and maintenance and operations 
plans have been vetted by thousands of scientists and engineers.

Questions submitted by Representative Sandy Adams

STEM Education

Q15.  As mentioned in the hearing, within the Education and Human 
Resources Directorate, there is a Human Resource Development Division 
that up until the FY 12 budget request was intended to ``play a central 
role in increasing opportunities in STEM education for individuals from 
historically underserved populations--minorities, women, and persons 
with disabilities.'' The FY 12 budget request realigns the Division, 
reducing funding for and shifting several programs to another Division. 
Of the $160 million budget request for the Division ($20 million of 
which is for a new broadening participation program), only $1.6 million 
is available for ``increasing opportunities in STEM education'' for 
women and zero is available for ``increasing opportunities in STEM 
education'' for persons with disabilities. Can you please explain the 
rationale for this and why this Division has become more narrowly 
focused?

A15. The Division of Human Resource Development (HRD) within EHR is 
described in the following link: http://www.nsf.gov/ehr/hrd/abouUsp, 
HRD serves as a focal point for NSF's agency-wide commitment to 
enhancing the quality and excellence of science, technology, 
engineering, and mathematics (STEM) education and research through 
broadening participation by underrepresented groups and institutions, 
The Division's programs aim to increase the participation and 
advancement of underrepresented minorities and minority-serving 
institutions, women and girls, and persons with disabilities at every 
level of the science and engineering enterprise, Programs within HRD 
have a strong focus on partnerships and collaborations in order to 
maximize the preparation of a well-trained scientific and instructional 
workforce for the new millennium.
    There has been no change in the division's commitment to broadening 
participation for all groups traditionally underrepresented in STEM. 
All HRO programs, including the Louis Stokes for Minority Participation 
(LSAMP), the Historically Black Colleges and Universities Undergraduate 
Program (HBCU-UP), and the Tribal Colleges and Universities Program 
(TCUP) share the commitment to broadening participation for all, 
including women and persons with disabilities, In fact, a number of 
projects funded in these and other HRD programs have specific focus on 
issues facing women and persons with disabilities, The proposed 
administrative shift for the Research in Disabilities Education (ROE) 
and the Research on Gender in Science and Engineering (GSE) programs is 
to improve program management, leverage resources, and build coherence 
across all of EHR in the research domain, The two expert scientific 
staff who manage these programs will remain members of the HRD staff, 
and will continue to play key roles in ensuring that a full-scale view 
of broadening participation for all groups is central in all HRO 
investment areas and across EHR.

Broadening Participation

Q16.  Also, per our hearing exchange, including the Human Resource 
Development Division programs, would you please provide us with funding 
and programmatic details on all programs within the Foundation that are 
either specific to serving ``historically underserved populations--
minorities, women, and persons with disabilities'' or provide special 
considerations for these populations?

A16. NSF has taken a variety of approaches to broaden participation 
across its many programs. While broadening participation is included in 
the NSF review criteria, some program announcements and solicitations 
go beyond the standard criteria. They range from encouraging language 
to specific requirements. The following table represents the set of 
programs that have been historically tracked as Broadening 
Participation for budget purposes. These programs support broadening 
participation activities that serve historically underrepresented 
populations minorities, women, and persons with disabilities.
    For a complete listing of NSF's Broadening Participation portfolio 
please see the website http://www. nsf.gov/od/broadeninaparticipation/
bp--portfolio--dynamic.jsp.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Questions submitted by Representative Randy Hultgren

DUSEL

Q17.  During this time in which the energy frontier and some of our 
brightest minds have been shifting to Europe for the development, 
operation, and promise of science from the Large Hadron Collider, the 
U.S. must not cede our leadership in a future discovery frontier. A 
robust national program in elementary particle physics is a central 
component of both the NSF and DOE contributions to fundamental physics 
research and it is required for the U.S. to remain competitive on the 
international scale. Over the last decade, a series of reports outlined 
compelling questions in modern science that can be answered only in a 
deep underground environment. In response to this, the science 
community has overwhelmingly supported the construction and operation 
of a national underground laboratory. Research communities in physics, 
geosciences, engineering, biology, and other fields have further 
refined the questions and defined the critical experiments that would 
require access to scientific facilities deep underground. As planning 
continues for this project, early and formal continued participation by 
the NSF is critical.Recognizing the importance of this facility, the 
commitment of Fermilab in my district of Illinois, and the overwhelming 
support of the scientific community, how does the National Science 
Foundation, which supports research across science and engineering 
fields, intend to continue to be formally involved in the development 
of the Deep Underground Science and Engineering Laboratory (DUSEL) 
along with the Department of Energy?

A17. NSF will continue to consider grant proposals for future particle 
physics research and other fields, including underground experiments 
that might be conducted at Homestake, should DOE decide to support the 
core infrastructure there, or at other existing sites in the United 
States and around the world.

Q18.  In addition, in this time of budgetary constraints, it is more 
important than ever for the U.S. and NSF to be leveraging financial 
commitments made by other partners and demonstrating a sustainable 
development process to keep facilities costs down. Increasingly, the 
construction of these large facilities not only requires non-federal 
contributions but multi-agency collaboration within the federal 
government.I was discouraged to see that the NSF has proposed zero 
funding for DUSEL in FY 2012 after more than $250 million invested to 
date from federal, state, and private sources and hundreds of jobs 
already created.In the America COMPETES Act enacted in 2010, Congress 
recognized the need for NSF ``in its planning for construction and 
stewardship of large facilities, to coordinate and collaborate with 
other Federal agencies, including the Department of Energy's Office of 
Science, to ensure that joint investments may be made when 
practicable.'' What is the current status of negotiations and 
participation of NSF with the DOE in the 'future of the Long-Baseline 
Neutrino Experiment (LBNE) and the development of an underground 
laboratory?

A18. DOE has initiated a scientific assessment to determine the optimal 
location for the Long Baseline Neutrino Experiment (LBNE) far detector 
and the full suite of experiments in which their programs are highly 
engaged, namely dark matter and double beta-decay. This assessment, 
which will include Homestake and other possible sites, is expected to 
conclude in time to inform preparation of DOE's FY 2013 budget request.
    Pending a DOE decision on the location of the LBNE far detector, 
NSF and DOE are working together to preserve the viability of the 
Homestake site in FY 2011. NSF has agreed to provide $4.0 million 
during the remainder of FY 2011 to sustain pumping operations at the 
Homestake site. DOE has included $15.0 million in its FY 2012 budget 
request, presently before Congress, to extend pumping operations 
through FY 2012.

Q19.  Will NSF complete its funding of the 15 awards it has made to 
date to study initial experiments for early science which could be 
conducted in such a unique underground laboratory environment?

A19. Yes. The final allotment (third year) of funding for the 
Directorate for Mathematical and Physical Sciences, Physics Division 
(MPS/PHY) component of the DUSEL Solicitation 4 (S4) awards are 
included in the FY 2011 Budget Request. These nine continuing awards in 
MPS/PHY will be made and the S4 commitments completed. The Directorate 
for Geosciences intends to fund the final year of the seven DUSEL S4 
awards that were co-funded with the Directorate for Engineering and 
Directorate for Biological Sciences.

Q20.  The implications of the future research at DUSEL go far beyond 
the science discoveries themselves, as opportunities to attract 
students at all ages have been built into the plan, with the potential 
to redirect future scientists to the U.S. rather than our foreign 
competitors. Most importantly, the impact this facility will have can 
be seen from the impact it is already having. Summer scholarships, 
intern programs for students in science to conduct research at DOE's 
Fermi National Accelerator Laboratory in Batavia, Illinois, and a new 
Master's degree and doctoral degree program in physics within the South 
Dakota university system have all been developed as a result of the 
future DUSEL facility. Is NSF working with the relevant partners to 
identify ways to ensure that these activities and our nation's 
commitment to science education continue while the federal agencies are 
working on the appropriate stewardship model?

A20. NSF continues to be committed to workforce development in all 
fields of science and engineering.

Q21.  How is NSF prepared to work with the university community to 
ensure that the research needs will still be met with any proposed 
changes to the existing plans for DUSEL?

A21. The NSF Directorate for Mathematical and Physical Sciences, 
Physics Division (MPS/PHY) is prepared to work with the nuclear and 
particle physics university communities to pursue underground research 
through the normal grant and proposal peer-review process.


Questions submitted by Representative Daniel Lipinski

Research Infrastructure

Q22.  I'm greatly concerned that we are under-investing in research and 
teaching laboratories, instrumentation, and shared-use facilities. I am 
worried that not only will this make it difficult to compete for top 
talent with countries like China, but that it will lead to the 
inefficient use of limited research dollars. As a former Dean of 
Engineering, what is your impression of the state of our nation's 
academic research infrastructure? Is it limiting researchers or causing 
problems recruiting or retaining top talent? I realize this might not 
be such an issue at MIT, but I would like to know your perspective on 
the country as a whole.

A22. NSF's National Center for Science and Engineering Statistics 
(NCSES) collects data from academic institutions about the state of 
their science and engineering (S&E) research facilities space, 
Nationally representative data are not available specific to 
instrumentation, and shared-use facilities, There are no comparable 
international data on research infrastructure,
    In FY 2007, the most recent year for which data are available, 
there were 188 million net assignable square feet (NASF) of S&E 
research space at academic institutions. Institutions rated 17 percent 
of that space as requiring renovation and five percent of that space as 
requiring replacement The condition of the space varies by S&E field 
(see Table 5).
    The federal government is a relatively small source of the total 
funding used by academic institutions for repair and renovation or new 
construction of S&E research space. Academic institutions reported that 
the completion costs for repair, renovation, and new construction of 
S&E research facilities begun during FY 2006 and FY 2007 were $3.362 
billion and $5.924 billion, respectively. The federal government was 
the source of $134 million (4 percent) and $361 million (6 percent) of 
those funds, respectively.
    Since the mid-1990s, the federal government's share of funding for 
repair and renovation of academic S&E research space has fluctuated 
between four percent and ten percent, and the share of funding for new 
construction of academic S&E research space has fluctuated between four 
percent and nine percent
    In FY 2007, the estimated costs of deferred projects included in 
academic institutional plans to repair or renovate S&E research space 
was $5.154 billion; estimated costs of deferred projects included in 
academic institutional plans to construct new S&E research space was 
$10.423 billion. Consequently, in FY 2007 total estimated costs of 
deferred projects were $15.577 billion. In FY 2005, total estimated 
costs of deferred projects were $13.786 billion, In FY 2003, total 
estimated costs of deferred projects were $12.781 billion.
    Research infrastructure is essential to scientific discovery and a 
strong U.S. scientific and engineering enterprise. In today's 
environment, shared-use facilities which are accessed by the broader 
U.S. scientific and engineering research community are encouraged and 
supported by NSF. While access to high-quality, research infrastructure 
is one factor that influences individual researchers' employment 
decisions, and space and equipment packages routinely are part of new 
recruitment and retention negotiations, data on the impact of the 
current status of S&E research space on recruiting and retention are 
scarce. A variety of other factors are as likely to influence 
recruitment and retention decisions including--salary/compensation, 
career advancement, access to research funding, the opportunity to work 
with the best in a given field, and family considerations. The extent 
to which the adequacy of research infrastructure is the determining 
factor is not known and may be discipline dependent with some 
disciplines having greater research infrastructure requirements than 
others.
    Data Notes:

        <bullet>  Data are reported for academic institutions with $1.0 
        million or more in research and development (R&D) expenditures 
        (from all sources). The data are collected on the NCSES Survey 
        of Science and Engineering Research Facilities.

        <bullet>  Research space is space where research activities 
        occur. For example, it includes laboratories used for research, 
        shared-use facilities, and space used to house fixed equipment 
        or equipment costing $1.0 million or more that is used for 
        research. It does not include teaching laboratory space.

        <bullet>  Deferred projects are those that are (1) not funded 
        and (2) not yet scheduled to start in the next two years. They 
        do not include projects planned for developing new programs or 
        expanding current programs.

        <bullet>  Institutional plans usually will include goals, 
        strategies, and budgets for fulfilling the institution's 
        mission during a specific time period.

        <bullet>  According to the survey definitions, space requiring 
        renovation ``will no longer be suitable for current research 
        without undergoing major renovation within the next two 
        years.'' Space requiring replacement is defined as ``should 
        stop using space for current research within the next 2 
        years.''

        <bullet>  According to the survey definitions, space in 
        superior condition is ``suitable for the most scientifically 
        competitive research over the next two years.'' Space in 
        satisfactory condition is ``suitable for continued use over the 
        next two years for most levels of research . . . but may 
        require minor repairs or renovation.''

Q23.  In the Recovery Act, we spent about $200 million on 
infrastructure through the NSF's ARI-R2 program. Based on that program, 
do you have any insights into how much need there is out there, and 
whether this kind of investment can help address it?

A23. The FY 2007 Survey of Science and Engineering Research Facilities, 
the most recent year for which data are available, estimated that 
academic institutions had at least $5.15 billion in deferred projects 
to repair and renovate science and engineering research space and at 
least $10.42 billion in deferred projects to construct new science and 
engineering research space. Proposals totaling $1.02 billion were 
submitted to the ARI-R2 program. Indirect cost recoveries through 
federal grants may also be used by universities to offset costs 
incurred for maintenance, repair, and upkeep of buildings or equipment. 
Funding for academic research infrastructure also comes from other 
federal agencies, industry, state governments, and private endowments. 
In short, academic infrastructure needs are large and are best 
addressed through these multiple funding streams.

Questions submitted by Representative Ben Ray Lujan

Broadening Participation

Q24.  Dr. Suresh, thank you for your commitment to increasing minority 
and women participation in STEM fields of study. Thank you also for 
your request of $14.35 million for the Tribal Colleges and Universities 
Program that will enhance STEM programs in tribal colleges across the 
country. The America COMPETES Reauthorization Act requires NSF to 
support the Historically Black Colleges and Universities Undergraduate 
Program, the Tribal Colleges and Universities Program and Hispanic 
Serving Institutions programs as separate programs. The FY 2012 budget 
request funds HBCU-UP and TCUP separately; however, the budget request 
does not include a ``Hispanic Serving Institutions Program.'' As you 
noted in your written testimony, the National Science Foundation 
requested $20 million for a new program called Transforming Broadening 
Participation through STEM (TBPS). While it is clear that this program 
will be available to HSls, it seems that it might be available to other 
Minority Serving Institutions as well. Can you provide clarification on 
TBPS, and the NSF's plans to comply with the requirement in COMPETES 
that HSls are supported as a separate program?

A24. In FY 2008 and 2009, NSF initiated a series of listening sessions 
with the Hispanic-serving institution (HSI) community to understand the 
diverse needs and opportunities for broadening participation of 
Hispanic students in STEM fields. From those sessions, NSF learned that 
many of the challenges facing HSls in increasing participation are the 
same challenges faced by other minority-serving institutions, and that 
many of the strategies that have been most promising in engaging 
Hispanic students in STEM show promise for engaging all students. NSF 
continues to analyze, engage, and inform the higher education 
communities' direction and approach to workforce development and 
broadening participation in science, technology, engineering, and 
mathematics (STEM). NSF's ongoing study includes a thorough analysis of 
underrepresented group STEM enrollment and graduation over time in 
institutions of higher education in the United States.
    As a result of this work. NSF will develop strategies for 
strengthening STEM education at the undergraduate level in colleges and 
universities throughout the Nation. Data about the particular needs and 
contexts in the wide range of HSls across the Nation will be essential 
in this future planning. NSF will also address these opportunities 
through the proposed new Transforming Broadening Participation through 
STEM (TBPS) program included in the FY 2012 Budget Request. This new 
program will seek innovative solutions for broadening participation in 
STEM at the undergraduate level in anticipation of tomorrow's changing 
demographics including increased engagement with HSIs.
    NSF continues to engage in planning across agencies. including with 
the White House Initiative on Educational Excellence for Hispanics. to 
ensure that the multiple programmatic offerings across government that 
serve Hispanic-serving institutions are well coordinated, and that the 
NSF contribution is aligned with the unique role that the agency can 
best play.
                   Answers to Post-Hearing Questions
Responses by Dr. Ray Bowen, Chairman of the National Science Board

Question Submitted by Chairman Ralph Hall

Q1.   As you are well aware, the recently passed House Continuing 
Resolution reduces funding for the MREFC account significantly. Should 
that amount become law, please describe how NSF will distribute the 
funding across current projects.

A1. The NSB invests substantial efforts to oversee the Foundation's 
MREFC process. Projects are repeatedly assessed throughout the 
planning, construction, and operations stages. The Board embraces NSF's 
``no cost overrun'' policy, which requires that the project cost 
estimate include adequate contingency funds to cover all foreseeable 
risks, and that any cost increases not covered by contingency, be 
accommodated by scope reduction.
    The Board's Subcommittee on Facilities (SCF) is continually 
assessing and prioritizing the research infrastructure supported by the 
Foundation. Should the MREFC account face a dramatic reduction in 
funding, NSB through the SCF, the Committee on Program and Plans, and 
the Committee on Strategy and Budget, will work closely with NSF to 
reassess the MREFC priorities. This process is ongoing.

Questions Submitted by Representative Mo Brooks

Q2.  What role did the National Science Board play in establishing the 
priorities for the Foundation in the FY 12 Budget Request? How does the 
Board prioritize its funding decisions for the Foundation and what 
criteria does it use in making these recommendations?

A2. The Board participates in the development of the agency's budget 
priorities primarily through its Committee on Strategy and Budget, 
which engages with NSF senior leadership from the initial planning 
stage for the next budget through informal discussions, numerous 
teleconferences, formal presentations, and final approval of the 
submission to OMB. The prioritization process is very iterative; there 
is no set formula. Considerations include the potential for impact, the 
readiness of the community, and the ability of programs to leverage 
activities with other resources.
    In working with the agency on determining priorities, the Board 
takes into account concerns of the Administration, Congress, and the 
Nation's science and engineering community as a whole. In the end, the 
Board believes that this continual assessment and reassessment of 
research priorities brings the best budget forward for the Foundation 
and for the Nation.

Q3.  The Administration's Innovation Strategy details its efforts to 
strengthen our nation's competitiveness and long-run economic growth. 
What role does the Board play in measuring and evaluating the economic 
impacts of basic research funding? What methods does the Federal 
Government use to prioritize funding areas of basic research, both 
within an area of science and across areas of science?

A3. The Board has statutory responsibility for generating the biennial 
Science and Economic Indicators (SEI) report which provides 
quantitative data trends of research areas. The report also provides 
the quantitative data to assess the status of U.S. science and 
engineering relative to other nations. The data from SEI is an 
important resource for federal science and engineering policymakers, 
including the Board, for use in determining funding priorities.

Q4.  The NSF FY 12 Budget eliminates and reduces several programs 
across the Directorates, but does not go nearly far enough in my 
opinion. At the same time, several new programs are being created and 
many directed programs are receiving increases. I am concerned that 
while programs like the Graduate STEM Fellows in K-12 Education and the 
National STEM Distributed Learning Program are on your list because 
evaluations have shown that they are not necessarily proven programs, 
it seems that NSF is simply looking to shift those dollars (and more) 
into new, unproven programs. Can you explain the decision-making 
process for the terminations and reductions as well as the creation of 
the new programs? Is the scientific community driving these decisions 
or is the Administration?

A4. NSB regularly receives updates from the Foundation on the 
development of new programs. For education programs, NSB's Committee on 
Education and Human Resources works closely with NSF's Education 
directorate to ensure decisions are based on the latest research in 
learning and consistent with national recommendations on STEM 
education. When determining priorities for the Foundation, the Board 
takes into account a wide range of evaluations, ranging from concerns 
of the Administration and Congress to the Nation's science and 
engineering community as a whole. In the end, the Board believes that 
this continual assessment and reassessment of priorities brings the 
best budget forward for the Foundation and for the Nation.

Q5.  The word ``new'' appeared 34 times in Dr. Suresh's testimony and 
17 times in yours. Most of these references were to new programs or 
initiatives. In light of our current economic reality when the American 
people are begging us to change our spending habits and resources are 
precious, why is it necessary to begin new programs? Can you provide a 
better justification for the creation of these new programs mentioned 
in your testimony, especially those that seem to duplicate existing 
programs, such as Teacher Learning for the Future, and Transforming 
Broadening Participation through STEM?

A5. NSB strongly believes that to maintain our Nation's competitive 
edge, research must be nimble in its funding priorities as we 
continuously evaluate the nation's research portfolio. NSF and the 
Board continually evaluate and assess the agency's portfolio with input 
from the research community, Congress, and the Administration, to 
ensure that the taxpayers' investment yields maximal returns. This 
evaluation fosters innovation in both well-established and novel areas. 
The Board recognizes there are risks whenever a new program is created 
or a well-established program is terminated. It is for this reason that 
the agency engages in extensive deliberation-both internally and in 
consultation with the external research community, the Administration, 
and other Federal agencies-to ensure that any changes to NSF's 
portfolio are based on the best possible information.

Q6.  I understand and respect that, as you mentioned in hearing 
testimony, ``neglecting scientific research and education now will have 
serious consequences for the future of our country.'' However, Congress 
is faced with many difficult funding decisions in our current economic 
situation. Every Committee is hearing similar pleas from education to 
transportation and from energy to defense. Federal funding cuts are a 
likely reality over the next few years. How would you suggest we look 
at reigning in government expenditures across the board? How do we 
prioritize programmatic funding for the Foundation?

A6. With its oversight responsibilities for the Foundation, the Board 
engages thoroughly with NSF management on determining the agency's 
funding priorities. The budget request for Fiscal Year 2012 reflects 
this collaboration. The investments outlined in NSF's Budget Request 
support the areas of science and engineering research and education 
that NSF, with NSB support, has identified as the Foundation's 
priorities.
    The Board believes it is critical to examine programs under the 
lens of long-term success and benefits to our country and its citizens. 
Though it might be tempting to forego long-term investments in the face 
of current economic challenges, neglecting scientific research, 
engineering and education now, we believe, will have long-term negative 
consequences on our country's future. As noted in the Board's report 
``Globalization of Science and Engineering Research: A Companion to 
Science and Engineering Indicators 2010,'' other countries now actively 
seek to emulate our success by building their own innovation 
infrastructures, we must be ever vigilant to enhance our own innovative 
capacity.

Q7.  Scattered throughout the entire federal budget request are 
dramatic increases in spending on ``clean technologies.'' At the 
Department of Energy alone, there are enormous spending increases for 
clean tech through ARPA-E, EERE, the Office of Science, the Loan 
Guarantee Program, and Energy Innovation Hubs, to name just a few. 
Similar programs are proposed throughout the government, including 
NSF's ``Science, Engineering, and Education for Sustainability (SEES)'' 
portfolio intended to ``spark innovations for tomorrow's clean energy 
sources with a cross-disciplinary approach to sustainability science.'' 
The FY 12 budget request is $998 million for this effort. This is a 51 
percent increase over the FY I 0 amount and reflects 13 percent of the 
entire NSF budget. What role did the National Science Board play in 
determining these specific priorities for the Foundation?

A7. The Board participates in the development of the budget primarily 
through its Committee on Strategy and Budget, which engages with NSF 
senior leadership from the initial planning stage for the next budget 
through informal discussions, numerous teleconferences, and final 
approval of the submission to OMB. In working with the agency on 
determining priorities, the Board takes into account the priorities of 
the Administration and Congress. The Board also brings, through its 
members who are selected to represent the leadership of U.S. science 
and engineering, expertise concerning the needs and strengths of the 
Nation's science and engineering community as a whole.

Q8.  You identify NSF as the ``only federal agency dedicated to the 
support of basic research and education in all fields of science and 
engineering.'' Are the more applied areas of research identified in the 
America COMPETES Reauthorization Act, coupled with many Administration 
applied priorities for NSF in the FY 12 budget request diluting the 
funding for basic, fundamental research?

A8. NSB recognizes basic research as the underpinning of the scientific 
enterprise. But its benefits will be achieved only in connection with 
other parts of the nation's scientific and technological enterprise, 
including applied research, education, technology transfer and 
development, innovation, and manufacturing. As a non-mission agency, 
NSF's extensive activities in basic research complement investments in 
other areas essential to the health of the scientific enterprise, as 
recognized by the COMPETES reauthorization. The Board fully supports 
the FY 2012 budget request as meeting the needs to achieve the mission 
of the National Science Foundation.

Q9.  The Administration plans to invest $3.4 billion across the federal 
government for STEM education, including many new initiatives primarily 
at the Department of Education. While the Department of Education 
should certainly take a more active role in STEM, do you know what the 
rationale is for shifting this support from NSF to Education? How 
actively involved can NSF be in decisions being made at the Department 
of Education on STEM-related issues? What steps are being taken to 
ensure that these new activities are research-based and will have input 
from not only the education community but also the scientific 
community?

A9. The Board and NSF management will continue to work in collaboration 
to ensure the agency's activities are grounded in solid research 
results. For education activities, the Board's Committee on Education 
and Human Resources (CEH) provides input and guidance regarding the 
agency's efforts in STEM education research. The agency's directorate 
of Education and Human Resources has built a productive relationship 
with the Department of Education over the past several years, and 
reports on these interagency efforts regularly to CEH. In 2007, NSB's 
report ``A National Action Plan for Addressing the Critical Needs of 
the United States STEM Education System'' recommended the Office of 
Science and Technology Policy create a standing committee on STEM 
education within the National Science and Technology Council (NSTC). 
That recommendation has been implemented and will provide additional 
support for interagency education activities.

Q10.  Everyone touts the importance of America COMPETES and the America 
COMPETES Reauthorization Act, but rather than sticking to funding 
proven and established programs at NSF like Noyce Scholarships and the 
Math and Science Partnership (MSP), the FY 12 budget request reduces 
their funding by $20 million in order to create a new teacher 
development program. The Noyce program was expanded in the original 
COMPETES Act to include a new program called 10,000 Teachers, 10 
Million Minds. The FY 12 budget is now calling for a NEW 100,000 STEM 
teachers program with the same hoped for end result. Other than focus 
being at the Department of Education versus NSF, do you have any idea 
how this new program will be different? Is there a problem with the 
program currently in place at NSF?

A10. The Board believes that continual evolution of research and 
education programs is a positive element of the Foundation's programs. 
The continual assessment and reassessment of programs allows the agency 
to deliver high quality efforts in all of its activities.
    For your questions regarding the specific differences between the 
existing program and this new program and problems with the current NSF 
program, the Board defers to the National Science Foundation's answer 
on these matters.

Q11.  A few weeks ago, the new National Science and Technology Council 
STEM Education Committee convened. Please describe the role NSF will 
play in this Committee. Do you think it will be able to effectively 
identify duplicative and ineffective STEM programs across the federal 
government? And if so, how and what actions can be taken to save the 
American taxpayer from continuing to support these programs?

A11. In 2007 the NSB released A National Action Plan for Addressing the 
Critical Needs of the United States STEM Education System. In the 
report the board recommended the OSTP create a standing committee on 
STEM education within the National Science and Technology Council 
(NSTC). The first meeting of the new Science, Technology, Engineering 
and Math committee was held on March 4th. The committee includes 11 
federal agencies that play a role in STEM education and is co-chaired 
by Associate Director of Science Carl Wieman and NSF Director Subra 
Suresh.
    In the first meeting the group discussed how to create a detailed 
inventory of Stem Ed programs and a five year strategic plan for STEM 
education as require in the America COMPETES Act. Members also 
discussed how assessments can be used to ensure the quality and cost 
effectiveness of STEM programs. We are confident that the NSTC 
committee will develop an appropriate response to addressing issues of 
ineffective and duplicative Federal programs for STEM education.

Q12.  NSF is proposing to eliminate funding for the Research Initiation 
Grants to Broaden Participation in Biology program (RIG) because ``the 
number of proposals from underrepresented groups did not increase.'' Is 
this the same case for other broadening participation programs within 
the Foundation? What evidence do we have that these programs are 
achieving the desired results? Why do we need yet another new $20 
million ``Transforming Broadening Participation through STEM (TBPS) 
program? How involved is the Board in decisions such as this?

A12. Through its oversight capacity, the Board ensures that its policy 
guidance to the NSF is addressed. Broadening participation efforts for 
the STEM enterprise has been a continual emphasis for the Board as 
reflected in several of our reports. Ensuring that all citizens are 
represented in the STEM community strengthens the research community as 
a whole. With regard to decisions based on the performance of specific 
programs, the Board defers to the Foundation management.

Question Submitted by Representative Sandy Adams

Q13.  As mentioned in the hearing, within the Education and Human 
Resources Directorate, there is a Human Resource Development Division 
that up until the FY 12 budget request was intended to ``play a central 
role in increasing opportunities in STEM education for individuals from 
historically underserved populations -minorities, women, and persons 
with disabilities.'' The FY 12 budget request realigns the Division, 
reducing funding for and shifting several programs to another Division. 
Of the $160 million budget request for the Division ($20 million of 
which is for a new broadening participation program), only $1.6 million 
is available for ``increasing opportunities in STEM education'' for 
women and zero is available for ``increasing opportunities in STEM 
education'' for persons with disabilities. What role does the National 
Science Board play in decisions like this or other decisions that alter 
the focus or scope of a particular program, Division or Directorate?

A13. Through its oversight capacity, the Board ensures that its policy 
guidance to the Foundation is addressed, including a strong focus on 
broadening participation in science and engineering by underrepresented 
groups, including women, specific ethnic groups, and persons with 
disabilities. The Board ensures that NSF sets priorities, makes hard 
programmatic budget decisions and, as a result, obtains the greatest 
benefit from the funds provided to implement the NSF mission in this 
area.

Question Submitted by Representative Randy Hultgren

Q14.  Given the size and commitment increasingly required for cutting-
edge science to be successful and the complexity of the federal 
planning, review, and approval processes, the U.S. must be able to 
demonstrate its ability to construct large scale science facilities 
which will define the future of specific fields. Moreover, our nation's 
ability to deliver on these facilities portends important implications 
for multi-lateral international scientific collaborations on projects 
such as DUSEL and future projects around the globe.In December, the 
National Science Board made a decision to not provide any additional 
funding for DUSEL beyond the Preliminary Design Review, and despite 
support from the National Science Foundation and commitments made to 
the project and this Congress.How will the NSB work with NSF, DOE, and 
Congress, to ensure that predictable steady forward movement continues 
avoiding preventable increases in long term expenses and significant 
setbacks to the scope of the scientific discoveries and to the future 
of large interagency collaborations?

A14. The NSB is committed to fostering the Nation's leadership in 
science, engineering, mathematics and education. The Board recognizes 
the potential for significant and fundamental discoveries in physics 
that could result from experiments conducted in a deep underground 
research laboratory. The NSB will continue to work with the Director of 
NSF as NSF, the Department of Energy and the White House explore 
options for advancing deep underground science.
                   Answers to Post-Hearing Questions
Responses by Dr. Patrick Gallagher, Under Secretary of Commerce for 
        Standards and Technology and Director, National Institute of 
        Standards and Technology

Questions Submitted by Chairman Ralph Hall

Q1.  How do NIST's extramural programs--the Manufacturing Extension 
Partnership (MEP), the Technology Innovation Program (TIP), the 
Baldrige Performance Excellence Program (BPEP), and the proposed 
Advanced Manufacturing Technology Consortia Program (AMTech)--support 
NIST's underlying mission? I have always supported the MEP program and 
know what a difference it has made to Texas, so that is the easiest of 
the three programs for me to justify funding in these difficult fiscal 
times. But for the record, why should the federal government provide 
these services, which directly support for-profit entities? What if, if 
any, duplication exists among these programs?

A1. NIST's core mission is to promote U.S. innovation and industrial 
competitiveness by advancing measurement science, standards, and 
technology in ways that enhance economic security and improve our 
quality of life. NIST extramural programs and the proposed AMTech 
program are vital to NIST's technology mission and critical to 
strengthening U.S. innovation and industrial competitiveness. Each 
program addresses unique critical needs and gaps spanning the entire 
innovation and technology development cycle. From incentivizing and 
supporting long-term industry-led directed basic research to 
accelerating technology deployment and adoption by America's 
manufacturers, the NIST extramural programs along with the NIST 
laboratories, provide a critical infrastructure that supports the type 
of high-tech innovation, development, and manufacturing that is 
critical for our nation's long-term sustainable economic growth and job 
creation.

        <bullet>  AMTech will collapse the timescale of technological 
        innovation by including partners that span the innovation 
        lifecycle from idea to discovery, from invention to 
        commercialization. Through cost-sharing and a common research 
        agenda, these consortia would support the development of 
        innovative new technologies directed at creating high-wage jobs 
        and economic growth across the industry sector. These consortia 
        will develop road-maps of critical long-term industrial 
        research needs and provide support for research and equipment 
        at leading universities and government laboratories directed at 
        meeting these needs. This approach deepens industrial 
        involvement in determining how to best leverage government 
        resources to promote technological innovation.

        <bullet>  TIP funds small companies and consortia of small 
        companies and universities to support high-risk 
        transformational Research and Development. The cost-share 
        provisions of TIP enable TIP to leverage significant non-
        federal investment for high-risk, cutting edge technologies, 
        and serves as an important source of funding when no other 
        sources are reasonably available.

        <bullet>  MEP helps small and medium-manufacturers strengthen 
        their competitive positions by accelerating the adoption of 
        technological innovations, facilitating the adoption of 
        environmentally sustainable business practices, promoting 
        renewable energy initiatives, fostering market diversification, 
        and connecting domestic suppliers to manufacturers to assist 
        manufacturers in successfully competing over the long term in 
        today's complex global manufacturing environment.

        <bullet>  The Baldrige Performance Excellence Program improves 
        the performance of U.S. organizations by: raising awareness 
        about the importance of performance excellence to economic 
        competitiveness, providing organizational assessment tools and 
        criteria, educating leaders about the practices of best-in-
        class organizations, and recognizing national role models and 
        honoring them with the only Presidential Award for performance 
        excellence.

Q2.  The Technology Innovation Program (TIP), created in 2007 by the 
original America COMPETES Act, updated the Advanced Technology Program 
(ATP) by changing the program and adding some very challenging new 
goals. The TIP is directed to provide grants for cutting edge research 
that meets critical national needs, in areas in which no one else is 
working. That means the TIP-funded work must be very narrow and in 
extremely challenging areas. How many awards were distributed since the 
program has started? How can a program, funded currently at about $70 
million, achieve those goals? In your testimony you mentioned NIST will 
make at least one award in the next year; at that rate, how successful 
can this program be?

A2. The Technology Innovation Program addresses challenges that justify 
government attention in areas of critical national need by supporting 
innovative high-risk, high-reward research. The program supports small 
and medium-sized businesses, institutions of higher education, national 
labs, nonprofit research institutions and other organizations, where 
government attention is justified because the magnitude of the problem 
is large and no other sources of funding are reasonably available.
    Since its authorization, the program has awarded 38 grants during 
the period FY 2008-2010, representing a TIP investment of approximately 
$-136 million, for a total investment of about $ 280 million in new 
high-risk, high-reward research:

        <bullet>  In 2008, $-42.5 million from TIP funds supported nine 
        projects in advanced sensor technologies for civil 
        infrastructure such as roads, bridges, and water systems, for a 
        total of $ 88.2 million in new research (TIP + awardee cost 
        share).

        <bullet>  In 2009, TIP funded twenty projects at $-71 M, for a 
        total potential new research investment of $-145.6 M, to 
        address critical national needs in manufacturing and civil 
        infrastructure.

        <bullet>  In 2010, TIP provided more than $-22.2 million for 
        nine projects for advanced manufacturing research in 
        electronics, biotechnology and nanotechnology, for a total of 
        $45.9 million in new research.

    Off the 38 awardees, 35 are either small-business, single company 
projects, or include a small business as a member of the research joint 
venture.
    The cost-share provisions of TIP enable TIP to leverage significant 
non-federal investment for high-risk, cutting edge technologies. Thus, 
a relatively small investment for TIP can still have a significant 
impact. Despite being a young program, results from the R&D are already 
being shared and tested, which is indicative of the impact of the 
program. Technologies in civil infrastructure have been tested in state 
highway facilities and several of the projects have agreements with 
state transportation authorities (e.g. California, Michigan, and 
Massachusetts) to serve as test beds for this next generation of 
technologies. The scientific findings from these projects are also 
being actively shared within the scientific community, enabling these 
efforts to benefit R&D in areas beyond the organizations partnering 
with TIP. In March 2011, organizations working with TIP in the 17 civil 
infrastructure projects presented 47 research papers at a smart 
structures conference hosted by SPIE, the international society for 
optics and photonics. This interaction across scientific disciplines 
allows TIP participants to share important R&D findings that can 
subsequently be used by other researchers. These early research results 
and strong partnering relationships suggest the research currently 
underway has laid the foundation for transforming today's research into 
tomorrow's solutions.
    With regard to 2012, NIST expects to hold a funding competition in 
one or more of the following research areas: advanced robotics and 
intelligent automation, health care, water, civil infrastructure 
technologies, and manufacturing. Proposals received in response to the 
open competition will be subject to peer review, and multiple awards 
will be made based on the results of the competition.

Q3.  You have discussed that the decrease in funding for the Baldrige 
Performance Excellence Program (BPEP) reflects the Administration's 
goal of transitioning the program out of federal funding. Could you 
please describe the purposes of the program, and why thy government has 
identified this as an area for which NIST should examine additional 
private sector means of support?

A3. Purpose of the program: The Baldrige Performance Excellence Program 
exists to improve the competitiveness and performance of all U.S. 
organizations. It does this in three ways: by (i) defining performance 
excellence, with the highly-regarded and adopted Criteria for 
Performance Excellence--which reflect the leading edge of validated 
management practice and have resulted in 2.5 million page views in 2010 
alone; (ii) recognizing performance excellence, with an annual 
Presidential Award for national role model organizations that 
successfully implement the Criteria to achieve world class operations 
and results; and, (iii) performance excellence education and promotion 
(for example, the recent Quest for Excellence conference in Washington, 
DC. at which almost 900 attendees learned best performance management 
practices from current and former Baldrige winning organizations from 
all sectors of the U.S. economy).
    Examining private sector support: The Baldrige Program already 
enjoys a public-private partnership with the Baldrige Foundation and 
through in-kind contributions from Award winning organizations, as well 
as the very substantial volunteer efforts of the Board of Overseers, 
Panel of Judges, and Board of Examiners. More than 35 states operate 
Baldrige-based programs to assist industry across the United States on 
a local level with using the Baldrige Criteria and process to improve 
their operations. Around 2,270 State Baldrige-based examiners 
volunteered an estimated $29.5 million in services to evaluate 1,350 
organizations at the state level in 2010. In 2010, 578 dedicated 
professionals volunteered as national Baldrige examiners and 
contributed roughly $8.8 million in services; the Baldrige public-
private partnership enables this volunteer network. Given the Program's 
22-year history of leveraging partners in industry and the states, the 
Administration believes this program could be best sustained as a 
private sector led and funded activity.

Questions Submitted by Representative Eddie Bernice Johnson

Q1.  As you mention in your testimony, the budget request includes 
funding to continue NIST's work to accelerate the development of 
standards for electric health records and health information 
technology. At the same time, the Office of the National Coordinator 
for Health IT (ONC) at the Department of Health and Human Services is 
continuing its work under the American Recovery and Reinvestment Act to 
identify and adopt standards, specifications, and certification 
criteria for health information technology. To what extent are NIST and 
ONC collaborating on health IT standards to ensure that each agency's 
efforts are coordinated and not duplicative, and that NIST's expertise 
in information technology standards is being fully utilized?

A1. Since 2004, NIST has worked closely with the Department of Health 
and Human Services' Office of the National Coordinator for Health 
Information Technology (HHS/ONC). Central to this close collaboration 
and ongoing dialogue is ensuring that Health IT initiatives and 
outcomes are complimentary and in line with Federal mandates. For 
example, in response to the Health Information Technology for Economic 
and Clinical Health Act (HITECH) Act, NIST is responsible for pilot 
testing of standards and implementation specifications and coordinates 
closely with ONC to assure the efficient implementation and use of such 
standards. Leveraging NIST expertise is also central to our close 
collaboration. For instance, NIST, with a proven track record and 
expertise in the establishment of conformance testing programs, is 
responsible for establishment of a conformance testing infrastructure 
and technical test beds for Health IT products--critical to ensuring 
the interoperability of electronic health records.
    HHS/ONC is responsible for facilitating the development of 
standards and implementation specifications that will ensure 
interoperability of electronic health records. As part of the strategy, 
HHS/ONC will be identifying product neutral test conditions to verify 
conformance of health IT products. NIST is collaborating with HHS/ONC 
to implement the test conditions in technical test bed infrastructure 
that can be used to test products. NIST's experience in the 
establishment of pilot test infrastructure will be central to HHS/ONC 
development and implementation of the certification and testing program 
for all health IT products and will ensure the interoperability of 
electronic health systems.

Q2.  A significant amount of attention has been paid in recent years to 
the need to improve the quality of health care and reduce health care 
costs in this country. One way to do this is to strengthen our ability 
to detect and treat diseases or other medical conditions quickly, 
cheaply, and effectively. Many have argued that NIST has a critically 
important foundational role to play in this area.

        <bullet>  Aside from NIST's important work in the area of 
        health information technology, how is NIST's role in health 
        care-related research reflected in the FY 2012 budget?

A2. Health care-related measurement technologies and standards are an 
important focus of NIST resources across a range of specific 
application areas.

        <bullet>  In the FY 2012 budget, a new initiative, 
        ``Measurement Science and Standards to Support 
        Biomanufacturing,'' (+ $9.5 million) is intended to support the 
        creation of agile processes required for next generation 
        biotechnology medicines. NIST will work with the FDA and 
        industry to develop innovative solutions to existing technical 
        issues and help achieve consensus in standards development 
        related to biomanufacturing.

        <bullet>  Funds allocated to NIST laboratories in the FY 2012 
        budget will support ongoing efforts in health care-related 
        areas of medical imaging and clinical diagnostics, including:

          <bullet>  The optical medical imaging program at NIST, whose 
        goal is to develop standards and measurement quality assurance 
        to improve surgical and clinical lighting.

          <bullet>  New bioimaging methods and materials to improve the 
        characterization of cells and tissues, leading to more 
        efficient and accurate clinical diagnoses of cancer and other 
        diseases, helping to advance personalized medicine.

          <bullet>  Body Area Network technology tools that analyze and 
        help mitigate potential interference from wireless medical 
        devices, such as wearable or implantable medical sensors that 
        continuously monitor blood pressure or deliver insulin to a 
        diabetic.

Q3.  How does NIST decide where it is going to make specific health 
care-related investments? Are those decisions driven by any sort of 
overarching strategic plan on the research that is needed in this area, 
or are NIST's investments merely responsive to the immediate needs of 
other Federal agencies?

A3. Activities in health care-related measurement and standards 
development support the NIST mission to strengthen U.S. innovation and 
industrial competitiveness, and must be grounded in the needs of the 
industrial community as well as other Federal agencies. Accurate and 
comparable measurement science and standards will underpin quality 
health care.

        <bullet>  Following on a NIST workshop with the broad 
        bioscience community, in July 2009 NIST produced ``Measurement 
        Challenges to Innovation in the Biosciences: Critical Roles for 
        NIST,'' which outlines high level application areas and 
        priority measurement needs that should be addressed by NIST to 
        realize the potential economic and societal benefits of 
        advances in health care.

        <bullet>  In light of the reorganization this past October, 
        NIST continues to refine its bioscience portfolio. Continuous 
        efforts to engage with the health care community (e.g., 
        businesses, other Federal agencies, and advocacy groups) via 
        partnerships and workshops help NIST to identify and 
        authenticate un-met measurement needs to inform the NIST 
        strategy in this area.

        <bullet>  Interactions with other Federal agencies are 
        important to leverage NIST's capabilities in order to address 
        national needs. For example, meetings with representatives from 
        the Food and Drug Administration's Critical Path Initiative 
        identify research and development opportunities for NIST to 
        contribute to efforts to transform the development, evaluation, 
        and manufacture of FDA-regulated products. Similarly, 
        collaborations between NIST laboratories and the National 
        Cancer Institute (National Institutes of Health) facilitate 
        targeted measurement science in the area of cancer research.

Questions Submitted by Representative Ben Quayle

Q1.  The Department of Commerce intends to codify a National Program 
Office for NSTIC headed by NIST, and the FY 12 request includes $25 
million to fund the establishment of the office and a new grant program 
related to this work. What will this office do, and why is it at NIST? 
Who will be eligible to receive the pilot grants, what is the purpose 
behind them, and how large will the awards be? How has industry been 
involved in the National Strategy? Would it be more appropriate for the 
private sector to figure out the solutions to these problems without 
the government being involved?
 What will this office do, and why is it at NIST?

A1. The National Program Office (NPO) for the National Strategy for 
Trusted Identities in Cyberspace (NSTIC) will be responsible for 
coordinating the processes and activities of organizations that will 
implement the Strategy. NIST--with its long history of working 
collaboratively with the private sector to develop standards and best 
practices for cybersecurity and identity management--is uniquely suited 
to work with the private sector to bring the collective expertise of 
the nation to bear in implementing the Strategy. The NPO will formally 
coordinate the work NIST has been doing for several years in our 
existing cybersecurity and identity management programs and ensure that 
the portions of this work relevant to NSTIC are properly aligned. The 
NPO will lead the day-to-day coordination of NSTIC activities, working 
closely with the Cybersecurity Coordinator in the White House. The 
National Program Office will:

        <bullet>  Promote private-sector involvement and engagement;

        <bullet>  Support interagency collaboration and coordinate 
        interagency efforts associated with achieving programmatic 
        goals;

        <bullet>  Build consensus on policy frameworks necessary to 
        achieve the vision;

        <bullet>  Identify areas for the government to lead by example 
        in developing and supporting the Identity Ecosystem, 
        particularly in the Executive Branch's role as a provider and 
        validator of key credentials;

        <bullet>  Actively participate within and across relevant 
        public--and private-sector forums; and

        <bullet>  Assess progress against the goals, objectives, and 
        milestones of the Strategy and the associated implementation 
        activities.

 Who will be eligible to receive the pilot grants, what is the purpose 
behind them, and how large will the awards be?

Identification of pilot awardees will use well-established Federal 
Government outreach processes to include requests for information and 
proposals. Criteria for pilots will be based on the Strategy's four 
guiding principles--that identity solutions should be (1) privacy-
enhancing and voluntary, (2) secure and resilient, (3) interoperable, 
and (4) cost-effective and easy to use. Proposals will be evaluated 
competitively before making awards. Pilots are necessary for most new 
technical solutions and can help test feasibility of different 
architectures, policies, use cases, and technologies. They are key to 
identifying and overcoming technical or policy barriers to adoption. 
And they can bring different sectors together to demonstrate key NSTIC 
concepts and refine the model. The value of the individual awards will 
vary depending on the pilot criteria and current expectations include 
at least three pilots in FY 12.

 How has industry been involved in the National Strategy?

Many stakeholders provided input as the draft Strategy was refined, 
particularly after an early draft of NSTIC was publicly released in 
June 2010. Organizations representing 18 different business and 
infrastructure sectors and 70 different nonprofit and federal advisory 
groups were consulted in developing the Strategy.

 Would it be more appropriate for the private sector to figure out the 
solutions to these problems without the government being involved?

One reason leading private sector groups like TechAmerica and the U.S. 
Chamber of Commerce have supported NSTIC is a recognition that the 
government has an important role to play. The private sector has been 
working for years on solutions to identity and security challenges, but 
by its own admission has struggled with finding consensus on issues 
such as standards for interoperability and privacy. A joint letter sent 
February 17, 2011 from TechAmerica, the Information Technology Industry 
Council and the Business Software Alliance advocated: "We need a 
partner in government to help us move trusted identities into the 21st 
century. We need the government's involvement to: examine and align 
governments activities with industry; build consensus on the legal and 
policy frameworks to enhance privacy, free expression, and open 
markets; work with industry to identify new standards; support and 
coordinate interagency collaboration as well as international 
collaboration; and promote pilot projects and other implementations.''

Q2.  What is the status of development for standards for 
interoperability in Health Information Technology? When will the job be 
``completed''?

A2. Much work has been done to date by NIST and others in developing 
interoperability standards for Health Information Technology, and NIST 
will continue to work with Standards Development Organizations and 
industry stakeholders, both directly and in collaboration with of the 
Department of Health and Human Services' Office of the National 
Coordinator for Health Information Technology (HHS/ONC). The HHS/ONC 
has requested that NIST develop a laboratory accreditation program 
(LAP) for organizations to be accredited to test health information 
technology (HIT) for purposes of the permanent certification program. 
Based on NIST's technical expertise and the strong relationship formed 
between the ONC and NIST during the successful implementation of a 
temporary certification program, the use of the National Voluntary 
Laboratory Accreditation Program (NVLAP) is expected to enhance testing 
under the permanent certification program.

Questions Submitted by Representative Randy Neugebauer

Q1.  Dr. Gallagher, what type of opportunities does NIST provide to 
leverage resources in coordination with educational institutions for 
activities such as cooperative research opportunities and partnerships?

A1. NIST provides various opportunities to leverage resources in 
coordination with educational institutions, including the following:

        <bullet>  NIST has numerous strong partnerships with 
        educational institutions of mutual benefit, and these programs 
        encourage student interest and participation in Science, 
        Technology, Engineering, and Mathematics (STEM) programs. 
        Through a variety of programs, we bring high-school students 
        through post-doctoral fellows, and middle school teachers to 
        our campuses for unique programs that have a direct impact on 
        STEM education. We also support faculty researchers and 
        students through a variety of competitive grants programs. 
        Programs include:

        <bullet>  NIST's Postdoctoral Program supports a nationwide 
        competitive postdoctoral program administered in cooperation 
        with the National Academy of Sciences/National Research 
        Council,

          <bullet>  NSF-funded Summer Undergraduate Research 
        Fellowships,

          <bullet>  The NIST Summer Institute for Middle School Science 
        Teachers,

          <bullet>  The NIST Research Experience for Teachers Program, 
        and

          <bullet>  The NIST Measurement, Science, and Engineering 
        Grant Program.

        <bullet>  NIST operates research organizations in four 
        locations, in conjunction with leading academic institutions to 
        promote cross-disciplinary collaborations that accelerate 
        research results:

          <bullet>  JILA, a world class physics research institute 
        operated jointly with the University of Colorado, Boulder,

          <bullet>  The Institute for Bioscience and Biotechnology 
        Research, a partnership with the University of Maryland 
        Biotechnology Institute,

          <bullet>  The Joint Quantum Institute for advancing quantum 
        physics research, operated jointly with the University of 
        Maryland, and

          <bullet>  The Hollings Marine Laboratory, in Charleston, SC, 
        a national center for coastal ocean science, in which NIST is 
        one of five federal, state, and university partners.

        <bullet>  NIST hosts about 2,600 associates and facility users 
        who work with about 2,900 NIST staff members at two main 
        campuses in Gaithersburg, Md., and Boulder, Colo. Most of these 
        associates are affiliated with universities.

        <bullet>  Advanced Manufacturing Technology Consortia (AMTech), 
        a new public-private partnership, will develop roadmaps of 
        critical long-term industrial research needs as well as fund 
        facilities, equipment, and research at leading universities and 
        government laboratories.

        <bullet>  The Baldrige Performance Excellence Program has been 
        expanded to include educational institutions.

        <bullet>  NIST has also facilitated the development of unique 
        research facilities in educational institutions throughout the 
        country with support from the NIST Construction Grants Program, 
        and American Recovery and Re-investment Act (ARRA) funds. 
        Examples include a state-of-the-art research facility for 
        fundamental and applied physics at Rice University partially 
        funded by $11.1 million in ARRA grant money, and $9.5 million 
        for the Center of Excellence in Nano Mechanical Science and 
        Engineering at the University of Michigan, Ann Arbor, which 
        will facilitate research at the intersection of mechanical 
        engineering and nanometer-scale science and technology.

Q2.  Your budget request includes a proposal to allocate $500 million 
to NIST from an estimated $27 billion in revenues from the FCC's 
proposed spectrum auctions. These funds, under your proposal, would be 
used for the operation of the Public Safety Innovation Fund. How would 
this program operate if the assumptions about funding levels from the 
proposed spectrum auctions do not come to fruition?

A2. The advent of broadband technologies and the Administration's 
proposal to allocate an additional 10 MHz to public safety create a new 
opportunity to build from the ground up a robust, reliable, secure and 
scalable communications network for addressing public safety needs. The 
Administration has proposed $ 100 million annually through fiscal year 
2016 for NIST to partner with industry and public safety organizations 
on research, development, and demonstration activities aimed at new 
standards, technologies, and applications to advance public-safety 
communications.
    If no funding is available for this activity, NIST will continue to 
research and test broadband public safety communications systems and 
participate in the standards process, though at a much reduced level. 
NIST's 700MHz Demonstration Network project is the only network in the 
country that is testing how equipment operates in the public safety 
700MHz band in a vendor-neutral environment. If funding is limited or 
unavailable, many of the project's goals and planned deliverables will 
take much more time and may not come to fruition, including the 
delivery of objective technology evaluations; test reports that public 
safety can use in development of requests for proposals; technical 
recommendations to standards development organizations; recommendations 
that public safety organizations can use to create public safety Long 
Term Evolution (LTE) profiles; and technical information delivered to 
the Federal Communications Commission (FCC) to inform policy 
development.

Questions Submitted by Representative David Wu

Q1.  With respect to earthquake resiliency, how do building codes and 
construction practices in the United States compare to building codes 
and construction practices in Japan? How do they compare to those in 
Chile?

A1. The recent earthquake damage in Japan was limited, partly because 
the epicenter was almost 100 km (60 miles) from shore, but mostly due 
to the building codes that Japan has in force. Japanese building codes 
are more stringent than those in the United States. They call for 
building designs that are stronger and consequently more expensive. 
Note that the majority of the damage in Japan was caused by the 
tsunami.

        <bullet>  An example of a different building code is that Japan 
        has gone further than the United States in outfitting new 
        buildings with advanced devices called base isolation pads and 
        energy dissipation units to dampen the effect of the ground's 
        shaking during an earthquake. These units, built into the 
        internal structural skeleton of the buildings, comprise of 
        hydraulic cylinders that contract and elongate when the 
        building sways, absorbing the energy of the motion. Buildings 
        built to these codes were able to withstand the tremors from 
        the Japan earthquake without collapsing.

    The Chilean building code has adopted by reference key aspects of 
U.S. model building codes (with some Chilean exceptions). Examples of 
differences include:

        <bullet>  U.S., but not Chilean, codes contain special 
        provisions that are triggered by building irregularities in 
        plan or elevation views. There are numerous damaged buildings 
        in Chile having significant irregularities (such as narrowing 
        of walls near the base of the building) attributable to the 
        lack of these special provisions.

        <bullet>  Some Chilean detailing practices (e.g., numerous thin 
        and relatively lightly reinforced structural walls) differ from 
        U.S. practice. Some of the buildings that appear to have been 
        designed and detailed to the Chilean code provisions did not 
        perform as expected, and were extensively damaged.

    The major Chilean earthquake in 2011 has provided a valuable 
opportunity to evaluate the performance of structures built in a manner 
similar to those in the United States. Under the National Earthquake 
Hazard Reduction Program (NEHRP), agencies are working to document 
findings and translate them into lessons for the United States.

Questions Submitted by Representative Donna Edwards

Q1.  The budget request for FY 2012 includes funding for NIST to 
continue its work on smart grid standards, as mandated by the Energy 
Independence and Security Act of 2007. Can you give us a brief update 
on where we are on smart grid standards and what additional work NIST 
is expecting to carry out in FY 2012?

A1. NIST has made a significant progress in its role to coordinate the 
development of Smart Grid interoperability standards. Noteworthy 
milestones include:

        <bullet>  Identified initial set of Smart Grid standards for 
        consideration by the Federal Energy Regulatory Commission 
        (FERC) - October 2010

         NIST identified five foundational families of international 
        standards as ready for consideration by FERC. These standards, 
        developed by the International Electrotechnical Commission 
        (IEC), are essential to uniform and interoperable 
        communications systems throughout the grid and will accommodate 
        the evolution of the grid and integration of new technologies.

        <bullet>  Published Guidelines for Smart Grid Cyber Security9 
        September 2010

         This three-volume set of guidelines, prepared by the 450-
        member Cyber Security Working Group (CSWG), provide the 
        technical background and details that inform organizations' 
        efforts to securely implement Smart Grid technologies.

        <bullet>  Established Smart Grid Federal Advisory Committee 
        (SGFAC)- September 2010

         The Committee provides input to NIST on the Smart Grid 
        standards, priorities and gaps, and on the overall direction, 
        status and health of the Smart Grid implementation by the Smart 
        Grid industry including identification of issues and needs. 
        Input to NIST will be used to help guide Smart Grid 
        Interoperability Panel activities and also assist NIST in 
        directing research and standards activities.

        <bullet>  Published first release of the NIST Framework and 
        Roadmap for Smart Grid Interoperability (SGIP)9 January 2010

         NIST released an initial list of 75 interoperability standards 
        with applicability to the Smart Grid, a preliminary cyber 
        security strategy, a Smart Grid conceptual reference model, and 
        priority action plans that address areas where there are 
        critical gaps in Smart Grid standards.

        <bullet>  Launched Smart Grid Interoperability Panel (SGIP)9 
        November 2009

         NIST established the SGIP as a public-private partnership to 
        provide technical support to NIST as it coordinates the 
        development of interoperability standards. The SGIP currently 
        includes over 600 member organizations and 1700 participants 
        from 23 Smart Grid-related stakeholder groups.
         In FY 2012, NIST plans to publish an update to the NIST 
        Framework and Roadmap for Smart Grid Interoperability, continue 
        support of the Smart Grid Interoperability Panel, develop a 
        testing and certification framework for Smart Grid systems and 
        devices, and build the necessary measurement science to support 
        the development of new Smart Grid technologies.

Q2.  It is our understanding that the funding levels proposed for NIST 
in the Fiscal Year 2011 Continuing Resolution that recently passed 
House would mean that NIST would be unable to continue the contract for 
the Smart Grid Interoperability Panel, which would severely degrade and 
perhaps even halt altogether NIST's smart grid standards work. Is that 
true? What would that proposed CR mean for NIST's smart grid standards 
effort?

A2. The Smart Grid Interoperability Panel, established by NIST in 2009, 
is a public-private partnership made up of over 600 member 
organizations that supports NIST in its role to coordinate the 
development of Smart Grid interoperability standards. The current $5 
million contract for the Smart Grid Interoperability Panel (SGIP), 
which was initiated with funds from the American Recovery and 
Reinvestment Act of 2009, ends this August, and a Request for Proposals 
for a new contract must be issued by April to prevent the suspension of 
SGIP activities. NIST is looking at funding options to ensure some 
level of SGIP support in order to prevent having to suspend the SGIP's 
technical functions.
                              Appendix II:

                              ----------                              


                      Additional Member Statements


<SKIP PAGES = 000>

        Submitted Statement of Representative Jerry F. Costello
    Mr. Chairman, thank you for holding today's hearing on the National 
Science Foundation's (NSF's) and the National Institutes of Standards 
and Technology's (NIST's) budget requests for Fiscal Year 2012 (FY12).
    First, NSF requests $7.7 billion in FY 12, a 13 percent increase in 
funding. This funding level steps back from the administration's 
commitment to double funding for NSF within ten years. It is my hope 
that as our economy continues to recover, the administration will 
recognize the importance of making up these losses in future budgets. 
NSF plays a critical role in funding basic science research at labs and 
universities around the country, and I have seen its benefits first-
hand in my district. In the last five years, NSF has provided $19.5 
million in research funding to Southern Illinois University Carbondale 
in my district and $3.7 million to Southern Illinois University just 
outside my district.
    As a member of the Congressional Manufacturing Caucus, I strongly 
support NSF's investment of $190 million for Advanced Manufacturing 
Research. This research will ensure we remain the most innovative, 
efficient, and skilled manufacturing sector in the world and that our 
facilities use the most advanced technology.
    In addition, I am pleased the President's overall budget makes a 
strong commitment to improving Science, Technology, Engineering and 
Mathematics (STEM) Education funding across the federal government. The 
FY 12 budget requests $3.4 billion, including $100 million to recruit 
10,000 new STEM teachers this year and 100,000 teachers over the next 
ten years. While this expansion will encourage more students to enter 
STEM and become educators, the budget shifts STEM funding away from NSF 
and to the U.S. Department of Education. These two agencies should work 
together to ensure we invest in the most productive, efficient STEM 
programs.
    Second, NIST requests $1 billion in FY 12, a 16.9 percent increase 
above the FY 10 funding levels. In particular the budget makes two key 
investments to improve manufacturing in the U.S. and ensure we use 
federal research funding to create jobs and maintain a competitive 
workforce.
    NIST requests $142.6 million, a 14 percent increase, for the 
Manufacturing Extension Partnership (MEP) to expand their programs to 
provide technical support and links to community colleges and other 
partners for small and medium-sized manufacturers. There are great 
benefits to our communities where strong MEPs exist, like in my 
district. Companies that work with the Illinois Manufacturing Extension 
Center (IMEC) see, on average, 22 new or retained jobs and $100 in 
sales and productivity gains for every $1 they invest in IMEC, which 
strengthens the economy.
    Finally, the FY 12 budget also establishes an Advanced 
Manufacturing Technology Consortia (AMTC) within NIST to build 
partnerships with NSF, industry, and colleges and universities around 
the country. These investments will allow NIST to promote manufacturing 
innovation, build partnerships between researchers and industry, ensure 
our manufacturing workforce is prepared for future opportunities and 
challenges, and increase U.S. exports.
    I welcome our witnesses, and I look forward to their testimony.




</pre></body></html>
